<html>
<title> - S. Hrg. 108-966 THE IMPACTS OF CLIMATE CHANGE AND STATES' ACTIONS</title>
<body><pre>[Senate Hearing 108-966]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 108-966

                     THE IMPACTS OF CLIMATE CHANGE 
                          AND STATES' ACTIONS
=======================================================================

                                HEARING

                               BEFORE THE 

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                    U.S. GOVERNMENT PRINTING OFFICE
82-493 PDF                    WASHINGTON : 2013
___________________________________________________________________________
For Sale By The Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 6, 2004......................................     1
Statement of Senator Lautenberg..................................     2
    Prepared statement...........................................     3
Statement of Senator McCain......................................     1
Statement of Senator Snowe.......................................    45
    Prepared statement...........................................    45

                               Witnesses

Colburn, Kenneth A., Executive Director, Northeast States for 
  Coordinated Air Use Management (NESCAUM).......................     4
    Prepared statement...........................................     7
Curry, William B., Director, Ocean and Climate Change Institute, 
  Woods Hole Oceanographic Institution...........................    13
    Prepared statement...........................................    15
Epstein M.D., M.P.H., Paul R., Associate Director, Center for 
  Health And the Global Environment, Harvard Medical School......    20
    Prepared statement...........................................    23
Fraser, Dr. William R., President, Polar Oceans Research Group...    29
    Prepared statement...........................................    32
Mote, Ph.D., Philip W., Joint Institute for the Study of the 
  Atmosphere and Ocean, Climate Impacts Group, University of 
  Washington.....................................................    37
    Prepared statement...........................................    39

                                Appendix

Article dated September 7, 2003 from The Washington Post 
  entitled, ``Climate Change Is Really Bugging Our Forests'' by 
  Paul R. Epstein and Gary M. Tabor..............................    59
Response to written questions submitted by Hon. John McCain to:
    Kenneth A. Colburn...........................................    60
    Paul Epstein, M.D., M.P.H....................................    62
    Dr. William R. Fraser........................................    64
    Philip W. Mote, Ph.D.........................................    67
Response to written questions submitted by Hon. George Allen to:
    Paul Epstein, M.D., M.P.H....................................    69
Response to written questions submitted by Hon. John F. Kerry to:
    Kenneth A. Colburn...........................................    70
    William Curry, Ph.D..........................................    71
    Philip W. Mote, Ph.D.........................................    73
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    William B. Curry, Ph.D.......................................    75
    Paul Epstein, M.D., M.P.H....................................    75
    Dr. William R. Fraser........................................    76


           THE IMPACTS OF CLIMATE CHANGE AND STATES' ACTIONS

                              ----------                              


                         THURSDAY, MAY 6, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today, we continue with our 
series of hearings on the very critical topic of the impacts of 
global climate change, an issue of worldwide importance.
    During the four previous hearings on this issue, the 
Committee has heard testimony regarding climate change and the 
impact it's having on the environment and various species 
around the globe. We've learned that climate change is 
contributing to the changes in the migration and destruction of 
many species, causing the destruction of sensitive ecosystems, 
such as coral reefs, despite our best management efforts, 
forcing the relocation of villages in the Arctic region to 
escape rising sea levels from polar ice-melt, and affecting the 
ocean's circulation. Climate change is real, and presents a 
clear danger to public health.
    Arizona, my home state, is facing record droughts again 
this year. Two of the reservoirs on the Colorado River that 
supply water to much of the Southwest are only half full, due 
to the below-normal March snowfalls in the Rocky Mountains, and 
warming temperatures, which are consistent with climate change. 
This will only add to the ongoing drought, and exacerbate the 
wildfire concerns in my state. I'm looking forward to the 
testimony of Dr. Philip Mote, who will discuss the impacts of 
smaller snow packs on downstream water flows.
    While I'm concerned about what's occurring in Arizona and 
across the United States, we must realize that what happens in 
one part of the world affects the weather in another part. Last 
year, I had discussions with Brazilian scientists about how the 
destruction of the rain forest in Brazil is affecting the 
weather in the Southwestern United States. The Australian 
Minister for the Environment and Heritage recently discussed 
with me the impact of Antarctica's changing conditions on the 
weather in Australia. There are myriad examples of the 
interconnection of the weather in various parts of the world, 
and we need to wake up and take action now to address the 
growing impact of climate change. We must do more to reduce the 
greenhouse gas emissions here at home, and reach out 
internationally to educate others on the effects of climate 
change.
    We will also hear from those who must deal with the 
climate-change-related public health issues firsthand--the 
states. The states have consistently taken the lead in 
addressing major environmental problems in the United States. 
It appears that, for climate change, the same is true. Although 
many countries are already taking action to require mandatory 
reductions in the emission of greenhouse gases, the United 
States is not.
    In an effort to make the reduction of greenhouse gases a 
priority in the United States, Senator Lieberman and I 
introduced S. 139, the Climate Stewardship Act of 2003, in 
January of last year. S. 139 would require mandatory reductions 
in the U.S. greenhouse gas emissions, and would provide a 
trading system as a means for industry to meet these mandatory 
reductions. While the bill was voted on last fall by the 
Senate, and failed by a vote of 55 to 43, I believe the time 
has come for another vote. It's my hope that the evidence 
presented here today, along with the information from other 
hearings on the issue, will serve to educate not only the 
Members of this Committee, but all Members, that climate change 
and its impact on the environment is real.
    I welcome our witnesses today, and look forward to their 
testimony.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. And I commend you 
for holding this, the third, hearing in the last year on the 
impacts of global warming. And I very much appreciate your 
directing us to focus on the very real threats of global 
climate change.
    We already see the impacts of global warming, and they'll 
continue to mount, harming our health, our economy, and the 
Earth's ecology if we fail to act. And I hope that the time to 
act has not totally passed us by.
    New reports and scientific updates on the impacts of 
climate change continue to provide fresh evidence that our 
world is undergoing a dramatic shift in its temperature, and 
that human activities are mainly responsible. The Pentagon's 
report on climate change, which was disclosed last February, 
described some of the very frightening potential scenarios. 
These could play out in the event of an abrupt climate change, 
kind of going over the cliff, which scientists tell us could 
happen. Over the next 20 years, for instance, we could 
experience unprecedented droughts, famine, riots, and wars of 
survival. Last summer, 35,000 people died during the heat wave 
that enveloped Europe. It was the hottest summer there in five 
centuries.
    But such deterioration of society does not have to happen. 
With America's capacity to innovate, our wealth, our 
technological expertise, we could be leading the world effort 
to reduce greenhouse gas emissions, instead of lagging behind.
    Frankly, our unwillingness to take action is an 
international embarrassment. Striking events are occurring that 
cannot be ignored, events such as last October's breakup of the 
Artic's largest ice shelf, the Ward Hunt Ice Shelf. It had been 
unchanged for 3,000 years, and then broke into two pieces after 
having lost 90 percent of its mass in less than a century. 
Since 1950, the average thickness of Arctic ice has decreased 
by a staggering 40 percent. No doubt, more ice shelf breakups 
can be expected.
    Ocean levels around the globe have risen four to eight 
inches in the 20th century, and are expected to rise another 
four to 35 inches this century. For my home state of New 
Jersey, with its 127 mile shoreline, that could be 
catastrophic. And according to the Environmental Protection 
Agency, the sea level along the New Jersey shoreline has been 
rising at 15 inches a century, at least twice the global 
average. And understand this, it is likely to rise another 27 
inches by the end of the 21st century. I hate to imagine what 
would happen to my state's population and our economy if that 
rise in sea level continues as expected. This vulnerability is 
clearly compounded by the heavy concentration of population in 
coastal areas here and around the world. And, again, I believe 
that the message here is simple, that time has come when we 
must act.
    Global warming is a serious business. The consequences are 
very serious. And Congress must be equally serious in 
addressing it.
    Mr. Chairman, thank you. I look forward to our witnesses' 
testimony.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman:

    I want to commend you for holding this hearing, the third hearing 
in the last year just on the impacts of global warming. Thank you for 
helping us to focus on the very real threats of global climate change.
    We can already observe the impacts of global warming, and they will 
continue to mount, harming our health, our economy, and the earth's 
ecology--if we fail to act.
    New reports and scientific updates on the impacts of climate change 
continue to provide fresh evidence that our world is undergoing a 
dramatic shift in its temperature, and that human activities are mainly 
responsible.
    The Pentagon's report on climate change, which was disclosed last 
February, described some of the frightening potential scenarios that 
could play out in the event of ``abrupt climate change,'' which the 
scientists tell us could happen. Over the next 20 years, for instance, 
we could experience unprecedented droughts, famines, riots, and wars of 
survival.
    Last summer, 35,000 people died during the heat wave that blanketed 
Europe; it was the hottest summer there in five centuries.
    But such deterioration of society does not have to happen. With 
America's capacity to innovate, our wealth, and technological 
expertise, we could be leading the world effort to reduce greenhouse 
gas emissions, instead of lagging behind. Frankly, our unwillingness to 
take action is an international embarrassment.
    Striking events are occurring that cannot be ignored: events such 
as last October's break-up of the Arctic's largest ice shelf--the Ward 
Hunt Ice Shelf which had been unchanged for 3,000 years and then broke 
into two pieces after having lost 90 percent of its mass in less than a 
century.
    Since 1950, the average thickness of Arctic ice has decreased by a 
staggering 40 percent. No doubt, more ice shelf break-ups can be 
expected.
    Ocean levels around the globe have risen 4 to 8 inches in the 20th 
Century, and are expected to rise another 4 to 35 inches this century.
    For my home State of New Jersey, with a 127 mile shoreline, that 
could be catastrophic.
    According to the Environmental Protection Agency, the sea level 
along the Jersey shoreline has been rising at 15 inches per century, at 
least twice the global average. And--get this--it is likely to rise 
another 27 inches by the end of the 21st Century.
    Mr. Chairman, I hate to imagine what that would do to my State's 
population and our economy.
    This vulnerability is clearly compounded by the heavy concentration 
of population in coastal areas here and around the world.
    Again, I believe the message here is simple: the time has come to 
act.
    Global warming is serious business. Its consequences are very 
serious. And Congress must be equally serious in addressing it.
    Thank you, Mr. Chairman.

    The Chairman. Thank you very much.
    Our panel is Mr. Ken Colburn, the Executive Director of the 
Northeast States for Coordinated Air Use Management; Dr. 
William Curry--Will the witnesses please come forward?--Dr. 
William Curry, Department of Geology and Geophysics, Woods Hole 
Oceanographic Institute; Dr. Paul Epstein, the Associate 
Director of the Center for Health and Global Environment, at 
Harvard Medical School; Dr. William Fraser, President of Polar 
Oceans Research Group; and Dr. Philip Mote, a Research 
Scientist at the University of Washington.
    And I welcome our panelists.
    And, Mr. Colburn, we will begin with you. And I want to 
welcome all of you for being here this morning.

           STATEMENT OF KENNETH A. COLBURN, EXECUTIVE

         DIRECTOR, NORTHEAST STATES FOR COORDINATED AIR

                    USE MANAGEMENT (NESCAUM)

    Mr. Colburn. Thank you, Mr. Chairman. It's a delight to be 
here.
    My name's Ken Colburn. I'm the Executive Director of the 
Northeast States for Coordinated Air Use Management. We are an 
association of the air pollution control agencies of the eight 
northeast states, the six New England states, plus New York and 
New Jersey. Thank you for the opportunity to address the 
Committee regarding states' actions to address climate change.
    The biggest concern I have, Senator, is staying within 5 
minutes, because so much is going on. Your timing's 
particularly opportune. Regional, state, municipal, civic and 
private sector progress is advancing so rapidly that we may be 
close to a tipping point.
    This week is a good example. On Monday, the northeast 
states met in New York with a high-level British delegation 
about climate activities and international trading. Yesterday, 
the Connecticut General Assembly passed legislation 
establishing economywide emission reductions, and authorizing a 
greenhouse gas registry, and requiring mandatory reporting of 
greenhouse gas emissions.
    The Chairman. Was the Connecticut law along the lines of 
the California law?
    Mr. Colburn. Senator, I'm not sure if California has those 
provisions. California has many provisions, so it's probably--
--
    The Chairman. On emissions?
    Mr. Colburn. California's is largely, at this point, on 
vehicles, if I recall correctly. And I do cover that later in 
testimony, Senator.
    The Chairman. OK, thank you. I'm sorry to interrupt.
    Mr. Colburn. Also yesterday, Governor Don Carcieri, of 
Rhode Island, indicated that his state would adopt California 
clean car requirements. And today in Boston, Governor Mitt 
Romney is announcing Massachusetts' new comprehensive climate 
protection plan.
    Absent concerted Federal action to address climate change, 
states have stepped up to fill this policy void, as much out of 
economic self interest as fear of devastating climate impacts. 
Historically, the states have led by example, serving as a 
catalyst for Federal action by showing that the disaster 
scenarios predicted by special interests don't, in fact, come 
to pass.
    In terms of context, the states recognize that economic 
well-being and environmental quality are cornerstones to 
quality of life, and there is strong scientific consensus that 
human activity is interfering with the climate. If we continue 
down the path we're on, the climate of Boston will relocate to 
somewhere between Richmond and Atlanta in the next hundred 
years.
    The states also see that jobs producing mitigation 
measures, like developing and installing energy efficiency and 
renewable technologies, are in their own best interests. Such 
steps enhance energy security and reliability, keep our energy 
dollars closer to home, provide greater business certainty, 
boost our technology sector, assuage financial-sector concerns, 
provide significant public health benefits, and secure 
competitive advantage for the future. Not surprisingly, then, 
state efforts are strongly bipartisan and enjoy solid 
constituent support.
    The climate actions being taken by individual states are so 
numerous that I can only cover a handful of them in order to 
also discuss regional climate actions. Many of the states are 
encouraging penetration of renewable energy--solar, wind, 
biomass--in the marketplace, and a number of states have 
committed to substantial renewable-power purchases themselves. 
These include, for example, New York, under Governor Pataki's 
Executive Order 111--insists that 20 percent of the power 
purchased by the state come from renewable sources. Connecticut 
Governor John Rowland's Executive Order 32 seeks 20 percent in 
state purchases by 2010, and a hundred percent by 2050. Over 
half the northeast states have adopted a renewable portfolio 
standard. And nationwide, at least 13 states have done so.
    The states are also working to reduce motor vehicle 
greenhouse gas emissions. In 2002, the California State 
Assembly adopted legislation requiring maximum feasible 
reductions of greenhouses gases from cars and trucks starting 
in 2009. New technologies, even ones less expensive than the 
hybrids that are already enjoying success in the marketplace, 
can reduce greenhouse gases from vehicles by 25 percent and 
still save money for consumers over the life of the vehicle. 
Massachusetts, New York, Vermont, and Maine adopted clean car 
California regulations years ago. And this very year, New 
Jersey, Connecticut, and Rhode Island have joined them.
    In the power sector, for pollutant emission reduction 
requirements for power plants have already been adopted in 
Massachusetts and New Hampshire. Oregon and Massachusetts also 
require newly built power plants to offset some of their carbon 
dioxide emissions.
    The list doesn't stop there. There are state climate 
registries being built. State actions plans, on the order of 27 
states are working on plans. In June 2003, Maine's legislature 
ordered economy-wide greenhouse gas reductions, and joined New 
Jersey in requiring reporting of greenhouse gas emissions from 
sources. States are investing, annually, about half a billion 
dollars in energy efficiency and renewable energy, just in the 
Northeast. New York alone is $300 million a year.
    Last, the states are acting through their attorneys 
general, where necessary. Twelve states have challenged EPA's 
assertion that it does not have the authority to regulate 
greenhouse gases under the Clean Air Act.
    States have also come together regionally to act on climate 
change. Uniform regional approaches often prove more cost 
effective and efficient in meeting reduction targets. In 2001, 
for instance, the six New England Governors and five Eastern 
Canadian premiers adopted a joint climate action plan calling 
for reductions in greenhouse gases to 1990 levels by 2010; a 
mid-term goal, an interim goal, of 10 percent below that by 
2020; and then a long-term target of 75 to 85 percent 
reductions. And they've started with several initiatives, 
including an adaptation conference, the first time a major 
adaptation symposium's been held in pursuit of that climate 
action plan.
    A regional greenhouse gas registry is also being developed 
in the Northeast. The registry is a system for organizing, 
reporting, recording greenhouse gas emissions information in 
support of current and future climate programs. Participants in 
this include the eight northeast states, but also Delaware and 
Pennsylvania, and it's open to other states, as well. This 
effort will be consistent with international protocols 
established by the World Resources Institute and the World 
Business Council for Sustainable Development, and it'll be 
compatible with the World Economic Forum's Climate Register and 
the California Climate Action Registry.
    State interest in climate has advanced so rapidly, however, 
that, a year ago, New York Governor George Pataki invited the 
Governors of ten northeast states and mid-Atlantic states to 
join in developing a regional cap-and-trade program for 
CO<INF>2</INF> from the power sector. Dubbed the Regional 
Greenhouse Gas Initiative, or RGGI, this multi-state effort 
crosses the threshold from voluntary climate initiatives to a 
regulatory program. As such, it arguably represents the most 
significant effort to address climate change now underway in 
the United States. Nine states have signed on as full 
participants, and several others are observing, including 
international observers, Canadians and the Australians. 
Australians are looking at how a similar effort might be 
accomplished ``down under,'' or coordinated with the RGGI. 
While RGGI's first focusing on CO<INF>2</INF> emissions from 
power plants, it's likely to expand to other sources, other 
gases, and into offset opportunities, like sequestration.
    And then, finally, the West Coast is also getting in on 
this act. The Governors of the three West Coast states have 
begun to discuss regional climate mitigation strategies, have 
launched some initial steps, including procurement, reducing 
diesel use in ports, incentives for renewables, and energy 
efficiency standards, and they're coming in with a more 
comprehensive plan, I understand, this September.
    In conclusion, Senator, this testimony represents just a 
humble sampling of the climate efforts underway at the state 
and regional scale. But bottom-up state, local, and regional 
action, while heartening, cannot substitute for collective 
national action. The United States' greenhouse gas emissions 
are rising rapidly, and only concerted action at the Federal 
level will put us on a path to ultimately reverse this trend. 
The national policies reduce uncertainty for the business 
community, and reduction targets can be reached in a more 
efficient and cost effective manner if tackled at the national 
scale.
    There are many lessons to be learned from the states, and 
we hope that Federal policymakers will regard the states' 
innovative climate mitigation and adaptation strategies as 
models, and will quickly take action. Climate change has 
already begun to take its toll on our states' economies and 
natural resources. We need to act while the window to avert 
dangerous climate interference and to maximize economic 
opportunity is still open.
    Thank you very much, Senator.
    [The prepared statement of Mr. Colburn follows:]

     Prepared Statement of Kenneth A. Colburn, Executive Director, 
     Northeast States for Coordinated Air Use Management (NESCAUM)
    Thank you, Mr. Chairman. My name is Ken Colburn. I am the Executive 
Director of the Northeast States for Coordinated Air Use Management 
(NESCAUM). NESCAUM is an association of the state air pollution control 
agencies of Connecticut, Maine, Massachusetts, New Hampshire, New 
Jersey, New York, Rhode Island and Vermont. We provide technical 
assistance and policy analysis to our member states on regional air 
pollution issues of concern to the Northeast. On behalf of the states, 
I would like to express our appreciation for this opportunity to 
address the Committee regarding the impacts of climate change and 
states' actions to address climate change. The timing is particularly 
opportune: regional, state, municipal, civic, and private sector 
progress on climate change is paving the way for future U.S. action, 
and may be rapidly approaching a tipping point.
    This very week is illustrative: One Monday, the Northeast States 
met in New York with a British delegation headed by Margaret Beckett, 
Secretary of State for Environment, Food, and Rural Affairs concerning 
climate change activities and trading. Yesterday, the Connecticut 
General Assembly passed SB 595, establishing concrete emission 
reduction targets, requiring mandatory reporting of greenhouse gas 
emissions, and authorizing a voluntary greenhouse gas (GHG) registry. 
Also yesterday, Rhode Island Governor Donald Carcieri indicated that 
his state would adopt California's cleaner vehicle requirements. And 
today in Boston, Massachusetts Governor Mitt Romney is announcing his 
administration's comprehensive new Climate Protection Plan.
    In the absence of concerted Federal action to address climate 
change, many states have stepped up to fill this policy void, as much 
out of economic self-interest as fear of devastating climate impacts or 
a sense of obligation due to culpability or ability-to-pay. In the 
process, they have become a testing ground for some of the most 
progressive climate change efforts around the globe.
    In particular, the Northeast, Mid-Atlantic, and Western coastal 
states, as well as a handful of others, have undertaken an abundance of 
climate initiatives: renewable electricity mandates, state and regional 
GHG registries, mandatory GHG reporting, statewide caps on GHG 
emissions, GHG reductions from motor vehicles, and now, a power sector 
cap-and-trade program. The states are not just a laboratory to 
experiment with U.S. climate change policy; their own GHG emissions are 
significant. Taken collectively, the eight Northeast states and 
California would rank among the sixth largest GHG emitters in the 
world. Even without California, the eight Northeast states would rank 
among the top ten, in a league with Canada, Australia, and France. 
Historically, our states have led by example, and this environmental 
leadership has served as a catalyst for Federal action, once the 
disaster scenarios predicted by opponents do not, in fact, come to 
pass.
    In this testimony, I will: (1) briefly describe the context and 
rationale which has spurred state and regional action on climate 
change; (2) outline a number of regional climate actions, such as the 
development of a regional greenhouse gas cap-and-trade program and 
regional greenhouse gas registry; and (3) highlight a few of the 
countless state climate initiatives underway.
Context and Rationale for Regional and State Action on Climate Change
    Perhaps counter-intuitive at first glance, it is actually not 
surprising that the states are shouldering the daunting task of 
addressing climate change. The states increasingly recognize that 
economic well-being and environmental quality are positively 
correlated; both are cornerstones to quality of life. The states are 
also acting within a strong scientific consensus confirming that 
increasing concentrations of atmospheric greenhouse gases are largely 
the result of human activity. If we continue down the path we're on, 
scientists estimate that the climate of Boston could ``relocate'' to 
somewhere between that of Richmond and Atlanta over the next hundred 
years--drastically altering the economies, ecosystems, and quality of 
life our citizens enjoy today.
    States and regions are already experiencing the impacts of global 
warming and have little choice but to act. Climate change has already 
begun to take its toll on a number of industries--tourism and 
recreation (e.g., skiing and snowmobiling), agriculture (e.g., maple 
sugaring), pulp and paper, lumber and wood products, and hunting and 
fishing. These effects directly impact state budgets, reducing revenues 
and increasing expenditures.
    The states have the foresight to see that jobs-producing GHG 
mitigation measures--like developing and installing energy efficiency 
and renewable technologies of the future--are in their own best 
interests. Such steps enhance energy security and reliability, keep our 
energy dollars closer to home, boost our technology sector, provide 
greater business certainty, assuage the financial and investment 
community, provide significant health co-benefits, and secure 
competitive advantage for the future. (See Figure 1.) Not surprisingly, 
then, such efforts are strongly bi-partisan and enjoy solid constituent 
support.
    In short, the states are responding to climate change by 
positioning themselves defensively to protect their existing economies 
and reduce their vulnerability to climate risks; offensively to get 
ahead on the learning curve and secure the economic advantages accruing 
to early actors; and aggressively to protect public health, ecosystems, 
and overall quality of life.
Figure 1. Old or New Energy Path?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

State Climate Actions
    The states' responses have resulted in diverse strategies and a 
range of policy opportunities to move forward in addressing climate 
change. The climate action measures taken by individual states are 
virtually innumerable, so I will only be able to highlight a handful of 
them.
Renewable Energy Requirements
    Many states are implementing steps to encourage the penetration of 
renewable energy (RE) such as solar, wind, and biomass in the 
marketplace. Several states have committed to purchasing significant 
amounts of renewable power themselves. New York Governor George 
Pataki's Executive Order 111, for example, insists that 20 percent of 
all power purchased by the state come from renewable sources. 
Connecticut Governor John Rowland's Executive Order 32, announced last 
month, seeks 20 percent RE in state purchases by 2010 and 100 percent 
by 2050. Others have adopted renewable portfolio standards (RPS)--
market mechanisms that ensure a percentage of electricity sold is 
generated by RE sources. Over half of the Northeast states have 
implemented renewable energy portfolio standards, ranging from 4 
percent to 30 percent. Nationwide, at least thirteen states (Arizona, 
California, Connecticut, Iowa, Maine, Massachusetts, Minnesota, Nevada, 
New Jersey, New Mexico, Pennsylvania, Texas, and Wisconsin) have 
established RPSs and more states (e.g., New York) are joining them.
Reducing Motor Vehicle GHG Emissions
    In 2002, the California State Assembly adopted legislation (AB 
1493) requiring maximum feasible reductions in GHG emissions from light 
duty cars and trucks starting in 2009. Initial assessments have shown 
that new vehicle technologies--even less expensive than the hybrids 
already enjoying success in the marketplace--can reduce vehicle GHGs by 
at least 25 percent and save owners money over the life of the vehicle. 
Many other states already have or intend to adopt these California 
requirements. Massachusetts, New York, Vermont, and Maine have done so, 
joined this year by New Jersey and Connecticut following successful 
legislation. Rhode Island Governor Donald Carcieri announced yesterday 
that his state would follow suit.
    States are also reducing emissions from their own fleets through 
vehicle procurement and use policies. Maine has an executive order 
insisting that state employees work to reduce Vehicle Miles Traveled 
(VMT) through videoconferencing, telecommuting, and carpooling, and 
requiring the purchase of hybrid electric vehicles where cars are 
necessary. Massachusetts requires state vehicles to be ULEV or better 
and to get at least 20 miles per gallon. It, along with Rhode Island, 
also limits the purchase and use of SUVs in state fleets. Last year in 
New York, 89 percent of vehicles purchased were hybrid or alternate 
fueled, en route to 100 percent by 2010. In addition, the NY 
Metropolitan Transit Authority is installing particulate traps three 
years ahead of schedule and purchasing 300 hybrid buses.
Reducing Power Sector GHG Emissions
    A handful of states have moved forward by ``four-pollutant'' 
emission reduction requirements on power plants, covering sulfur 
dioxide, nitrogen oxides, mercury and carbon dioxide. Massachusetts 
adopted the first such regulations limiting power plant emissions in 
2001. New Hampshire followed suit in legislation the next year, the 
first time that elected officials had voted to regulate carbon dioxide 
emissions from power plants. In addition, Oregon passed pioneering 
legislation in 1997, requiring newly built power plants to offset 
roughly 17 percent of their carbon dioxide emissions. Facilities can 
propose offset projects that they or a third party manage or can 
provide funding to the independent Climate Trust, an organization which 
has been granted authority to obtain qualifying offsets for the 
facilities.\1\ Massachusetts has similar requirements regarding new 
power plants constructed there.
---------------------------------------------------------------------------
    \1\ http://www.energy.state.or.us/siting/co2std.htm
---------------------------------------------------------------------------
    In April of 2004, New Mexico Governor Bill Richardson and 
California Governor Arnold Schwarzenegger recommended to the Western 
Governors' Association that it set a goal of developing at least 30,000 
megawatts of clean energy in the West by 2015 and increase energy 
efficiency by 20 percent by 2020. The Governors have proposed to create 
a clean energy working group to develop a set of policy proposals for 
official presentation to the Western Governors within the next two 
years.\2\
---------------------------------------------------------------------------
    \2\ http://www.westgov.org/wga/initiatives/energy/summit/clean-
energy.pdf
---------------------------------------------------------------------------
Climate Action Plans
    Many states have developed energy and climate action plans, which 
lay out strategies to curb greenhouse gas emissions and list action 
items to achieve targets. New Jersey set one of the first reduction 
targets at a 3.5 percent reduction from 1990 levels by 2005. New York's 
Energy Plan includes an economy-wide GHG reduction of 10 percent below 
1990 levels by 2010. Governor Rowland of Connecticut accepted in March 
a plan with 38 recommendations, such as requiring energy efficiency 
measures in new state buildings. Rhode Island recently completed, and 
is now implementing a state-of-the-art climate change plan, and Maine 
is soon to finalize one. The Northeast is not unique in this respect. 
According to the Environmental Protection Agency, as of September 2003, 
27 states were working on climate action plans, and the large majority 
of those states have already released their plans publicly at this 
point in time.\3\ Not surprisingly, a broad diversity of GHG mitigation 
strategies are employed in these plans, such as tax incentives for fuel 
switching, recycling programs, methane reclamation programs, energy 
efficiency audits, and more.
---------------------------------------------------------------------------
    \3\ http://yosemite.epa.gov/oar/globalwarming.nsf/content/
ActionsStateActionPlans.html#act
ionplans
---------------------------------------------------------------------------
State Climate Registries
    A number of individual states have developed their own greenhouse 
gas registries. Several have done so at least in part due to the 
perceived shortcomings of the Federal program for voluntary reporting 
of greenhouse gases under Section 1605(b) of the Energy Policy Act of 
1992 and to encourage credible voluntary emission reductions from the 
private sector by providing them--to the extent possible--with 
``baseline protection.''
    New Hampshire was the first state to create a greenhouse gas 
registry in 1999. Building on this lead, Wisconsin's Voluntary 
Emissions Reduction Registry was adopted in 2000 and allows for the 
registration of mercury, fine particulate matter, and other 
contaminants in addition to greenhouse gases. The most advanced state 
registry, California's Climate Action Registry, is widely considered 
the most credible and respected registry in the world. Over the past 
year, the California Registry and its partners have dedicated 
substantial resources to developing industry ``best practices'' and 
quantification and reporting protocols--as well as an online reporting 
tool (the California Action Registry Reporting Online Tool, or 
CARROT)--for use by participants, the media, and the public.
Other State Climate Actions
    The list doesn't stop there. In June of 2003, Maine's legislature 
ordered economy-wide GHG reductions, and joined New Jersey in requiring 
mandatory reporting of GHG emissions. Connecticut's legislature passed 
SB 595 this week which includes both these initiatives. Through the use 
of ``system benefits charge'' funds, approximately half a billion 
dollars annually are being dedicated to clean energy and energy 
efficiency initiatives in the Northeast. New York State alone invests 
$300 million annually.
    In a recent enforcement settlement with a utility, New Jersey 
included carbon dioxide reduction requirements. New York has introduced 
a ``green building'' tax credit. Several states have adopted new energy 
efficiency standards for appliances. Connecticut expects its bill, 
passed this session, to save consumers $380 million in energy costs by 
2020.
    Governor Arnold Schwarzenegger last month initiated California's 
``Hydrogen Highway Network'' to accelerate progress toward (and his 
state's lead in) the hydrogen economy. California is also studying how 
it can reduce its dependence on petroleum fuels by 15 percent from 2003 
levels by 2020. New York Governor Pataki suggested on April 23, 2004 
that we work on the scale of the Manhattan Project or man's lunar 
landing to wean the U.S. from imported oil.
Litigation
    Lastly, states are also acting through their state attorneys 
general. States concerned about climate change will turn to the courts, 
when necessary, regarding the Federal government's interpretation of 
its ability to regulate climate-altering gases. In one lawsuit, filed 
in October 2003, twelve states (California, Connecticut, Illinois, 
Maine, Massachusetts, New Jersey, New Mexico, New York, Oregon, Rhode 
Island, Vermont, and Washington) and several cities challenged EPA's 
assertion that it does not have the authority to regulate greenhouse 
gases under the Clean Air Act.
Regional Climate Actions
    While bottom-up, state-by-state climate action can lead to 
significant reductions in greenhouse gases and also to diverse policy 
initiatives, there are limitations to a decentralized approach to 
addressing climate change. The regulated community can be stymied by a 
patchwork of state policies, and insufficient state resources can 
retard action. As a result, states have begun to come together to act 
regionally on climate change. Uniform policies under a regional 
approach have often proven to be more cost effective and efficient in 
meeting reduction targets.\4\
---------------------------------------------------------------------------
    \4\ Rabe, Barry G. ``Greenhouse & Statehouse: The Evolving State 
Government Role in Climate Change.'' Washington, D.C.: Pew Center on 
Global Climate Change, 2002.
---------------------------------------------------------------------------
    I would like to outline a few of the regional activities taking 
place in the United States today to curb greenhouse gas emissions. 
These efforts have brought about an unprecedented level of cooperation 
and are testament to the idea that bottom-up state action can lead to a 
more centralized form of climate change governance. Just as state 
action has paved the way for regional action, a flurry of regional 
activities might very well compel national action.
The NEG/ECP Climate Action Plan
    Based on prior successes implementing regional agreements to 
address acid rain and mercury contamination, the New England Governors 
and Eastern Canadian Premiers (NEG/ECP) adopted a joint Climate Change 
Action Plan in August 2001. This Plan established a short-term goal to 
reduce GHG economy-wide emissions to 1990 levels by 2010, a mid-term 
goal to reduce to 10 percent below 1990 levels by 2020, and a long-term 
future target 75-85 percent below current levels. The Plan's nine 
action items include:

  1.  Establishing a standardized regional GHG emissions inventory;

  2.  Establishing a plan for reducing GHG emissions and conserving 
        energy;

  3.  Promoting public awareness;

  4.  Leading by example by reducing public sector GHG emissions by 25 
        percent by 2012;

  5.  Reducing electricity sector GHG emissions by reducing carbon 
        dioxide emissions per megawatt-hour by 20 percent by 2025;

  6.  Reducing total energy demand by 20 percent by 2025 through 
        conservation and increased energy savings;

  7.  Mitigating and adapting to negative social, economic, and 
        environmental impacts of climate change;

  8.  Reducing growth in transportation sector GHG emissions; and

  9.  Establishing a regional GHG emissions registry and exploring 
        future GHG trading.

    A climate change steering committee has been created to develop and 
evaluate mitigation programs. Initiatives developed so far include 
regional green procurement, clean vehicle programs, college and 
university partnerships, inventory and registry development, 
jurisdictional ``lead by example'' programs, and a major symposium on 
adaptation to our changing climate. These programs have been far 
reaching in helping governors and premiers meet climate targets. For 
example, the adaptation symposium, held in March 2004, was an 
unprecedented event, assembling policy-makers, scientists, and 
environmentalists for the first time to discuss and share strategies to 
address climate impacts on natural resources and civic infrastructure 
in the Northeast.
Regional Greenhouse Gas Registry (RGGR)
    As noted above, the NEG/ECP Climate Action Plan's ninth action item 
called for the establishment of a regional greenhouse gas registry. 
Such a registry provides a system for organizing, reporting, and 
recording of information on GHG emissions in order to facilitate 
current and future climate programs.
    A regional greenhouse gas registry for the Northeast is now under 
development at the Northeast States for Coordinated Air Use Management 
(NESCAUM). Beyond the NESCAUM states, regional registry participants 
also include Delaware and Pennsylvania, with several other states 
outside of the Northeast observing the process. This effort expects to 
quantify and report GHG emissions in a manner that is consistent with 
the GHG Protocol established by the World Resources Institute and the 
World Business Council for Sustainable Development, and it will be 
compatible with the World Economic Forum's climate register and the 
respected California Climate Action Registry. Expected to be completed 
in mid-2005, the registry development process is open to states outside 
of the region that are considering--but have not yet made--GHG 
reduction commitments. When finished, it will serve a sizeable region 
and encompass a number of functions, including potential baseline 
protection for proactive companies, improving the quality of GHG 
inventories, supporting mandatory reporting of GHG emissions, and 
serving as the emissions tracking system for a future regional GHG cap-
and-trade program.
Regional Greenhouse Gas Initiative (RGGI)
    In 2001, the latter function of the regional registry, supporting a 
future cap-and-trade program, was but a placeholder for eventual 
consideration. However, state interest in climate action has advanced 
so rapidly that in April 2003, New York Governor George Pataki publicly 
invited the Governors of ten Northeast and Mid-Atlantic states to join 
together to develop a regional cap-and-trade program for the power 
sector. Dubbed the Regional Greenhouse Gas Initiative (RGGI), this 
multi-state effort elevates climate mitigation strategies from 
voluntary initiatives to a regulatory program. As such, it arguably 
represents the most significant effort to address climate change now 
underway in the United States.
    To date, nine states (Connecticut, Delaware, Maine, Massachusetts, 
New Hampshire, New Jersey, New York, Rhode Island, and Vermont) have 
signed on as full participants in RGGI. In addition, several other 
jurisdictions are participating as observers (Maryland, Pennsylvania, 
the District of Columbia, the Eastern Canadian Provinces, and New 
Brunswick). The Australian states of Victoria and New South Wales, also 
leaders in state-level climate action, are also staying abreast of RGGI 
and how a similar or complementary effort might be initiated ``down 
under.'' While RGGI is initially focusing on CO<INF>2 </INF>emissions 
from power plants, in later phases it may be expanded to other sources 
of emissions, as well as other greenhouse gases and offset 
opportunities.\5\
---------------------------------------------------------------------------
    \5\ http://www.rggi.org
---------------------------------------------------------------------------
    In July 2003, the participating states designated state 
representatives--from both state environmental agencies and energy 
offices--to the ``RGGI Staff Working Group (SWG).'' The SWG developed 
an action plan, which was endorsed by environmental commissioners and 
energy regulatory agency executives in September 2003. In its early 
meetings, the Staff Working Group determined RGGI's program goals, 
principles guiding its design, organization, and short-term tasks. The 
ambitious RGGI work plan has set April 2005 as its target date for 
completing model cap-and-trade regulations.
West Coast Governors Challenge
    The Governors of the three West Coast states have similarly begun 
to develop regional climate mitigation strategies. Individually, these 
states have crafted progressive state climate policies. However, the 
Governors agreed that a uniform approach would be more efficient and 
could spur further progress. Thus, in September of 2003, the Governors 
of California, Oregon and Washington launched a collective strategy to 
address climate impacts, a series of joint policy measures to curb 
greenhouse gas emissions. The list of recommendations includes: group 
procurement of fuel-efficient vehicles; reducing the use of diesel fuel 
in ships; removing market barriers and creating incentives for 
renewables; upgrading efficiency standards; and improving emissions 
measurement and inventory practices. The Governors have extended the 
invitation to Canadian provinces, Mexican states, and other states 
throughout the Nation to join in this collaborative.
Conclusion
    This testimony reflects only a humble sampling of the climate 
efforts underway at the state and regional scale. Climate change 
mitigation efforts in the Northeast and elsewhere extend well beyond 
state and regional activities. Counties, municipalities, and civic 
institutions have joined in, as the success of the Cities for Climate 
Protection program of the International Council of Local Environmental 
Initiatives (ICLEI) shows. Universities, hospitals and institutions are 
providing leadership in protecting the global climate. And businesses 
are acting without mandate, voluntarily curbing their GHG emissions. 
Many are saving money as a result. Insurers and the financial markets 
are starting to critically assess the climate risks and opportunities 
individual companies may face--and how they are responding. 
Shareholders are even making climate change a top priority, gaining 
unusually large votes on shareholder resolutions at corporate annual 
meetings.
    This said, bottom-up, decentralized action--while heartening--
cannot be a substitute for collective national action. The United 
States' greenhouse gas emissions are rising rapidly and only concerted 
action on the Federal level will place us on a path towards 
significantly curbing and eventually reversing this GHG emission trend. 
The diverse nature of state policies heightens uncertainty for the 
regulated community, and reduction targets can be reached in a more 
efficient and cost-effective manner if tackled on a national level.
    However, there are many lessons to be learned from the states, 
which, in the absence of Federal action, have served as laboratories 
for climate policy development. We hope that Federal policymakers will 
regard the states' innovative climate mitigation and adaptation 
strategies as models and quickly take action. Climate change has 
already begun to take its toll on our states' economies and natural 
resources. We need to act while the window to avert dangerous 
interference with natural climate systems may be still open.

    The Chairman. Thank you.
    Dr. Curry, welcome.

            STATEMENT OF WILLIAM B. CURRY, DIRECTOR,

              OCEAN AND CLIMATE CHANGE INSTITUTE,

              WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Dr. Curry. Thank you, Mr. Chairman. Thank you, Members of 
the Committee.
    My name is William Curry. I'm a scientist at the Woods Hole 
Oceanographic Institution. I'm the Director of the Ocean and 
Climate Change Institute at that institution. And my background 
as a scientist is that I study the history of ocean circulation 
on a variety of time scales, trying to understand how the ocean 
works with the atmosphere to produce the climate that we 
experience on Earth.
    Today, I'd like to speak to you about some intriguing 
changes in the ocean that have been detected by researchers 
only in the last several years, but they involve changes in the 
ocean that have been happening for the last 40 years.
    The Chairman. How long have you been doing this, Dr. Curry?
    Dr. Curry. Since 1980, Senator.
    About 2 years ago, a paper was published that showed that, 
for the last 40 years, the subpolar and polar regions of the 
North Atlantic Ocean were getting fresher, meaning that fresh 
water was being added to the ocean's salty water at those high 
latitude locations. And then, just this past year, another 
paper was published showing that the tropical Atlantic has been 
getting saltier. The way the ocean gets saltier is that heat 
evaporates water from the surface of the ocean, taking fresh 
water away and leaving the salts behind, and concentrating 
them. So for the last 40 years, the tropical Atlantic has been 
getting saltier, while the subpolar region has been getting 
fresher.
    The increase in salinity is actually global. It can be seen 
in the Pacific, the Indian Ocean, as well as in the 
Mediterranean Sea. Every tropical location in the oceans now 
has been getting saltier in recent decades. And then the 
subpolar Atlantic has been getting fresher.
    Now, this is a consequence of a warmer atmosphere and a 
warmer ocean. It also has climatic consequences, or climatic 
possible consequences, because salinity controls one of the 
ways that the ocean circulates, and the ocean moves heat around 
the planet in ways that affects our climate.
    So if I can just describe it quickly, salty water is denser 
than fresh water, and cold salty water is the densest water in 
the oceans, and it sinks, and it sinks to the deepest depths of 
the ocean. And in today's ocean, that water sinks in the North 
Atlantic, flows as a deep current, and, about a thousand years 
later, comes up in the Pacific and Indian Oceans. It's a long-
term large scale circulation system.
    The climatic consequence of that is that warm waters, part 
of which we would think of as the Gulf Stream off of our 
eastern coast, is delivering a large amount of heat to the 
North Atlantic region, particularly each winter, where the 
waters are actually warmer than the overlying atmosphere. And 
it's the process of giving up that heat that is the major 
climatic impact in the North Atlantic region, due to ocean 
circulation.
    Now, the freshening that's been observed at high latitudes 
of the North Atlantic threaten this circulation system, because 
if you----
    The Chairman. Could I stop you there?
    Dr. Curry. Yes, sir.
    The Chairman. The Gulf Stream gives up the heat, and then 
that warms the atmosphere.
    Dr. Curry. Yup.
    The Chairman. And then that does what?
    Dr. Curry. The water becomes colder and denser, and sinks, 
and flows out as a deep current.
    The Chairman. I see. Thank you.
    Dr. Curry. You're welcome.
    So by adding fresh water to the high latitude regions of 
the North Atlantic, you can be decreasing the density of those 
waters, making it such that they could not sink, and, 
furthermore, putting a layer of fresh water on the surface that 
insulates the warmer ocean waters from the colder atmosphere.
    Now, this is a circulation system that has a long time-
scale. Oceanographers have been studying the ocean seriously 
for, you know, 50 years or so, and it has never been seen to 
change drastically. But in the history of the Earth over 
centuries and millennia, it has been shown to have changed, and 
it's changed when fresh water was added to the North Atlantic 
region.
    So my point to you today is that--you asked me to talk 
about the climate impacts on the ocean, and one of the major 
climate impacts on the ocean is changing the way fresh water is 
being distributed. The reasons for it are a warmer atmosphere 
and oceans, which is increasing evaporation at low latitudes, 
greater precipitation at high latitudes, and melting of ice at 
high latitudes because of warmer temperatures there. And those 
sorts of things have the potential of altering the Atlantic 
circulation in ways that could have climatic consequences down 
the line.
    So this is a body of knowledge that's really only 20 years 
old, all together; and we're only just beginning to see the 
possibilities. And, at this point in time, the models--the 
ocean components of climate models are not up to the task of 
making a prediction about what will happen in the future on the 
basis of these salinity changes. They lack certain elements of 
ocean processes in the models, and, frankly, oceanographers 
themselves don't fully understand all the processes going on in 
the ocean, and how it mixes, today.
    So there are ways that we can address this issue through 
research. It's still a research question. It's not a question 
of saying that this is not part of global warming. It is part 
of global warming. And this type of thing could cause regional 
changes in what people feel, in terms of their climate. It 
could be a little bit colder in winters at time because of 
this. It certainly would affect where places are experiencing 
drought or excess rainfall. It did in the geological records, 
and it's likely that, if changes in Atlantic circulation happen 
in the future, that that would be one of the consequences.
    Thank you very much.
    [The prepared statement of Dr. Curry follows:]

  Prepared Statement of William B. Curry, Director, Ocean and Climate 
         Change Institute, Woods Hole Oceanographic Institution
    My name is William Curry. I am Director of the Ocean and Climate 
Change Institute of the Woods Hole Oceanographic Institution (WHOI) and 
a Senior Scientist in the Geology and Geophysics Department. I have 
served on the Ocean Studies Board of the National Research Council and 
on numerous advisory panels for the National Science Foundation and the 
National Oceanic and Atmospheric Administration.
    I study the role of the ocean in climate change on a variety of 
time scales, trying to understanding how the ocean and atmosphere 
interact to produce the climate we experience on Earth. My background 
in geology provides me with a broad perspective on the full range of 
what Earth's climate system is capable of producing.
    In my comments today, I will describe intriguing changes in the 
ocean that we have detected in only the last two years. I will discuss 
possible ocean and climate changes we may see in the future if the 
planet continues to warm. And I will explain what we can do to 
strengthen our position to predict climate changes, so that we can make 
the wisest decisions and the best preparations.
    In brief, I'd like to make these points:

  <bullet> The atmosphere and the ocean are inextricably linked in 
        creating Earth's climate. Atmospheric changes tell only half 
        the story.

  <bullet> The geological record demonstrates that Earth's long-term 
        history is punctuated by climate shifts that happened rapidly--
        on the scale of decades--and caused very large impacts that 
        lasted for centuries to millennia. These are not blanket 
        changes, but regionally diverse: Different regions will get 
        warmer or colder, wetter or drier.

  <bullet> These rapid climate shifts are linked to changes in ocean 
        circulation--in particular, to changes in the North Atlantic 
        that make waters there less salty.

  <bullet> Evidence that has emerged in the last two years shows that 
        over the past four decades, the subpolar North Atlantic has 
        become dramatically less salty, while the tropical oceans 
        around the globe have become saltier.

  <bullet> We don't know if these changes indicate that we are 
        approaching a threshold that could trigger abrupt ocean 
        circulation and climate changes. Why? Because the models that 
        simulate the workings of our climate system lack essential 
        information. We don't understand ocean dynamics with nearly the 
        same precision that we understand atmospheric dynamics. Which 
        leads to my last point, and a call to action:

  <bullet> We are scientifically and technologically poised to fill in 
        that critical gap. If we are truly dedicated to understanding 
        and predicting climate change in time to prepare for it, a 
        relatively modest investment in ocean research has large 
        potential payoffs.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    During the last four decades, surface waters of the tropical 
Atlantic have increased in salinity while deep waters in the subpolar 
Atlantic have decreased in salinity. hTe changes in salinity result 
from increased evaporation at low latitudes and increased precipitation 
and ice melting at high latitudes.
Recent Changes in the Ocean
    The ocean contains 97 percent of the water on the planet and plays 
a large role in the earth's hydrological cycle, which is the movement 
of water on Earth. In the warm tropical regions, water is evaporated 
from the oceans, leaving behind and concentrating the salts dissolved 
in the seawater. The water vapor is transported by the atmosphere 
toward higher latitudes, where it falls as rain and snow, adding 
freshwater back into the oceans and diluting salt concentrations at 
higher latitudes. As a result, the salinity of seawater is higher in 
the tropics and lower at higher latitudes. hT is is noticeable if you 
have ever experienced the saltiness of Caribbean waters compared to 
those in Ocean City, Maryland, or Cape Cod. Movement (circulation) of 
salty ocean water from high to low latitudes balances the movements of 
the water in the atmosphere, offsetting some of the salinity 
differences between high and low latitudes.
    During the last four decades, oceanographers have observed large 
changes in the distribution of salinity, which appear to be related to 
the gradual warming of the atmosphere (see figure above). In the 
tropical regions of the Atlantic, Mediterranean, Indian, and Pacific 
Oceans, surface waters have increased in salinity, reflecting an 
increasing rate of evaporation in those locations caused by warmer 
ocean and air temperatures. At the same time, salinities have been 
decreasing in the subpolar and polar regions of both hemispheres: The 
high-latitude ocean is gaining freshwater because of higher 
precipitation, increased runoff from rivers, and increased melting of 
glacier ice and sea ice. These salinity changes are unprecedented in 
the relatively short history of the science of oceanography.
    This pattern of salinity change--increasing salinity at low 
latitudes and decreasing salinity at high latitudes--may be a 
fingerprint of the warming atmosphere and ocean. The rising 
concentration of greenhouse gases in the atmosphere is trapping more 
energy from the sun and affecting the ocean, atmosphere and cryosphere 
(ice) systems in a variety of ways.
    For instance, the atmosphere has been warming for the last century, 
with about one half of the warming the result of rising greenhouse gas 
concentrations. During the last four decades, the oceans have warmed 
over a very large depth range. That indicates that the ocean has 
mitigated some of the warming expected from greenhouse gas increases 
because even a small temperature change in the ocean requires an 
enormous amount of heat energy to be absorbed by the ocean.
    The warmer atmosphere and ocean have also accelerated the rate at 
which ice is melting. As a result, many mountain glaciers are melting, 
the Greenland ice sheet appears to be melting at an accelerated rate, 
and there has been a significant reduction in the amount of sea ice 
cover in the Arctic Ocean. Each of these factors is affecting the way 
water is distributed on the planet.
    The warming of the atmosphere and ocean has a great impact on the 
patterns and intensity of evaporation and precipitation on the planet. 
A warmer atmosphere can accelerate the rate of evaporation from the 
ocean, and it can hold more water vapor (a wetter atmosphere). Thus, a 
wetter atmosphere delivers much more precipitation to high-latitude 
regions. These changes in evaporation and precipitation, as well as 
increased melting of ice, can cause changes in ocean salinity, which 
affects how the ocean circulates.
Possible Effects on Ocean Circulation and Climate
    The circulation of the oceans exists in part because of density 
differences in seawater. Seawater density is controlled by its 
temperature and salinity: Warm water is less dense than cold water; 
low-salinity water is less dense than high-salinity water.
    Today the Atlantic Ocean is saltier than the Pacific Ocean. Only in 
the Atlantic Ocean does surface water becomes dense enough to sink to 
the deepest parts of the oceans. As a result, the large-scale 
circulation of the oceans is dominated by the sinking of cold salty 
water in the North Atlantic Ocean, and the subsequent flow of these 
deep waters is from the Atlantic Ocean to the Pacific Ocean. This 
conveyor-like system is balanced by a return flow of warm and less 
dense water on the surface of the oceans from the Pacific to the 
Atlantic (see figure on page 17).
    A climate consequence of this circulation is the delivery of large 
amounts of warm water to the high-latitude regions of the North 
Atlantic Ocean. Each winter in the subpolar North Atlantic, the ocean 
surface is warmer than the air above it. That warmth is transferred 
from the ocean to the atmosphere. As the salty water gives up its heat, 
its density increases and it sinks to the abyss.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The ocean circulation system known as the ``Conveyor.'' The large-
scale circulation of the oceans begins with sinking of water to the 
abyss of the Atlantic Ocean and the flow of this water at great depth 
from the Atlantic to the Pacific Ocean. This deep flow is compensated 
by a shallow return flow of warm salty water that brings heat to the 
high latitudes of the North Atlantic.

    The amount of heat released by this process is large, warming the 
region by as much as 5+C, with greatest impact during winters when the 
temperature gradients between air and sea are greatest. This heat 
delivery system is dependent on the salinity of the seawater being high 
enough for the water to sink when it cools. The significant addition of 
freshwater, from enhanced precipitation or increased melting of ice 
back into freshwater, would make the water too light to sink. That 
would cut off the source of heat for the atmosphere and insulate the 
atmosphere from the warmer waters of the ocean beneath. The atmosphere 
would then cool.
    For the last forty years, the waters in the subpolar North Atlantic 
region have been decreasing in salinity, but there is no evidence yet 
for a significant change in ocean circulation or heat delivery to this 
region. We have not yet reached a critical point at which salinity has 
decreased sufficiently to trigger circulation changes. The last time 
such changes occurred was hundreds of years ago--before the modern era 
of oceanographic measurements. But historical and geologic records show 
that changes in salinity have caused changes in ocean circulation and 
climate.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The history of air temperature over Greenland during the last 
20,000 years. Several abrupt climate events occurred during this 
interval, including an abrupt cooling 13,000 years ago known as the 
Younger Dryas event and another cooling event 8,200 years ago. Each of 
these events was associated with an increase in freshwater delivery to 
the North Atlantic and with widespread cooling and drying throughout 
the northern hemisphere. A smaller event several hundred years ago, 
called the ``Little Ice Age,'' was also associated with freshening of 
the North Atlantic Ocean.
Historical Changes in Circulation and Climate
    As recently as two hundred years ago a fresher North Atlantic 
occurred during a period of cold climate conditions known by historians 
as The Little Ice Age. This was a five-hundred-year-long period of cold 
conditions affecting Europe and eastern North America. Contrary to what 
the name suggests, it did not involve ice-covered continents, as in a 
``real'' ice age. But it did cause enough cooling to disrupt human 
activities. The changes may have been initiated by changes in the 
intensity of the sun's energy output, but they are linked to a 
freshening of the subpolar North Atlantic by increases in the delivery 
of icebergs (freshwater) to the region (see figure above).
    The cooling associated with the Little Ice Age was small, yet it 
was large enough to force the Vikings to abandon settlements in 
Greenland, to advance mountain glaciers in Europe, and to cause severe 
winters on both sides of the Atlantic. An historic record of the end of 
the Little Ice Age comes from accounts of George Washington's brutally 
cold winter at Valley Forge, and his crossing of the ice-bound Delaware 
River to surprise the Hessians at Trenton. Today, the Delaware rarely 
freezes.
    Much earlier in Earth history, larger climatic events occurred 
following the rapid freshening of the North Atlantic. The rapid release 
of freshwater from a large lake near Hudson Bay into the subpolar North 
Atlantic 8,200 years ago caused a century-long interval of colder and 
drier conditions over much of the northern hemisphere (see figure on 
page 7).
    Earth's long-term climate history is punctuated with rapid changes 
in climate, which were associated with changes in ocean and atmospheric 
circulation that were usually linked to abrupt freshening of the North 
Atlantic. Often the climate impacts were very large, persisted for 
centuries or millennia, and were characterized by rapid shifts 
occurring over time spans as short as a few decades.
What does this mean for future climate?
    Our understanding of abrupt climate changes like these is still in 
its infancy, but growing. Much of what I have described about Earth's 
climate history was discovered by researchers only in the last 20 
years. The changes in ocean salinity were detected only in the last two 
years. Thus, we are just beginning to experience and evaluate the 
potential effects of changing ocean salinity.
    In 2002, the National Research Council published a report called 
Abrupt Climate Change: Inevitable Surprises, which summarizes the state 
of knowledge of these types of climate events. The report's authors 
pointed out that the likelihood of an abrupt climate event in the 
future was unknown, but was not zero.
    Models of future climate disagree over the likelihood of an abrupt 
climate event. The models that do predict disruptions to the Atlantic 
circulation say they will occur far in the future. The NRC report also 
noted that many of the models used to study changes in ocean 
circulation have inadequate representations of ocean processes. The 
models may also be less sensitive to salinity perturbations than the 
actual ocean is. As a result, we are not yet in a position to predict 
these types of ocean circulation changes.
    The climate history of the earth shows that adding freshwater to 
the North Atlantic disrupts the ocean circulation in ways that cause 
regional cooling and alter patterns of rainfall and drought. In the 
future, however, the effects of changing ocean circulation may not be 
the same--because it makes a difference if a disruption happens sooner 
rather than later.
    Since human activity continues to raise the greenhouse gas 
concentration of the atmosphere, Earth will continue to experience 
rising air temperatures. A disruption to Atlantic circulation, if it 
were to occur in the next several decades, might be felt as colder 
winters in the Atlantic region. Should it be many decades before a 
circulation change occurs, the earth's average temperature will rise to 
the point that the disruption may mitigate the greenhouse warming 
experienced in the North Atlantic region.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Following the freshening of the North Atlantic 8,200 years ago, the 
North Atlantic region became colder and drier for about a century. 
Climate impacts extended beyond the North Atlantic region. The Asian 
monsoon system also appeared to be affected, causing drier conditions 
in Asian and Africa.

    Winters would not be colder than today. But the ocean heat that 
would have been released into the atmosphere in the North Atlantic 
region remains in the climate system. If the North Atlantic does not 
receive the heat, some other location will, and that location would 
warm. The heat is not lost; it is moved to another location.
    As greenhouse gases in the atmosphere continue to rise, the average 
Earth temperature will continue to rise. Yet most humans won't 
experience the average climate. There will be large regional 
differences in the climate: Some places will warm much more than 
others; some places will become wetter; and some places will become 
drier. The regional differences in climate change will be greatly 
affected by how the ocean is circulating and how it interacts with the 
atmosphere.
    To better predict these changes, we will require better 
understanding of ocean circulation processes; more detailed 
reconstructions of the history of ocean circulation and climate; better 
simulations of ocean processes in climate models; and a more complete 
system to observe the state of ocean circulation.
    Over the past half-century, satellites and a worldwide network of 
meteorological stations have been observing and monitoring atmospheric 
changes over time and space. These have given atmospheric scientists 
the data they need to make huge inroads into understanding the 
complexities of atmospheric dynamics.
    Oceanographers require similar tools to comprehend ocean dynamics. 
It's more difficult to understand what you can't see, or monitor, or 
measure. After all, as terrestrial creatures, we live in the 
atmosphere, but for most of us, the ocean remains a foreign place. Yet 
the ocean has significant impact on our lives.
    We now have the technological capability to put ``eyes'' in the 
oceans that can reveal how the oceans work. A substantial commitment to 
an ocean-observing system would make a huge difference. It would give 
us the measurements we need to fill in that big gap in our climate 
models and make them more representative of the real world.
    The ability to accomplish this is within reach. The cost is 
relatively modest--especially compared to the huge potential economic 
and societal payoffs--including, for example, improved predictions of 
energy demands, water resources, crop planting and harvesting 
decisions, and natural hazards. Perhaps most importantly, they will 
provide the foundation for making the wisest possible decisions 
concerning the future habitability of our planet.

    The Chairman. Thank you.
    Dr. Epstein?

      STATEMENT OF PAUL R. EPSTEIN M.D., M.P.H., ASSOCIATE

           DIRECTOR, CENTER FOR HEALTH AND THE GLOBAL

              ENVIRONMENT, HARVARD MEDICAL SCHOOL

    Dr. Epstein. Thank you, Senator McCain and Senators Snowe 
and Lautenberg.
    In January of this year, the Pentagon released a report 
that repositioned climate change as a security issue. My job 
today is to explain how global warming has come to our 
backyards. And, given the audience, I hope to arm you in our 
common struggle to change awareness about the connections 
between the changes you've just heard and our own health.
    I'm a physician trained in tropical public health. I'm at 
the Center for Health and Global Environment, at Harvard 
Medical School.
    I want to begin with findings from Senator McCain's state, 
New Mexico, Biosphere II, in Tucson.
    The Chairman. That's Arizona.
    Dr. Epstein. Arizona. Forgive me.
    [Laughter.]
    Dr. Epstein. I'm getting ahead of myself.
    Arizona--Tucson, Arizona--outside of Tucson is an 
experiment, an enclosed farm--animals, humans, plants, a small 
ocean. After several years, carbon dioxide rose. And when I 
visited that with a team of scientists several years ago, the 
weeds were flourishing, the ants were everywhere. Biosphere 2 
is fast becoming our new reality.
    Carbon dioxide levels are now 379 parts per million. It had 
gone up three parts per million last year. Before, it was a 
rate of 1.8. I say that to point out we're accelerating our 
rate of carbon dioxide, and maybe we're saturating some of the 
ocean and plant sinks. It's gone up, and it's higher than it's 
been for 420,000 years, probably two million years, when the 
Isthmus of Panama closed off, and the Gulf Stream that Dr. 
Curry described started going north, and then sunk in this 
``pump'' that you've just heard described that drives the ocean 
circulation.
    So for two million years, we've been oscillating between 
large caps and medium caps. We're on our way to small caps. 
We're in uncharted, heated waters. This is a state that we've 
not seen on this planet for several million years, at least.
    Weedy species are the ones that thrive in disturbances, so 
what I saw at Biosphere 2 is what's happening in the cities and 
what's happening in countryside. Ragweed, poison ivy, some of 
the flowering trees that flower early--the birches, the 
poplars, the lovely ones, maples on the corner--these are 
flowering early because of climate change, but they're also 
getting boosted just by carbon dioxide. And we've heard, for 
several years, that carbon dioxide might be good for 
agriculture, good for plants. We now have discovered an 
unexpected side effect for our public health.
    We've seen this----
    The Chairman. Which are?
    Dr. Epstein. Which are--first, asthma has increased two and 
a half to three times since 1984. This includes children, 6.8 
million children--that's 11-12 percent of their population; 
overall, it's 7.5 percent. In Harlem, one out of four children 
suffer from asthma. This causes work absences, school absences, 
and costs the American taxpayers $18 billion.
    Several new factors--pollen count--let me run down a number 
of related issues.
    In the cities, pollen counts are rising. Counts of 150, 100 
parts per cubic meter, are cause for alert. We're seeing counts 
of 6,000 parts per cubic meter. We've seen this in Atlanta, 
Boston. You're seeing it here in the Nation's capital. These 
are going off the charts. What is responsible for this?
    We took ragweed, put it under double CO<INF>2</INF>. In 
fact, it was started--these experiments were started by a woman 
who's a legislative aid now for Congressman Boehlert. Under 
double CO<INF>2</INF>, the stalks rose 10 percent, pollen rose 
61 percent. Ragweed, weeds, like this extra CO<INF>2</INF>. 
They seize upon it, they shovel it into their reproductive 
power to spread their wings and spread to new areas. This is a 
particular area in inner city, urban abandoned lots, railways. 
So it's a problem in the inner cities. Heat also stimulates 
ragweed growth. Carbon dioxide and humidity also stimulate 
molds.
    Carbon dioxide levels have reached very high levels in the 
inner city. This has been surprising for me to discover in the 
recent months, looking at this data. There's a CO<INF>2</INF> 
dome in the cities. It parallels a ``heat island'' effect. 
``Heat island'' effect is about seven degrees Fahrenheit 
greater than surrounding areas. Carbon dioxide levels have been 
shown, by the Center for Carbon Dioxide and Climate Change, to 
be four-, five-, six-hundred parts per million. Now, you 
remember it was 379 globally, average. This was found in 
Baltimore, it was found in Phoenix. And I don't mean to be 
picking on you, Senator, but arming you. And in New York City, 
a count of 611. This is a trapping of inversions.
    There's more. Diesel particles, a result of trucks and 
buses, glob onto this pollen and mold and help deliver it deep 
into lung sacs, and present it to the immune cells. They 
sensitize them, irritate them, so they're contributing to this 
allergy assault.
    Finally, smog or--photochemical smog or ozone, which is a 
product of tail-pipe emissions, volatile organic compounds, 
noxes, is increased with heat. And the kind of heat wave we saw 
last week in L.A., April 27, 102 degrees, this speeds up the 
reaction of these chemicals to form smog, and those, we know 
from a study last year, published, cause asthma--not just 
trigger asthma, but cause it, in children especially.
    So we have this concoction of pollen, molds, particles, 
unhealthy air mass and smog, and this is compounded by more 
intense heat waves. And CO<INF>2</INF> is not something that's 
going to be let up, we don't know if it could go through 
different changes, but CO<INF>2</INF> is going up. This change, 
through the plants, on our health is something that is going to 
continue.
    Now, we comfort ourselves that we can deal with these 
public health related issues of climate in this country. But 
these issues I'm describing to you finesse this, supersede 
this.
    We're also seeing some other issues I want to touch on 
quickly. Plants themselves are being attacked by pests and 
pathogens. New Mexico, that I had mentioned erroneously in the 
beginning--from New Mexico into Arizona to Alaska, we see 
beetles. Drought dries out the resin that drowns the bark 
beetles, so it weakens the trees. The beetles are getting 
emboldened--two generations a year up in Alaska, high 
altitudes, high latitudes, over-wintering--so the pests are 
emboldened, the host is weakened, and we're seeing a 
compounding of issues with the drought that is now emerging in 
its fifth year, and the fires, and the beetles.
    Parenthetically, the Pacific Ocean is also in a very 
anomalous state. And I quote an article from Science that it 
was called ``the perfect ocean for drought.'' It's in a state 
of cold in the East, warm in the West, that's driving much of 
the climate and the drought in the West, as well as in Europe, 
in addition to what is happening in the Atlantic. And, also, 
the Indian Ocean is in an anomalous state. It's hotter than it 
has been since the 1800s. All of the oceans are changed. It's 
the heat in the ocean, the oceans are warming, the ice is 
melting, and water vapor is rising. It's this change in 
atmospheric chemistry, changing the heat budget, affecting the 
water cycle. That's what affects our health through extreme 
weather events, heat waves, and floods.
    Let me try to wind up here and mention there are other 
plant issues that are important in California, with a fungus 
that's spreading, perhaps through nursery plants. In the 
Northeast, we have woolly adelgid, which is threatening the 
hemlock trees. These, in addition to all the issues that you've 
heard about, of Malaria and Denghi fever, and so on, which, 
frankly, has been put to bed by the Intergovernmental Panel on 
Climate Change as being related to range affected by warming, 
and the timing and intensity of outbreaks affected by extreme 
weather events.
    To conclude, we are looking at heat waves, we are looking 
at a number of problems. Are we ready for this summer in this 
country, with our nation's grid for a blackout like we had on 
August 14? Scenarios that we must envision involve a heat wave 
that hits Greece in the middle of the Olympics. We are looking 
at the earliest heat waves, the earliest fires that we've seen 
in decades. This is what is coming to us through our lungs, 
through the animals, through a pulse of carbon.
    So just as we underestimated the rate at which climate 
change--and we are looking at ourselves, scientists, bewildered 
at the rate at which it's changing, the rate of biological 
responses to that change, and the rising costs of that, in 
terms of the re-insurance and insurance industry--and just as 
we underestimated these responses, we've underestimated, 
perhaps, the solutions. For the good news is that we may have 
vastly underestimated the benefits of making this clean energy 
transition. And this is, I hope, the message that we can get 
together to the American people. A properly financed clean 
energy transition with green buildings, public transport, bike 
paths, pedestrian walkways, a ``smart'' grid and ``smart'' 
technologies, alternative technologies, solar and fuel cells, 
and so on. This can provide the engine for growth for this 21st 
century. We need a new engine. We need a clean one.
    I conclude with that. My full report will be entered into 
the congressional record. Thank you. And welcome, any 
questions.
    [The prepared statement of Dr. Epstein follows:]

Prepared Statement of Paul R. Epstein M.D., M.P.H., Associate Director, 
  Center for Health And the Global Environment, Harvard Medical School
    Global warming has entered our backyards.
    I begin with findings from the home state of the honorable Senator 
John McCain. In Biosphere II, Just outside Tucson, humans and animals 
lived on farms, with small forests and oceans. After several years 
carbon dioxide levels rose. The Weeds flourished and ants blanketed the 
plants, soils and rocks.
    Biosphere II is fast becoming our new reality. 
CO<INF>2 </INF>levels today are 379 parts per million--100 ppm above 
where they have been for over 420,000 years. Since then we have been 
cycling between medium and large ice caps, while today we are moving 
into a world with small polar caps--a third state. We are truly 
entering uncharted waters.
    Weedy species--ragweed, poison ivy and insects--thrive on 
disturbance and, for plants, CO<INF>2 </INF>provides new opportunities 
for the opportunists to flourish. Weeds and pioneering trees, whose 
seeds and pollen line our streets and enter our airways, increase with 
CO<INF>2 </INF>as do molds.
    What are the new concerns for public health?

        First, Asthma and associated childhood mortality has increased 
        2\1/2\--3 times since 1984. 7.5 percent of the U.S. population 
        has asthma; 11-12 percent of children; and \1/4\ of the 
        children in Harlem suffer from this affliction.

    This causes school and work absences and costs the health care 
system $18 billion per year.

        There are several new factors.

        Pollen counts are rising. Levels like 100 to 150 grains per 
        cubic meter generate alerts. Recently levels of up to 6,000 
        grains per M\3\ have been reported in many U.S. cities. We see 
        it on sidewalks and ponds and feel it in our lungs.

    Note that mosquito larvae eat pollen, adding food for the carriers 
of West Nile virus, a mosquito-borne disease in cities. We know how to 
control mosquitoes in rural areas. This is a new problem--how to safely 
use chemicals in urban centers.

        One of our star students--now a legislative aide in Congressman 
        Boehlert's office--placed ragweed under double the average 
        CO<INF>2 </INF>levels. The stalks grew 10 percent. The pollen 
        increased 61 percent.

        Heat also stimulates ragweed growth.

        CO<INF>2 </INF>and humidity also stimulate molds.

        CO<INF>2 </INF>levels in cities have reached surprisingly high 
        levels. Under ``CO<INF>2 </INF>domes''--accompanying the ``heat 
        island effect''--inversions and unhealthy air masses levels in 
        the 4, 5 and 6 hundreds have been found in Phoenix--I don't 
        mean to be picking on you, Senator--Baltimore, and New York 
        City!

    There's more.

        Diesel particles--that work their way deep into lung sacs--
        provide excellent delivery systems for pollen and molds. They 
        attach to one another, helping them penetrate and inflame 
        immune cells.

        Finally, smog or ground-level ozone causes asthma. Heatwave--
        like the very early one that in L.A. last week--accelerates the 
        reactions between tailpipe emissions that form ozone.

    The concoction of pollen, molds, particles, unhealthy air masses, 
photochemical smog and more intense heatwaves is assaulting our lungs, 
especially for our young ones, and all these factors are related to the 
emissions from fossil fuels.
    While we comfort ourselves that public health authorities can 
control emerging threats to our health, the ones I describe can only be 
prevented.
    Meanwhile plants, themselves, are under attack from insects and 
fungi. From New Mexico to Alaska--and the states and Canadian Provinces 
in between--bark beetles, emboldened by warming, are overwintering and 
slipping in an extra generation each year, then climbing to new heights 
and high latitudes--to bore through the bark of vast stands of pines 
weakened by drought, now in its fifth consecutive year in the west. The 
trees die in a year--setting the stage for further wildfires, burns, 
respiratory disease, property and timber losses.
    In California a fungus--akin to the one that caused the Irish 
potato famine--is afflicting trees and could spread across the country 
via the trade in nursery pants. In the Northeast, an aphid-like bug is 
killing hemlock pines that shelter animals in the winter, and it moved 
north in lockstep with each warm winter.
    Returning to immediate threats--heatwaves have already begun. 
During the Boston marathon on April 19 140 people were felled from heat 
exhaustion and dehydration. The August 14, 2003 blackout during Last 
summer's heatwave could easily be repeated and the grid is still 
vulnerable. Temperatures in New Delhi have been over 107 for weeks and 
a heatwave in Greece during the Olympics--like that in Europe last 
summer--could be devastating.
    Just as we underestimated the rate that the climate would change, 
we have underestimated the responses of biological systems--especially 
the opportunistic weeds, microorganisms and insects--to the warming and 
the wide swings in weather. The oceans are warming, ice is melting and 
water vapor is rising, as are the costs from extreme weather events. 
Large reinsurers are increasingly concerned by projections that damages 
will rise to $150 billion a year within this decade, if current trends 
continue. Add to that business interruptions, plus restrictions on 
trade, travel and tourism. The full figures are in my affidavit.
    The good news is that we may have vastly underestimated the 
benefits from making the transition to clean energy. A properly 
financed clean energy transition--with incentives for greater 
efficiency, alternative sources, ``green buildings,'' smart 
technologies to secure the grid, distributed generation, streamlined 
transport, more livable cities with pedestrian and biking pathways, 
hybrid cars, solar panels and fuel cells--can provide the sorely needed 
engine of growth for the 21st century.
                                 ______
                                 
                               Affidavit
Summary
    Rising levels of carbon dioxide (CO<INF>2</INF>)--in addition to 
trapping more infrared (heat) radiation leaving the earth--promote 
plant pollen production, soil bacteria and fungi, and alter species 
composition by favoring opportunistic weeds (like ragweed and poison 
ivy). Other emissions from burning fossil fuels in cars, trucks and 
buses--nitrogen compounds (NO<INF>X</INF>s) and volatile organic 
compounds--form photochemical smog that causes and exacerbates asthma, 
while diesel particulates help deliver pollen and molds deep into lung 
sacs. The combination of air pollutants, aeroallergens, heatwaves and 
unhealthy air masses--increasingly associated with a changing climate--
causes damage to the respiratory systems, particularly for growing 
children, and these impacts disproportionately affect poor and minority 
groups in the inner cities.
    The estimated cost in the U.S. of treating asthma in those younger 
than 18 years of age is $3.2 billion per year. The health impacts 
include asthma and other respiratory illnesses, infectious diseases, 
heat stress, heart disease. Meanwhile the preventative strategies 
include measures that could simultaneously improve air quality and 
enhance the livability of urban communities.
    Combustion of fossil fuels--oil, coal and natural gas--is 
responsible for air pollution and climate change, and air quality is a 
particular problem for urban centers worldwide. Traffic patterns and 
automotive exhaust, power plants, airports and industrial emissions are 
the primary sources, while wind patterns can bring in pollution and 
unhealthy air masses originating in other regions. Allergens (molds and 
pollen) originating in rural urban areas can reach high levels in 
highly populated cities.
    The impacts of air pollution can be compounded by extreme weather 
events, whose intensity and frequency is increasing as climate changes. 
These include more heatwaves, drought-driven fires, floods and the 
impacts of warming are exacerbated by ``the heat island effect'' 
generated in cement cities with inadequate green space.
    Today, atmospheric concentrations of CO<INF>2 </INF>are 379 parts 
per million. The earth has not experienced levels of 
CO<INF>2 </INF>above 280 ppm for at least 420,000 years. This report 
examines the direct impacts of CO<INF>2 </INF>combined with the climate 
change the rise generates, focusing on urban centers; examining 
synergies between air pollution and climate change and connections 
between climate change and emerging infectious diseases--in particular, 
West Nile virus, a disease carried by urban-dwelling mosquitoes that 
presents new problems for public health and mosquito control 
authorities.
Key Points
   1.  Ragweed (in vacant lots and other disturbed areas) pollen and 
        tree pollens (e.g., maples, birches, poplars) are stimulated by 
        increased carbon dioxide (CO<INF>2</INF>), and by warmer 
        winters and early arrival of spring.

   2.  Molds are also stimulated by higher levels of CO<INF>2. </INF>In 
        addition, humidity, heavy rain and floods associated with 
        climate change foster fungal growth in houses.

   3.  Diesel particles combine with aeroallergens (pollen and mold) to 
        deliver them deep into lung sacs.

   4.  Fungal growth inside houses can affect respiratory health and 
        insurance coverage.

   5.  Floods can drive rodents from their natural burrows into 
        developed areas.

   6.  Photochemical smog (ground-level ozone) is a product of 
        reactions between tailpipe emissions--oxides of nitrogen 
        (NO<INF>X</INF>s) and volatile organic compounds (VOCs)--and 
        the chemical reaction is accelerated during heatwaves--
        intensified with climate change.

   7.  Heatwaves, unhealthy air masses, high heat indices (a function 
        of temperature and humidity), plus lack of nighttime relief all 
        affect cardio-respiratory illness and mortality.

   8.  Increased humidity and nighttime temperatures (daily minimums) 
        are associated with a changing climate.

   9.  The Heat Island Effect can raise ambient temperatures in urban 
        centers as much as 7&ordm;F over those in rural areas.

  10.  Particulates, carbon monoxide (CO), ground-level ozone and 
        carcinogenic polycyclic aromatic hydrocarbons (PAHs) from 
        drought-driven wildfires can affect populations living far from 
        the fires.
  11.  West Nile virus in the U.S. is a new phenomenon--a mosquito-
        borne disease in urban areas; one not previously faced by 
        public health and mosquito control agencies.
  12.  The avian-mosquito cycle of West Nile virus (WNV) is amplified 
        by warm winters, spring droughts and summer heatwaves. Bird-
        biting, urban-dwelling mosquitoes (Culex pipiens) breed in 
        shallow pools in city drains with organically-rich litter 
        (e.g., leaves and pollen). The disease threatens humans, birds 
        and other wildlife.
  13.  Severe and erratic weather--early and late snowstorms, ice 
        storms and dense fog--present hazards for automotive drivers 
        and pedestrians.
  14.  Severe storms in coastal cities (intensified by sea level rise) 
        can damage infrastructure, such as water and sanitation 
        systems, with wide-ranging implications for public health.
  15.  Early warning systems of conditions conducive to large outbreaks 
        of WNV can facilitate environmentally-friendly public health 
        interventions.
  16.  Roof gardens, urban parks, tree-lined streets, ``smart growth,'' 
        and improved pedestrian, bicycle and public transport can 
        reduce the ``Heat Island Effect.''
  17.  Developing alternatives to fossil fuels is fundamental for the 
        protection of public health and for maintaining environmental 
        and economic stability.
                               Affidavit
    Global warming has entered our backyards.
    I begin with findings from the home state of this committee's 
chair--the honorable Senator John McCain. Just outside Tucson, Arizona 
Biosphere II was erected to examine the way Earth functions. After 
several years of humans and animals living with plants and small 
oceans, carbon dioxide (CO<INF>2</INF>) levels rose. Weeds flourished 
and, when I visited with a team of scientists, the ants were crawling 
everywhere.
    Biosphere II is becoming our new reality. CO<INF>2 </INF>levels are 
today 379 parts per million--having risen 3 ppm last year, up from the 
average 1.8 ppm throughout the 1990s--100 ppm above where they have 
been for over 420,000 years, and, probably, for 2 million years when 
earth began cycling between medium and large size ice caps. Today we 
are speeding head-long into a third state--with small polar caps. We 
are in truly in uncharted, overheated waters.
    Weedy species--ragweed, poison ivy and insects--thrive on 
disturbance and, for plants, CO<INF>2 </INF>provides new opportunities 
for the opportunists to flourish. Weeds and pioneering trees, whose 
seeds and pollen line our streets and enter our airways, increase with 
CO<INF>2 </INF>as do molds, mosquitoes, bark beetles and aphids that 
threaten our Nation's forests.
    CO<INF>2</INF>, released in our breath attracts mosquitoes and we 
use CO<INF>2 </INF>in mosquito traps to catch and sample them. Whether 
rising CO<INF>2 </INF>stimulates mosquito activity, in general, 
requires further study.
    Then we come to what we know from elemental chemistry: 
CO<INF>2 </INF>stimulates plant growth through photosynthesis, 
combining with water to generate carbohydrates and oxygen--plants being 
the primary producers of our food and air. But some plants respond to 
higher levels of CO<INF>2 </INF>by producing excessive amounts of 
pollen, enabling them to spread. And those most stimulated are the 
weedy, opportunistic species. Ragweed, and some pioneering trees that 
colonize field edges, seize upon increased levels of CO<INF>2 </INF>to 
grow in new, often disturbed, territory. Poison ivy also thrives in 
higher CO<INF>2 </INF>levels. Abandoned lots in urban centers are ideal 
places for the spread of ragweed, as are old railway lines and fields 
following fires.
What are the new concerns for public health?
    Let's look at urban centers first.

  1.  Asthma and associated childhood mortality has increased 2\1/2\--3 
        times since 1984. 7.5 percent of the U.S. population has 
        asthma; 11-12 percent of children; and \1/4\ of the children in 
        Harlem suffer from this sometimes frightening and life-
        threatening affliction.

    Asthma affects patients and parents, causes school and work 
absences, and costs the health care system $18 billion per year.

  2.  Pollen counts are rising exponentially. Levels of 100 to 150 
        grains per cubic meter often generate alerts. In the past few 
        springs levels of up to 6,000 grains per M\3\ have been 
        reported in many U.S. cities and we see it on ponds and 
        roadways and feel it in our lungs.

    Of note, mosquito larvae eat pollen. This is an added stimulus for 
the carriers of West Nile virus, a mosquito-borne disease in cities. 
Public health authorities know well how to control mosquitoes in rural 
areas; but this new problem poses new challenges as to how safely to 
use chemicals in the cities. Horses and birds are affected and the 
disease is now spreading in the Americas.

  3.  3. CO<INF>2 </INF>also stimulates molds.

  4.  Warm temperatures stimulate ragweed pollen (Wan et al., 2000) and 
        humidity and floods foster fungal growth.

  5.  Another surprise is that CO<INF>2 </INF>levels in cities have 
        reached extraordinary levels.

    Under CO<INF>2 </INF>domes--paralleling the ``heat island effect,'' 
inversions and unhealthy air masses--researchers (Idso et al., 1998, 
2001; Ziska et al., 2000, 2003) have found levels in the four and five 
hundreds in Phoenix, Baltimore, and a reading of 611 ppm in New York 
City.

  6.  Diesel particles -themselves damaging to the lungs--provide an 
        excellent delivery system for pollen and molds. They attach to 
        the particles, helping them penetrate deep into lung sacs and 
        sensitizing immune (defense) cells to the allergens.

  7.  Photochemical smog--ground-level ozone (O<INF>3</INF>)--also 
        causes asthma. This was demonstrated in Los Angeles, and the 
        heatwaves--like the spring heatwave that occurred last week 
        accelerates the reaction of the tailpipe emissions that combine 
        to form ozone.

  8.  In another recent surprise, CO<INF>2</INF>--that traps heat and 
        is swelling the inner atmosphere (out to six or eight miles)--
        is contracting the outer atmosphere (stratosphere, mesosphere 
        and thermosphere) out to hundreds of miles. This new finding--
        that our activities are affecting the atmosphere so far out, in 
        addition to slowing repair of the `ozone hole'--could cause the 
        numerous satellites we have up to change their trajectories.

    The concoction of pollen, molds, particles, unhealthy air masses, 
photochemical smog and more intense heatwaves is assaulting our lungs, 
especially for our young ones, and all these factors are related to the 
emissions from fossil fuels--indirectly, through their impact on plants 
and directly via heatwaves and the trapping of heat by 
CO<INF>2 </INF>and other greenhouse gases.
    While we comfort ourselves that public health authorities can 
control emerging threats to our health, the ones I describe can only be 
prevented.
Forest health
    Meanwhile plants, themselves, are under attack from insects and 
fungi. From New Mexico to Alaska--and the states and Canadian Provinces 
in between--bark beetles, emboldened by warming, are overwintering and 
slipping in an extra generation each year, then climbing to new heights 
and high latitudes--to bore through the bark of vast stands of pines 
weakened by drought, now in its fifth consecutive year in the west. 
(The resin that drowns the beetles dries out in drought.) The trees die 
in a year--setting the stage for further wildfires, burns, respiratory 
disease, property and timber losses.
    United States' forests are unhealthy; but thinning them will not 
cure them. Pest infestations, climate extremes and poor management are 
together increasing vulnerability to fire, and a sustainable ``Healthy 
Forest Initiative'' will require an integrated set of policies aimed at 
nurturing forest defenses and stabilizing the climate.
    In the past five years over 90 percent of Southern California's 
pines have been killed by bark beetles, and denuded stands from Arizona 
to Alaska contributed substantially to this summer's conflagrations. 
When weakened by drought and wilted by heat, trees become susceptible 
to pests. Drought dries the resin that drowns the invaders, while the 
galleries of eggs left by penetrating beetles pave the way for tree 
death within one year.
    While droughts weaken the hosts (trees), warming emboldens the 
pests. Since 1994, mild winters have cut winter mortality of the larvae 
in Wyoming, for example, from 80 percent per annum to under 10 percent. 
In Alaska, spruce bark beetles are sneaking in an extra generation a 
year due to warming and have stripped four million acres in the Kenai 
Peninsula. In British Columbia, nearly 22 million acres of lodgepole 
pine have become infested--enough timber to build 3.3 million homes or 
supply the entire U.S. housing market for two years (The Economist 9 
Aug).
    The battle between insects and plants began several hundred million 
years ago, when forests spread across the land. Trees fought back the 
leaf-eaters and bark-borers with chemicals; then garnered support from 
birds, spiders and ladybugs. Woodpeckers and nuthatches keep beetle 
numbers in check. But with warmer winters, beetle populations outpace 
their pursuers and their populations can quadruple in a year.
    ``This is another example of global climate change that has deadly 
implications for my state,'' declared Senator Ted Stevens (U.S. 
Congressional Record, 24 July 2002). (The tundra is also melting, 
undermining pipelines, and thinning of North Polar ice in the past 20 
years occurred at 8 times the rate it did in the previous 100.)
    Warming is also expanding the range of beetles. Lodgepole pines are 
the preferred target, but ``. . . in the past four or five years, the 
bugs [are] attacking whitebark pine stands [that] grow at about 8,000 
feet elevation or higher'' (M. Stark, Billings Gazette, 8 Aug 2003).
    Other forest pests are challenging forest health. In California 
several tree species have been attacked by an opportunistic fungus 
(Phytophthora) akin to that of the Irish Potato Famine. On the East 
Coast, aphid-like bugs--the Wooly adelgid--threaten the dark green 
hemlock pines that line rivers in Connecticut and Massachusetts, and 
they are migrating towards Vermont with each warm winter.
    Wildfires are hazardous for wildlife, property and people. They 
pose immediate threats to courageous firefighters and homeowners, while 
particles and chemicals from blazes and wind-carried hazes cause heart 
and lung disease.
    Not all forest fires should be suppressed; periodic fires can be 
rejuvenating. But the drought-and beetle-driven wildfires today are not 
self-limiting, and the underlying conditions need to be addressed.
    Unfortunately, little can be done to directly control the pests. 
Pesticides, which enter ground water, are minimally effective and must 
be applied widely long before beetles awaken in spring.
    Forest ``thinning'' has two meanings: the preferred method entails 
cutting small trees (<6'' in diameter). But this approach is not 
profitable and will not be employed without public financing. The 
extensive logging and clear-cutting form of ``thinning'' under the 
resident's initiative is a thinly disguised gift to the timber industry 
and these practices damage soils, increase sedimentation, reduce water-
holding capacity and dry up rivers and streams--all increasing 
vulnerability to pests and fires.
    Even the best forest practices, however, will be insufficient to 
stem the ravages of drought and the onslaught of beetles. The forests 
need moisture. Climate-induced changes in Earth's water cycle pose 
threats to the health of forests, crops and humans.
Climate instability
    In January 2004, the Pentagon released one scenario based on the 
growing signs of climate instability: an abrupt deep-freeze in northern 
North America and Europe. ``Global warming, rather than causing 
gradual, centuries-spanning change, may be pushing the climate to a 
tipping point,'' states an article in Fortune Magazine based on the 
Pentagon document.'' The ocean-atmosphere system that controls the 
world's climate can suddenly change its path.
    The report 2002 report by the National Academy of Sciences, 
entitled Abrupt Climate Change: Inevitable Surprises, reveals how an 
accelerating pace of climate change and erratic weather patterns--the 
very changes we are experiencing today--can be precursors to abrupt 
climate change.
    Climate records show that warming trends can become quite variable 
and can lead to ``cold reversals''--affecting North America and Europe 
in ways vastly different from the tropics. How might this work?
    First, weather patterns have become more variable and extreme. 
Droughts are drier and more prolonged while--with increased water 
vapor--more precipitation falls in downpours. Last August--while Europe 
was suffering a sweltering heatwave--the World Meteorological 
Organization reported that increased heat in the climate system 
accounted for the severe and erratic weather patterns being observed 
worldwide.
    Such erratic weather is not good for our health and it certainly 
confuses the birds. But it also tells us that our climate is not 
stable.
    In the past 50 years the top two miles of the world's oceans have 
warmed--that's half way down--and ocean warming is melting sea ice. In 
just several decades the floating North Polar ice cap has shrunk from 
ten to five feet thick during the summers and Greenland is losing 9 
percent each decade.
    Fresh water from the melting ice and rain landing on the northern 
ocean just layers out, instead of sinking. Cold, salty water sinks--the 
deep water pump that pulls the warm Gulf Stream north and drives the 
ocean conveyor belt that stabilizes climate over millennia.
    The impacts of freshening are already apparent. The accompanying 
North Atlantic ``high'' pressure system accelerates transatlantic winds 
and pushes the Jet Stream south. And these changes may be driving 
frigid fronts down the eastern U.S. seaboard and across to Europe.
    Ice core records demonstrate that the North Atlantic Ocean can 
freshen to a point where the deep water pump fails and since the 1950s 
the deep overflow between Iceland and Scotland has slowed by 20 
percent.
    Since cold reversals have occurred naturally, what is the 
contribution of human activity today?
    Cycles of the earth around the sun--the tilts and orbits--change 
over time. Recent calculations of these cycles indicate that our 
hospitable climate was not likely to have ended any time soon. But due 
to the buildup of carbon dioxide (CO<INF>2</INF>)--to levels greater 
than in half a million years--the equations have changed, and we have 
entered uncharted waters.
    The Pentagon planners argue strongly that the climate system is 
exhibiting greater turbulence and instability--as evidenced by the 
hastening build-up of atmospheric carbon dioxide and heat, and wide 
swings in weather, and the examination of surprise shifts by the 
scientific community has generated a new sense of urgency.
    The Pentagon report reclassifies climate change as a national 
security, rather than an environmental, issue. The reason: the mounting 
extremes and a sudden, abrupt change could well trigger conflicts 
globally for shrinking resources.
    Changes in the chemical composition of the atmosphere are changing 
the heat balance in the air, land, oceans and ice. The inner atmosphere 
is actually swelling from the heat and, as Earth's surfaces warm, 
evaporation dries out soils and forests. Paradoxically, rising 
evaporation from warming oceans and melting ice also generate more 
tropical-like outbursts when it does rain.
    While engineers are turning their attention to technologies to 
clean the air and bury the carbon, we are faltering on prevention.
Heatwaves
    Returning to immediate threats--heatwaves have already begun. The 
heatwave in Los Angeles in the third week of April was unusually early 
and ozone levels were high. During the Boston marathon on April 19 140 
people were felled from heat exhaustion and dehydration. The August 14, 
2003 blackout during Last summer's heatwave could easily be repeated 
and the grid is still vulnerable. Temperatures in New Delhi have been 
over 107 for weeks and a heatwave in Greece during the Olympics--like 
that in Europe last summer that killed some 30,000 people in five 
countries, and led to crop failure and wildfires--could be devastating.
    Just as we underestimated the rate that the climate would change, 
we have underestimated the responses of biological systems--especially 
the opportunistic weeds, microorganisms and insects--to the warming and 
the wide swings in weather. The oceans are warming, ice is melting and 
water vapor is rising, as are the costs from extreme weather events.
    All these impacts come with costs. Homes in Texas are no longer 
insured for floods and mold. Insurance companies are pulling costs back 
from houses on Cape Cod. Costs have risen from $4 billion per year in 
the 1980s a year to $40 billion in the 1990s, were $55 billion in 2002, 
$60 billion in 2003 and the United Nations Environment Programme 
projects the losses to rise to $150 billion a year--and business 
interruptions, plus restrictions on trade, travel and tourism--within 
this decade if current trends continue. This has generated 
collaborative work through our Center with the Swiss Reinsurance 
company and the UNDP to project the health, ecological, and economic 
dimensions of possible climate futures.
    The costs of weather extremes and spreading diseases involving 
humans, crops, trees, birds, chickens, cows, pigs, cats, rodents, bats 
and marine life are affecting international trade, causing business 
interruptions and restricting tourism. The diseases involving insects, 
rodents, migrating birds and marine organisms all reflect warming and 
climatic extremes. And as climate becomes more unstable, it is playing 
an ever-expending role in the emergence, resurgence and spread of 
infectious diseases.
    The good news is that we may have vastly underestimated the 
benefits from making the transition to clean energy. A properly 
financed clean energy transition--with incentives for greater 
efficiency, alternative sources, ``green buildings,'' smart 
technologies to secure the grid, distributed generation, streamlined 
transport, more livable cities with pedestrian and biking pathways, 
hybrid cars, solar panels and fuel cells--can provide the sorely needed 
engine of growth for the 21st century.
    Solving the ``triple-E'' equation--energy, environment and the 
economy--is the job of all, and means determining the public role to 
enable market mechanisms that can drive the transition in a way that 
stabilizes the climate, while initiating a cleaner, healthier and more 
equitable form of economic growth.
    Former U.K. Prime Minister Margaret Thatcher was one of the first 
world leaders to address global warming and William F. Buckley has 
warned of the dangers. As the climate becomes more unstable maintaining 
this global threat as a partisan issue based in vested interests, will 
not meet the needs of this generation and the increasingly troubled 
generations to come.
    See http://www.med.harvard.edu/chge/green.pdf for full report and 
references for material in this affidavit.
Additional references in affidavit
    Idso, C.D., Idso, S.B., and Balling Jr., R.C. The urban 
CO<INF>2 </INF>dome of Phoenix, Arizona. Physical Geography 19, 95, 
1998.
    Idso, C.D., Idso, S.B., and Balling Jr., R.C. An intensive two-week 
study of an urban CO<INF>2 </INF>dome in Phoenix Arizona, USA. Atmos 
Environ 35, 995, 2001.
    Wan S, Yuan T, Bowdish S, Wallace L, Russell SD, Luo Y. Response of 
an allergenic species, Ambrosia Psilostachya (Asteraceae), to 
experimental warming and clipping: Implications for public health. 
American J of Botany 2000; 89:1843-1846.
    Ziska LH, et al. A global perspective of ground level ``ambient'' 
carbon dioxide for assessing the response of plants to atmospheric 
CO<INF>2</INF>. Global Change Biology 2000; 7:789.
    Ziska LH, et al. Cities as Harbingers of Climate Change: Common 
Ragweed, Urbanization, and Public Health. J Allergy Clin Immunol 
2003:111; 290-5.

    The Chairman. Thank you very much.
    Dr. Fraser?

        STATEMENT OF DR. WILLIAM R. FRASER, PRESIDENT, 
                  POLAR OCEANS RESEARCH GROUP

    Dr. Fraser. Mr. Chairman, Members of the Committee, I thank 
you for the invitation to participate in today's Full Committee 
hearing on climate change impacts and states' actions.
    I am Dr. William R. Fraser, President of Polar Oceans 
Research Group, a nonprofit organization based in Sheridan, 
Montana. I am ecologist with a long-term interest in 
understanding the mechanisms that regulate the populations of 
Antarctica's top marine predators, particularly penguins and 
other sea birds.
    This Committee has asked me to focus my testimony on my 
research activities in Antarctica, and specifically on the 
impacts of climate change. It is an honor to provide you with 
this testimony, which I would like to begin by providing three 
points of reference to place this work in context.
    First, it is important to establish that the information I 
present here is based only on the findings from the Western 
Antarctic Peninsula region. Second, this information is not 
based on models, but, rather, on nearly 25 years of continuing 
field research that began in 1974, at Palmer Station, a 
regional U.S. research facility. And, third, the life histories 
of indicator species, such as penguins and other predators, 
offer a window through which to detect and monitor climate-
change effects in Antarctica. These species provided some of 
the first evidence of the changes I will discuss today, our 
findings.
    A 51-year instrument record of surface air temperatures 
indicates that significant warming has occurred since at least 
the mid-1950s, and especially in the two decades following 
1980. This trend exhibits strong seasonality, and it is 
midwinter warming, in particular--June in the Southern 
Hemisphere--that shows the largest statistically significant 
increase. Midwinter temperatures have increased by more than 
one-tenth of a degree Centigrade per year, representing a six-
degree Centigrade increase in June temperatures over the 51-
year record. This winter warming is unequaled on the Earth, 
both in terms of its magnitude and rate of increase.
    Coincident with this winter warming, three complementary 
patterns of sea-ice loss have been documented. The first, based 
on a relationship between temperature and sea-ice formation, 
indicates the number of cold years with extensive sea-ice 
development have trended downward from an average of four out 
of five during the mid-1950s to only one every four-and-a-half 
years to date.
    The second pattern, based on the beginning of the satellite 
record, shows that in the two decades following 1973, sea-ice 
extent decreased by approximately 20 percent as a recession 
that encompassed both winter and summer sea ice.
    The third pattern, based on the timing of annual sea-ice 
advance and retreat, indicates that sea ice is now forming 
later and retreating earlier, resulting in a sea-ice season 
that is shortened by 2 weeks. This pattern became more 
prevalent after 1990.
    Warming has also affected glacial ice. Near Palmer Station, 
glaciers are retreating at a rate of approximately ten meters 
per year. Evidence of glacial thinning is also apparent as 
mountain ranges flanking the southeastern perimeter of Anvers 
Island, not visible 30 years ago, are now emerging into full 
view. The amount of new ice-free land along the entire 
southwest coast of Anvers Island is being redefined by glacial 
retreat, including exposure of four new islands that were 
unrecognized on local charts prior to 1995.
    Ecological responses to this warming have been widespread, 
and indicate that the cold, dry, polar marine ecosystem of the 
Western Antarctic Peninsula region is being replaced by a warm, 
moist, maritime regime. This change is progressing along the 
peninsula gradient from north to south as rising surface air 
temperatures affect sea ice and snow cover, which are among the 
most important drivers of ecological processes in polar, 
marine, and terrestrial ecosystems. Snow is increasing because 
the loss of sea ice improves the exchange of water vapor from 
the open ocean to the atmosphere, which then falls as 
precipitation.
    All major components of the marine food web are responding 
to these changes. The trends in Antarctic krill populations and 
in the populations of penguin species with different affinities 
to sea ice present two best examples.
    Adelie penguins are an ice-dependent species that breeds 
early in the spring. Since 1975, their populations have 
decreased by 60 percent. The factors responsible are a decrease 
in sea ice, which represent critical and essential winter 
habitat, and an increase in snowfall, which floods nests and 
drowns eggs and chicks when it melts, in spring.
    Chinstrap and Gentoo penguins are two ice-avoiding species 
that that breed 3 weeks later than Adelies. Their populations 
have increased dramatically, 3500 and 4500 percent 
respectively, from founder populations that established in 1974 
and 1993. The factors favoring population increase in these 
species are greater availability of open water and a late 
breeding schedule that circumvents spring snow-melt and 
flooding. Both species have core ranges that encompass the 
Northern Antarctic Peninsula; hence, their presence in our 
study area represents recent range expansion. This is confirmed 
by a 700-year-old paleoecological record indicating that the 
environmental conditions promoting the success of these two 
species today are unprecedented within the temporal limits of 
this record.
    Antarctic krill are the foundation of the Western Antarctic 
Peninsula food web, a key component in the diets of most 
wildlife. Krill are also an ice-dependent species. Young krill 
cannot survive their first year of life without winter sea ice, 
which provides shelter and food. Sea ice is thus a key variable 
determining recruitment or the number of young krill that 
survive to become the next generation of reproductive adults.
    Since 1975, krill abundance has been cycling in boom-and- 
bust fashion with a periodicity of four-and-a-half years, the 
same periodicity with which years of extensive sea ice are 
cycling in this marine system. Since sea ice is key to the 
survival of young krill, this population cycling means that 
krill recruitment is tracking these ice cycles. The ``boom'' 
part of this krill population cycle occurs when abundance peaks 
following these extensive ice years, and the surviving young 
krill move into the population; while the ``bust'' part results 
as these krill decrease in abundance over the next four or 5 
years, in the absence of extensive ice and new recruitment.
    This coupled cycling of sea ice and krill abundance 
presents a very troubling scenario. Krill live only five to 6 
years, meaning their life span is already at the threshold of 
capacity to bridge the four- to five-year gap that is, on 
average, separating the favorable sea-ice conditions required 
for successful recruitment.
    This marine ecosystem depends on the predictable 
availability of sea ice, yet the trend during the last five 
decades have been toward less predictability. If continued 
warming forces sea ice into a range of periodicities that 
exceeds 4 and 5 years, krill's life span will no longer be 
capable of bridging the gap. This will severely compromise 
krill reproductive success, with possibly catastrophic 
consequences to the integrity of this marine system.
    Concluding statements. Climate change in the Western 
Antarctic Peninsula region is unquestionably forcing a shift in 
the core ranges of wildlife populations. Many wildlife species 
on Earth, however, occupy habitats that are compromised by 
human activity. Relocation in the face of climate change for 
these species is not an option, suggesting that extinctions 
will inevitably accelerate in the decades ahead.
    The Arctic and the Western Antarctic Peninsular region are 
exhibiting similar changes, but of different magnitudes and 
several environmental and ecological variables, including 
trends in summer and winter temperatures, sea ice, and the 
redistribution and abundance of wildlife populations. These 
coherences at opposite ends of the Earth argue strongly in 
favor of the climate change signature that is evolving over 
global scales.
    And, finally, the findings presented in this testimony do 
not address the cause of climate change, but they do indicate, 
unequivocally, that Western Antarctic Peninsular warming is 
occurring, and the effects are having significant and 
measurable impacts on the marine ecosystem. Antarctica has no 
indigenous population; hence, the effects of local human 
activity are negligible, for all practical purposes. This is 
not the case for the rest of the Earth, suggesting one of the 
great challenges facing scientists and policymakers will be to 
understand how the collective activities of six-and-a-half 
billion people will influence ecological thresholds on which 
climate change is impinging.
    Thank you.
    [The prepared statement of Dr. Fraser follows:]

        Prepared Statement of Dr. William R. Fraser, President, 
                      Polar Oceans Research Group
Introduction and Terms of Reference
    Mr. Chairman, Members of the Committee, I thank you for your 
invitation to participate in today's Full Committee hearing on Climate 
Change Impacts and States' Actions. I am Dr. William R. Fraser, 
President of Polar Oceans Research Group, a small non-profit 
organization based in Sheridan, Montana, whose principal activities 
center on conducting long-term ecological research in Antarctica and 
facilitating the education and training of future ecosystems 
scientists. I am an ecologist by profession, with a long-term interest 
in identifying and understanding the mechanisms that regulate the 
populations of Antarctica's top marine predators, including, in 
particular, penguins and other seabirds. Our research has demonstrated 
that some seabird species are extremely sensitive indicators of climate 
change effects in Antarctica, a finding now also supported by many 
other studies. Indeed, it is worth pointing out that trends in penguin 
populations provided some of the first evidence that sea ice conditions 
in some regions of Antarctica were deteriorating in response to climate 
warming. We published these results in 1992, five years before a 
publication in 1997 based on satellite remote sensing confirmed our 
suspicions regarding these regional trends in temperature and sea ice.
    This Committee has asked me to focus my testimony on my research 
activities in Antarctica, and specifically on the impacts of climate 
change in this most southern of the Earth's continents. It is both a 
pleasure and honor to provide you with this testimony, which I would 
like to begin by discussing 3 points of reference to place this work in 
context, and provide this Committee with a gauge of its significance 
and limitations. First and foremost, it is important to establish that 
the information I present here is based only on findings from the 
western Antarctic Peninsula region (Figure 1). I make this distinction 
because the word ``Antarctica'' is on occasion used somewhat 
generically when questions about the evidence backing climate change on 
this continent arise. Antarctica is vast, equal in surface area to the 
United States and Mexico combined, and while it is true that climate 
change signatures have been less pronounced at more southern latitudes, 
this is most definitely not the case in the western Antarctic Peninsula 
region. The IPCC's Third Assessment Report (2001) recognizes this 
distinction and is quite correct in its prediction that the Antarctic 
Peninsula will be one of the areas experiencing the largest and most 
rapid climate change on the Earth. I will say more about this later in 
this testimony.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 1. Palmer Station and the western Antarctic Peninsula 
        PAL LTER study area.

    The second point I wish to bring to the attention of this Committee 
is that the observations and conclusions I present here are not based 
on models. This comment is not in any way meant to diminish the value 
of models as tools to investigate climate change dynamics, but simply 
to point out that what I report is, in effect, an account of climate 
change impacts based on nearly 25 years of field research in the 
western Antarctic Peninsula region. I began this work in 1974 and have 
continued to the present. Today this research is coupled to the Palmer 
Long-Term Ecological Research program (PAL LTER), which since its 
inception in 1990 has been based at Palmer Station, a U.S. research 
facility operated by the National Science Foundation on Anvers Island 
(Figure 1). This program brings together an interdisciplinary group of 
core investigators and collaborators from both domestic and foreign 
institutions whose objectives focus on documenting and understanding 
the effects of regional climate change on the marine ecosystem. These 
objectives drive an intense terrestrial and oceanographic program that 
annually samples over approximately 80,000 km\2\ (the PAL LTER study 
region), operates for up to six months each season and has included 
many years of winter studies. As a result, our record of climate-
induced changes in this region now spans 3 decades and incorporates an 
ecosystem-scale perspective that is now beginning to reveal the often 
subtle relationships between cause and effect.
    As the third and final point in these terms of reference, I would 
like to expand briefly on the concept of indicator species, which I 
introduced earlier in this testimony when I alluded to the important 
role played by penguins and other seabirds in advancing our 
understanding of the interactions between climate change and marine 
ecosystem response in the western Antarctic Peninsula region. All 
ecosystems are populated by species that are particularly sensitive to 
some component of the environment that is key to the successful 
completion of their life cycles. Salmon in the Pacific Northwest, for 
example, do not reproduce successfully in waters where temperatures 
and/or silt loading rise above some critical threshold. For this 
reason, and because negative changes in salmon populations can signal 
deteriorating habitat conditions in a stream or river, salmon are 
regarded a key indicator species of water quality in the region. An 
analog to this example is observed in the western Antarctic Peninsula 
among three species of penguins whose life histories exhibit very 
different affinities to sea ice. For Adelie penguins (Pygoscelis 
adeliae), the presence of sea ice is essential to their survival. By 
contrast, it is the absence of sea ice that is essential to the 
survival of the otherwise ecologically similar Gentoo (P. papua) and 
Chinstrap (P. Antarctica) penguins. Although these relationships were 
not fully described until 1992, they now define a role for these 
species as indicators of environmental change in Antarctica that has 
been incorporated into the long-term monitoring and research programs 
of more than 15 countries working throughout coastal Antarctica.
Climate Change Effects in the Western Antarctic Peninsula Region
Temperatures, Sea Ice and Glacial Ice
    On March 3, 2004, this Committee heard the distinguished testimony 
of Dr. Robert Corell, Chairman of the Arctic Climate Impact Assessment, 
who reviewed climate change effects in the Arctic. Many of the changes 
reported for the Arctic closely track trends in the western Antarctic 
Peninsula region, especially with respect to the seasonal timing and 
magnitude of warming and its effects on sea ice conditions. Several 
current and significant studies addressing these trends on a regional 
scale were published in 2003. One of these studies, based on a 51-year 
(1951-2001) instrument record of surface air temperatures in our focal 
PAL LTER study region, indicates that significant warming has occurred 
since at least the mid-1950s, especially in the two decades following 
1980. This trend, moreover, exhibits a strong seasonality, and it is 
mid-winter warming in particular, June in the Southern Hemisphere, that 
shows the largest, statistically significant increase. Mid-winter 
temperatures have increased by 0.11 C+ per year, representing a 6 C+ 
increase in June temperatures over the 51-year record. This winter 
warming is unequaled on the Earth, both in terms of its magnitude and 
rate of increase.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Relationship between temperature and sea ice extent

    Because sea ice forms primarily during winter, and there is a 
significant anti-correlation between surface air temperatures and sea 
ice extent (Figure 2), several complementary patterns of sea ice loss 
have been documented in the western Antarctic Peninsula region. The 
first, based strictly on the relationship between temperature and sea 
ice formation, indicates that the number of cold years producing heavy 
sea ice conditions, or ice covering the ocean's surface to at least 61+ 
south latitude, has decreased from an average of 4 out of 5 during the 
mid-1950s to 1-2 out of 5 today. Indeed, since the mid-1970s, these 
heavy sea ice years have occurred, on average, only once every 4.5 
years. The second pattern is based on remote sensing since the 
beginning of the satellite imaging record, and shows that in the two 
decades following 1973, sea ice extent decreased by 20 percent as a 
recession that encompassed both winter and summer sea ice. The third 
and final pattern concerns changes in the length of the sea ice season, 
or the number of days between the time ice begins to advance in autumn 
and retreat in spring. This record indicates that sea ice is now 
forming later and retreating earlier, resulting in a sea ice season 
that has shortened by 2 weeks. This pattern became more prevalent after 
1990 if the decades prior to 1990 are compared.
    When compared to the sea ice time series, the record of change in 
glacial ice over the same time period is unfortunately less robust. 
This is not to say that such a record does not exist, as certainly the 
data needed to develop it must be available in the form of archived 
images based on remote sensing. Rather, and with the exception of some 
studies that lie outside the regional scope of our work, it appears 
that little effort has been directed at compiling, comparing and 
publishing the data that may be available. Nevertheless, 2 trends 
evident in the immediate vicinity of Palmer Station bear further 
comment because they track patterns observed elsewhere on the Antarctic 
Peninsula. For example, mapping of the boundary region separating the 
station from the nearby Anvers Island glacier (Figure 1) using GPS 
(Global Positioning System), has revealed that the glacier's face is 
retreating at a rate of approximately 10 meters per year. Evidence of 
glacial thinning is also apparent as mountain ranges flanking the 
southeastern boundary of this glacier, not visible 30 years ago from 
Palmer Station, are now emerging into full view. These local-scale 
patterns are also confirmed by larger-scale events. The amount of new 
ice-free land along the entire southwest coast of Anvers Island, for 
example, has been redefined by glacial retreat, including exposure of 4 
new islands that were unrecognized on local maps and charts prior to 
1995.
Ecological Responses
    The western Antarctic Peninsula region is experiencing a gradual 
replacement of a cold, dry polar marine ecosystem with a warm, moist 
maritime regime. This change is progressing along a Peninsular gradient 
from north to south as rising surface air temperatures affect sea ice 
and snow cover, which are among the most important drivers of 
ecological processes in polar marine and terrestrial ecosystems. 
Although, we have evidence that all the major components of the food 
web are responding to these changes, two particularly clear examples 
are the contrasting, long-term population responses of penguin species 
with different affinities to sea ice (Figure 3) and the patterns of 
variability now evident in Antarctic krill (Euphausia superba) 
populations.
    Since 1975, focal study colonies of the ice-dependent Adelie 
penguin have decreased by 60 percent, representing a loss of 
approximately 10,000 breeding pairs. The factors responsible are a 
decrease in sea ice, which represents critical and essential winter 
habitat, and an increase in snowfall, which melts in the spring and 
drowns eggs and chicks. Evidence from glacial cores suggests that snow 
deposition has been increasing in the region for perhaps 100 years as 
the loss of sea ice improves exchanges of water vapor from the open 
ocean to the atmosphere. This is supported by our observations, as the 
rate at which Adelie penguin populations have decreased is 
significantly greater (70 percent vs. 40 percent) in colonies located 
on south-facing terrain where snow deposition is enhanced due to 
prevailing northerly winds. The contrasting population trends shown by 
the ice-avoiding Chinstrap and Gentoo penguins substantiate these 
dynamics (Figure 3). Although the core range of both these species 
encompasses the northern Antarctic Peninsula and sub-Antarctic islands, 
their range during the last 3 decades has been expanding to the south, 
with founder populations establishing locally in 1974 and 1993, 
respectively. Two factors have favored their very substantial 
population increases (Figure 3), greater availability of open water, 
and a late breeding schedule that circumvents spring snow melt and 
flooding. Of special relevance, however, is that a 700-year old 
paleoecological record shows no evidence that these species occurred in 
this region in the past. This suggests that the environmental 
conditions that are promoting their success today are unprecedented 
within the temporal limits of this record.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Figure 3. Changes in penguin populations in the Palmer Station 
        vicinity, 1975-2003.

    The Antarctic krill, a shrimp-like crustacean that is fished 
commercially, is the foundation of the western Antarctic Peninsula food 
web, and is a key component of the diets of many species from squid and 
fish to seabirds, seals and whales. Krill is also a species whose life-
history is critically tied to sea ice. Adult krill feed in spring and 
summer on the vast phytoplankton blooms that are produced along ice 
edges as the melt season progresses. Female krill in particular need 
these blooms to stimulate and enhance reproductive condition and spawn. 
However, although adult krill can survive sub-optimal feeding 
conditions from year to year, this is not the case for larval krill, 
which are produced after eggs hatch prior to winter. These young krill 
cannot survive their first year of life without winter sea ice, which 
both shelters them from predators and provides them with food in the 
form of algae and diatoms. Sea ice is thus an indispensable nursery for 
krill because without it there is little or no recruitment; that is, no 
contribution by one population to the next generation of reproductive 
adults.
    Our data show that since 1975, krill abundance has been cycling in 
a boom and bust fashion with a periodicity of 4-5 years, which as noted 
previously in this testimony, is also the frequency with which years of 
heavy sea ice are cycling in this marine system. This is not 
surprising. Given the critical role played by sea ice in larval krill 
survival, it indicates that krill recruitment is tracking these ice 
cycles. The boom part of the cycle occurs when krill abundance peaks 
following these heavy ice years as the surviving age-class recruits 
into the population, while the bust part of the cycle develops as this 
age-class decreases in abundance over the next 4-5 years in the absence 
of optimal ice conditions and new recruitment. This cycling in krill 
population abundance currently presents a troubling scenario insofar as 
possible future consequences of climate warming to the marine ecosystem 
in this region. The reason is that krill live to be only 5-6 years of 
age, meaning their life span is already at the very limits of their 
capability to bridge the 4-5 year periodicity in the occurrence of the 
favorable sea ice conditions they need for successful reproduction and 
recruitment. This marine ecosystem depends on the predictable 
availability of sea ice, yet the trend during the last 5 decades has 
been towards less predictability. If current thresholds are breached 
any further by future climate warming, that is, if sea ice 
periodicities begin to exceed krill life span by manifesting at 
intervals that are longer than 4-5 years, krill life span will no 
longer bridge the gap and severely compromise reproductive success. 
This will have catastrophic consequences to the integrity of this 
marine ecosystem.
Concluding Statements
    1. Climate change in the western Antarctic Peninsula region is 
forcing a shift in the core ranges of wildlife populations, but 
suitable habitats available to absorb these changes remain. Many 
wildlife species on the Earth, however, occupy habitats that are 
already compromised by human activities. Relocation in the face of 
climate change for these species is not an option, suggesting that 
extinctions will inevitably accelerate in the decades ahead.
    2. The Arctic and the western Antarctic Peninsula region are 
exhibiting similar changes but of different magnitudes in several 
environmental and ecological variables, including trends in summer and 
winter temperatures, sea ice and the redistribution and abundance of 
wildlife populations. These coherences at opposite ends of the Earth 
argue strongly in favor of a climate change signature that is evolving 
over global scales.
    3. The findings presented in this testimony do not address the 
cause of climate change, but they do indicate unequivocally that 
western Antarctic Peninsula warming is occurring and the effects are 
having significant and measurable impacts on the marine ecosystem. 
Antarctica has no indigenous population and the footprint of human 
activity is for all practical purposes negligible. This is not the case 
for the rest of the Earth, suggesting one of the great challenges 
facing scientists and policy makers will be to understand how the 
collective activities of 6.5 billion people will influence the 
ecological thresholds on which climate change is impinging.
    The findings presented in this testimony were taken in part from 
the following sources:

    Emslie SD, Fraser WR, Smith RC, Walker W (1998) Abandoned penguin 
colonies and environmental change in the Palmer Station area, Anvers 
Island, Antarctic Peninsula. Antarctic Science 10: 257-268.

    Fraser WR, Hofmann EE (2003) A predator's perspective on causal 
links between climate change, physical forcing and ecosystem response. 
Marine Ecology Progress Series 265: 1-15.

    Fraser WR, Trivelpiece WZ, Ainley DG, Trivelpiece SG (1992) 
Increases in Antarctic penguin populations: reduced competition with 
whales or a loss of sea ice due to global warming? Polar Biology 
11:525-531.

    Jacobs SJ, Comiso JC (1997) Climate variability in the Amundsen and 
Bellingshausen seas. J Climate 10:697-709.

    Smith RC, Fraser WR, Stammerjohn SE, Vernet M (2003) Palmer Long-
term ecological research on the Antarctic marine ecosystem. In: Domack 
E, Leventer A, Burnett A, Bindschadler R, Convey P, Kirby M (eds) 
Antarctic Peninsula Climate Variability: Historical and 
Paleoenvironmental Perspectives. AGU Vol. 79, pp. 131-144.

    The Chairman. Dr. Fraser, are there any individuals or 
organizations who disagree with your findings?
    Dr. Fraser. There's always those organizations, Senator.
    The Chairman. Yes.
    Dr. Mote?

  STATEMENT OF PHILIP W. MOTE, Ph.D., JOINT INSTITUTE FOR THE 
          STUDY OF THE ATMOSPHERE AND OCEAN, CLIMATE 
            IMPACTS GROUP, UNIVERSITY OF WASHINGTON

    Dr. Mote. Thank you, Senator McCain, for continuing to draw 
attention to this issue.
    For my testimony, I am drawing on the work of several 
people, not just myself; most of it conducted quite recently, 
and much of it conducted at various regional centers in NOAA's 
Regional Integrated Sciences and Assessments Program, RISA 
Program, which your acquaintance, Brad Udall, is a participant 
in.
    RISA efforts seek to translate climate information--and, 
specifically, seasonal forecasts--into better natural-resource 
management. And along the way, we have had to understand 
climate variability and change on a wide range of time scales. 
It was pretty clear that snow is a key resource in the Western 
U.S., and so we've begun to focus on variability and trends in 
mountain snowpack.
    Warming trends in the Western U.S. have already produced 
significant changes in snow-driven hydrology. In the past 50 
years, dates of peak snow accumulation and of peak snowmelt-
derived stream flow have shifted earlier, typically by ten to 
forty days, and spring snowpack has decreased in most of the 
West. Although a direct causal connection between the observed 
changes and rising concentrations of greenhouse gases cannot 
firmly be established, it is likely that the declines do 
reflect human influence.
    In many important respects, these observed changes are 
consistent with projections of future change in a warming 
world, and point toward further reductions in summer water 
supply and increased demand.
    If you have, in front of you, my written testimony, I'd 
like to draw your attention to a couple of figures. Firstly, 
Figure 1, which shows maps of trends in April 1st snowpack, 
both taken from snow-course observations, on the left, and from 
our hydrologic model, shown on the right. Both model and 
observations agree that spring snowpack has declined in about 
75 percent of the West during the last 50 years, except where 
large----
    The Chairman. During the last how long?
    Dr. Mote. Fifty years, roughly. And the same is true if we 
look back over 80 years, but there are very few observations 
that go back more than 50 years, so we kind of have to rely on 
the model, before 1940.
    The magnitude of trends are similar in observations and in 
our hydrologic model. Losses, averaged over the entire West, 
are about 10 to 20 percent in the last 50 years, but they are 
larger where winter temperatures are relatively mild; namely, 
the mountains of Washington, Oregon, and Northern California. 
In most mountain ranges--and you can see this particularly in 
the panel on the right--trends are small at ridge-top, 
indicated by the white shading, and grow to be substantial at 
the snow line, indicated by the deep-red shading--in some 
cases, exceeding 100 percent loss in the last 50 years. These 
variations in trends, both regionally and locally, point to a 
dominant role for temperature trends, not for other factors. 
And temperature trends play a bigger role the closer the site 
is to freezing temperatures.
    If I could turn your attention to Figure 3, spring snowmelt 
timing has advanced by 10 to 40 days in most of the West, which 
has led to increasing flow in March in most of the West, as 
indicated by the blue circles, and decreasing flow in June, the 
bottom panel, red circles, especially in the Pacific Northwest, 
which, again, is a region of fairly mild temperatures, so a 
little bit of warming goes a long way.
    And, finally, if I could turn your attention to Figure 6, 
which looks at the future, we've used a mild scenario of 
climate change from the NCAR parallel climate model. This is a 
model that is among the least sensitive to greenhouse gas 
increases, so it probably represents a lower bound of what 
would happen, barring efforts like yours to curb greenhouse gas 
increases.
    Using this model, our hydrologic model projects that losses 
in West-wide April 1 snowpack will reach approximately 40 
percent by the 2050s and 50 percent by the 2090s. Note that 
most other climate models would give larger decreases because 
they produce more warming. And, again, for perspective, note 
that in the last 50 years the model simulated about an 11 
percent decline, and observations indicate about a 20 percent 
decline.
    Clearly, agencies that manage water resources must begin to 
come to grips with the reductions in summer flow and earlier 
snowmelt, which are key aspects of how global warming is 
already affecting the West.
    Thank you.
    [The prepared statement of Dr. Mote follows:]

    Prepared Statement of Philip W. Mote, Ph.D.<SUP>*</SUP>, Joint 
 Institute for the Study of the Atmosphere and Ocean, Climate Impacts 
                         Group, University of 
                               Washington
---------------------------------------------------------------------------
    \*\ This document was prepared by Philip Mote with contributions 
from Alan Hamlet (UW), Iris Stewart (Scripps Institution of 
Oceanography (SIO), UC San Diego), Andrew Wood (UW), Tom Pagano (Water 
and Climate Center, USDA Natural Resources Conservation Service), Dan 
Cayan (SIO/UCSD), Lara Whitely Binder (UW), Dennis Lettenmaier (UW), 
and Martyn Clark (Univ. of Colorado).
---------------------------------------------------------------------------
Summary
    Warming trends in the western U.S. have already produced 
significant changes in snow-driven hydrology. In the past 50 years, 
dates of peak snow accumulation and of peak snowmelt-derived streamflow 
have shifted earlier, typically by 10-40 days, and spring snowpack has 
decreased in most of the West (total decrease of 11 percent since 
1950). Although a direct causal connection between the observed changes 
and rising concentrations of greenhouse gases cannot yet be 
established, it is likely that the declines reflect human influence. In 
many important respects, these observed changes are consistent with 
projections of future change in a warming world, where losses in the 
West's total April 1 snowpack are likely to exceed 40 percent by the 
2050s. These observed changes point toward further reductions in summer 
water supply and increased demand.
Snow Resources

        ``Snowpack is the lifeblood of the West and provides about 75 
        percent of the water supply in the West.''--Natural Resources 
        Conservation Service, U.S. Department of Agriculture

    In much of western North America, snow provides the primary means 
for storage of winter precipitation, effectively transferring water 
from the relatively wet winter season to the typically dry summers. 
Built storage (dams and reservoirs) and snow storage play varying roles 
in different parts of the West: built storage is largest--several times 
the annual flow--in the middle and lower Colorado River basin, and 
helps buffer California against large year-to-year variations in 
precipitation. Conversely, reliance on snow storage is substantial in 
the Northwest, where reservoirs on the Columbia River can store only 
about 30 percent of the annual flow and reservoirs in the Cascade 
Mountains store only about 10 percent of the annual flow.
    Since the 1970s (e.g., ref. 5) scientists have pointed out that 
mountain snowpack would be reduced in a warming world. Recent research, 
summarized in this document, indicates that warming in much of the West 
during winter and spring has already produced declines in mountain 
snowpack (-11 percent averaged over the West), earlier snowmelt runoff, 
and lower summer streamflow. These changes have taken place in most of 
the mountainous West, except in places where large increases in 
precipitation have offset the warming-induced decline. The observed 
declines in snowpack and summer streamflow, and shifts toward earlier 
streamflow timing, have been largest in the mountains of Washington, 
Oregon, and northern California.<SUP>6-9</SUP>
Trends in Snow and Snowmelt During the 20th Century and the Role of 
        Temperature
    In order to provide water supply forecasts for summer water users, 
the USDA Natural Resources Conservation Service (NRCS), California 
Department of Water Resources, and partner agencies collect 
measurements of snowpack each spring, most commonly around April 1. 
Analysis of these snowpack data indicate that much of the mountain West 
has experienced declines in spring snowpack (Figure 1), especially 
since mid-century, despite increases in winter precipitation in many 
places.<SUP>3,6-8</SUP> Analysis and modeling also shows that climatic 
trends are the dominant factor in the declines, not changes in land 
use, forest canopy, or other factors.\7\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Linear trends (1950-1997) in April 1 snow water 
equivalent (SWE) relative to the starting value for the linear fit, (a) 
at 824 snow course locations in the western U.S. and Canada, with 
negative trends shown by red circles and positive by blue circles; (b) 
from a simulation by a hydrologic model (domain shown in gray).

    Accompanying these declines in April 1 snowpack are trends toward 
earlier peak snowpack \6\ (Figure 2) and earlier spring snowmelt, as 
measured by streamflow timing.<SUP>1,8,9</SUP> As a result, March flows 
have tended to increase and June flows have tended to decrease \9\ 
(Figure 3), a pattern that is consistent with trends toward earlier 
peak snowmelt.
    The largest decreases in snowpack and largest advances in snowmelt 
timing have occurred where winter temperatures are relatively mild 
(Figure 4), especially in the Cascade Mountains and Northern 
California, while cold high-elevation basins remain well below freezing 
even under considerable warming. In most mountain ranges, trends are 
minimal at ridgetop and grow to be substantial at snowline.\7\ These 
local and regional patterns of trends point to a dominant role of 
temperature trends: snow accumulation and melt at locations with winter 
temperatures near freezing are most sensitive to temperature.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Trends (1916-1997) in timing of peak snow accumulation 
(left), in days, and (top) plotted against December-February 
temperature (+C). Red dots for points in the Northwest, blue for 
California, green for Colorado River basin, black for Great Basin.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Trends in March (left) and June (right) snowmelt-derived 
streamflow as a fraction of annual total flow. The colored dots 
represent the percentage of change for a given monthly flow over the 
1948-2002 period. Generally, March flows have been increasing and June 
flows decreasing, consistent with trends toward earlier peak spring 
flow. From Stewart, I.T., D.R. Cayan, and M.D. Dettinger (2004). 
Changes toward earlier streamflow timing across western North America, 
submitted to Journal of Climate.
2004 Record Losses
    Between March 1, 2004 and April 1, 2004, many snow observation 
sites in the western U.S. posted record or near-record losses of 
snowpack (Figure 5). Unusually warm and dry weather, not necessarily 
long-term climate change, were responsible. These large drops in 
springtime snowpack exacerbate a drought that is in its seventh year in 
much of the West, and underscore the necessity of preparing to manage 
water in a warmer world with reduced snow storage.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4 (above). Average December-February temperature. In 
addition to the Rockies, the southern Sierra Nevada mountains are quite 
cold and the Cascades and the mountains of northern California are 
milder and more susceptible to warm years or warming trends.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 5 (left). March 2004 saw record (red) or near-record (blue) 
losses in snow at most snow observation sites in the West, owing to 
unusually warm and dry weather.
Snow and Streamflow in the 21st Century
    Researchers have quantified the effects of higher temperatures on 
snowpack and streamflow using statistical techniques or numerical 
modeling (e.g., refs. 2 and 4). Warming inevitably produces declines in 
snowpack at moderate and lower elevations with earlier peak streamflow 
and reduced summer flows in a prolonged summer drought 
period.<SUP>2,4</SUP> Under projected temperature increases from a 
global model that is relatively insensitive to greenhouse gas forcing, 
hydrologic simulations indicate that spring snowpack in much of the 
West would be substantially diminished by mid-century \4\ (Figure 6). 
Models having greater response to climate warming produce substantially 
larger losses of snowpack. In areas where snowpack increased during the 
20th century owing to large increases in precipitation, it is unlikely 
that precipitation will continue to increase fast enough to offset 
further warming at the pace expected for the western U.S. Even if the 
overall yearly precipitation did not change in the future, spring 
runoff that arrives earlier cannot necessarily be captured for summer 
water supply because of requirements to maintain flood control.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 6. Simulated April 1 snowpack for a baseline (1950-99) 
climate, and for climate scenarios for the 2050s and 2090s provided by 
the NCAR Parallel Climate Model, a model with a low rate of warming. 
Percentage declines in total snowpack are shown.

    The pattern of these simulated future changes is broadly similar to 
the observed trends in the 20th century, indicating that the stresses 
on western water resources experienced in recent years are 
foreshadowing much larger stresses to come. Even without the very 
likely increases in demand for water driven both by population growth 
and by the higher evaporative needs of plants, declines in summer water 
supply and shifts toward earlier peak snow will affect irrigated 
agriculture, instream flows for fish and wildlife, hydropower 
production, flood control, navigation, recreation, forest growth, 
severity of forest fires, and many other aspects of western economic 
and environmental health.<SUP>2,4</SUP>
Adaptation
    Agencies that manage water resources must begin to come to grips 
with the implications of warming, especially the likely reductions in 
summer flow.\4\ New Federal legislation may be needed to enable or 
require agencies to adapt to the changing flow regime: for example, to 
revise rule curves that govern the management of dams to aim for 
earlier reservoir refill, or to make decisions about water availability 
in the process of relicensing dams, to name just two examples. 
Consistent and widespread monitoring of climatic and hydrologic 
conditions is also critical.
References
Papers published in peer-reviewed journals
    1. Cayan, D., S. A. Kammerdiener, M. D. Dettinger, J. M. Caprio, D. 
H. Peterson, Changes in the onset of spring in the western United 
States. Bull. Amer. Meteorol. Soc. 82 399-415 (2001).
    2. Hamlet, A.F., and D.P. Lettenmaier, Effects of climate change on 
hydrology and water resources in the Columbia River basin, J. Amer. 
Water Resour. Assoc. 35, 1597-1623 (1999a).
    3. Mote, P.W., Trends in snow water equivalent in the Pacific 
Northwest and their climatic causes. Geophys. Res. Letts., 30, DOI 
10.1029/2003GL017258 (2003a).
    4. Payne, J.T., A.W. Wood, A.F. Hamlet, R.N. Palmer, D.P. 
Lettenmaier, Mitigating the effects of climate change on the water 
resources of the Columbia River basin, Climatic Change, 62, 233-256 
(2004).
    5. Gleick, P.H., Methods for evaluating the regional hydrologic 
impacts of global climatic changes, J. Hydrology, 88, 97-116 (1986).
Papers submitted to journals
    6. Hamlet, A.F., P.W. Mote, M.P. Clark, and D.P. Lettenmaier, 
Effects of temperature and precipitation variability on snowpack trends 
in the western U.S., submitted to Journal of Climate.
    7. Mote, P.W., A.F. Hamlet, M.P. Clark, and D.P. Lettenmaier, 
Declining Mountain Snowpack in western North America, submitted to 
Bulletin of the American Meteorological Society. 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5b5adaca9acb585a4b1a8aab6ebb2a4b6adacaba2b1aaabeba0a1b0eb">[email&#160;protected]</a>
    8. Regonda, S.K., B. Rajagopalan, M. Clark, and J. Pitlick, 
Seasonal cycle shifts in hydroclimatology over the western U.S., 
submitted to Journal of Climate, 2004. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="56353a37243d16203924223f353f222f7835393a392437323978333223">[email&#160;protected]</a>
    9. Stewart, I.T., D.R. Cayan, and M.D. Dettinger, Changes towards 
earlier streamflow timing across western North America, submitted to 
Journal of Climate, 2004. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff968c8b9a889e8d8bbf929a8b9a908d9ed18a9c8c9bd19a9b8a">[email&#160;protected]</a>

    The Chairman. Dr. Mote, before I turn to Senator Snowe, who 
would like to make an opening comment, there are those who 
allege that the last 70 or 80 years in the West is an 
aberration, that there was much increased moisture, and that 
historically there was less, and we're just sort of going back 
to the historic trends. They say that tree rings and other 
indicators indicate that. What do you say?
    Dr. Mote. Well, that's certainly a fair question, and we 
have striven pretty hard to place these changes in context. For 
example, in the Northwest, where we've used the hydrologic 
model and what observations there are, we know that the 1930s 
was a very dry decade, considerably drier than the 1990s, yet 
the snow amounts in the 1990s are comparable to those in the 
1930s. And the only explanation is the warming.
    Going back much farther, clearly there have been severe 
droughts, but these deprivations of snowpack in the distant 
past have occurred because of precipitation. What we're seeing 
now is that, in addition to those precipitation fluctuations, 
there is a very persistent warming trend, consistent with 
rising greenhouse gases, which is shrinking the area of the 
mountains that actually stores snow.
    So precipitation and temperature are two different effects.
    The Chairman. Senator Snowe, you wanted to make an 
opening----
    Senator Snowe. I'll be very brief----
    The Chairman.--statement?
    Senator Snowe.--Mr. Chairman. I don't want to interrupt 
your hearing. I will ask unanimous consent to include my entire 
statement in the record.
    The Chairman. Without objection.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Mr. Chairman, I just want to thank you for 
the amount of attention that you have given this issue 
consistently, not only through this Congress, but in previous 
Congresses. I think it's regrettable, in fact, that not enough 
colleagues are here to hear your testimony this morning. You're 
preaching to the choir.
    And I think that the fact is that Chairman McCain's 
leadership on this issue stands in stark contrast with the 
failure of Congress to address this issue and address one of 
the most significant environmental issues that we're facing in 
the 21st century, without question.
    And I've just become Co-chair of an independent worldwide 
task force with scientists and other elected officials from 
other countries, and we plan to issue a recommendation next 
February on what we can do to address solutions on a global 
basis.
    I'm pleased that my state has taken the leadership, as you 
mentioned, Mr. Colburn, in passing the first greenhouse 
reduction legislation--last June, in fact. And states are 
taking the leadership. I think that's the other irony in all of 
this, that more than 26 states, I understand, have assumed the 
mantle of environmental leadership, which again stands in stark 
contrast to the failure of Congress--not for the lack of trying 
on the part of the Chairman and some of the Members of this 
Committee, and otherwise in the Senate and in the House. But 
the fact is, the Chairman's legislation received a vote of 43 
Senators last fall, and that was viewed as the high-water mark, 
and it was the first vote on this issue in 6 years in the U.S. 
Senate. Isn't that a sad commentary?
    Again, it stands in contrast to the sobering and staggering 
testimony that you are presenting here today. And I have an 
entire statement, but I want to thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman. I want to commend you for your attention 
to this issue through this hearing and the other you've held since the 
106th Congress, which have given us a greater understanding of what I 
believe is one of the most significant environmental issues of the 21st 
century. The message we have heard from renowned scientists clearly 
tells us that the time has come to adaptation and mitigation solutions 
to this problem to ensure that we do not leave an even graver situation 
for future generations to solve.
    In fact, I feel so strongly about the need to act on a worldwide 
basis that I have accepted an invitation to be Co-chair of an 
independent international taskforce of scientists and politicians from 
around the world. The taskforce, developed respected think tanks from 
the U.K., Australia and the U.S., is looking at scenarios to move 
forward to reduce greenhouse gas emissions on a global scale, and we 
expect to come out with recommendations next February.
    Mr. Chairman, the main finding of a 2001 National Academies' 
report, ``Climate Change Science: Analysis of Some Key Questions''--was 
that, ``Greenhouse gases are accumulating in the Earth's atmosphere as 
a result of human activities, causing surface air temperatures and 
subsurface ocean temperatures to rise.'' This is alarming considering 
that the carbon dioxide emitted today will linger in the atmosphere on 
average of at least a century.
    Scientists note an extreme jump in temperatures in the last decade 
when compared to the last 1,000 years, according to tree rings, corals, 
historical records, and from thermometers. Evidence shows that the 
snows of Kilimanjaro could vanish in 15 years, that glaciers in the 
Bolivian Andes may disappear in another 10 years. In Alaska, the 
average temperature has risen almost five and a half degrees over the 
past 30 years, and there is evidence of melting permafrost, sagging 
roads, and dying forests. A 150 square mile, 100 foot thick mass of ice 
that has existed on the coast of Canada for 3,000 years is 
disintegrating--and the melting has been accelerating over the past two 
years. Coral reefs, a large and integral part of the coastal oceans 
around the world, are under huge stresses as coral bleaching is induced 
by high water temperatures.
    I have heard from scientists in past hearings, that warming trends 
are real, and that they are affecting both the public's health in my 
State of Maine and others, and imperiling the safety of the people who 
live in the Western U.S. through continued drought and forest fires. 
And we will hear the effects of warming on wildlife species that live 
in narrow ecosystems around the globe. The science tells us that the 
time for mitigation actions against further warming is now--the health 
of the planet cannot be ignored.
    I look forward to hearing from Ken Colburn of NESCAUM in particular 
on what states across the U.S. are doing to reduce their CO2 emissions. 
The New York Times reported last fall that, ``In the last three years, 
state legislators have passed at least 24 bills, usually with 
bipartisan support'' that address global warming.
    Last June 26, the state of Maine signed into law the first 
greenhouse gas emissions reduction bill passed by any state that 
mandates reductions in CO2 emissions to below 1990 levels by 2020.
    Grassroots efforts in states around the country are sending 
Congress a clear message--and we should listen, as our atmosphere knows 
no boundaries. What is really needed is a national, not just a 
patchwork approach as a first step to emissions reductions for 
solutions that are environmentally and economically sound. Your bill, 
Mr. Chairman, the Climate Stewardship Act is that first step, and I 
look forward to working with you for a positive outcome for the bill. I 
thank the Chair.

    The Chairman. Well, thank you, Senator Snowe, and thank you 
for your leadership and involvement in this issue. And I know 
we have a lot of important things going on in the world, and 
we're in critical situation, but I find this testimony today, 
from highly credible individuals to be, again, very chilling 
and very concerning.
    Dr. Curry, we had a witness in the last hearing that said 
that the coral reef is dying--the Great Barrier Reef is dying. 
Have you information about that?
    Dr. Curry. Mr. Chairman, that's not my specialty, but I do 
keep up with the reading on that literature. And, you know, as 
the tropical oceans get warmer, there appear to be more 
frequent bleachings of the corals and--you know, I don't know 
the specifics about the Great Barrier Reef, but it's fairly 
widespread in the Caribbean and other locations.
    The Chairman. I keep bringing that up because if the coral 
reefs die, it's obvious that that's the beginning of the food 
chain, and I don't know what percentage of the world is 
dependent upon the oceans for their subsistence, but I would 
imagine it's pretty large.
    Dr. Fraser, is the plight of the penguin ``the miner's 
canary'' of global warming?
    Dr. Fraser. Senator, that is the perfect analog. For the 
southern oceans and Antarctica, they are the ultimate ``canary 
in the coal mine,'' because--and I'm talking specifically about 
Adelie penguins, because of their strict and complete 
dependence on sea ice.
    The Chairman. Dr. Mote, I would appreciate a written 
statement from you about this issue of whether we had just been 
in a period of unusual wet period in our history or whether 
there--or this statement that you made, that there is this 
marked difference in this period that we're in now.
    Dr. Mote. I'll submit that.
    The Chairman. I don't know of an issue that's gotten more 
attention in the West, and particularly in my state, as well as 
California, about--et cetera--on the issue of water, as we see 
our magnificent Lake Powell now well below 50 percent of 
capacity, and apparently no end in sight here, which can have 
dramatic effects. As we lower the depth of the lake, there are 
certain toxic materials down there that--if that starts flowing 
downstream, it can have also interesting impacts. There's so 
many ramifications of this that they're hard to encompass.
    I'd like to ask the witnesses, beginning with Dr. Epstein, 
what actions should be taken by the United States to address 
the impacts of climate change? And maybe you don't have to give 
me all of those actions, but maybe you could give me, in 
priority, What actions do you think--policy changes and 
actions--should be taken by the United States of America? 
Beginning with Dr. Epstein.
    Dr. Epstein. I thank you for the opportunity for that. Can 
I respond to the coral question?
    The Chairman. Yes, sir.
    Dr. Epstein. Because we are seeing this issue of bleaching 
when the oceans go over a certain temperature, 29 degrees 
Centigrade, bleaching, but we're also seeing diseases of coral 
reefs, and they seize upon these bleached coral that are 
lacking their defenses. And so that the combination of warming 
and diseases now is playing havoc with our habitat--and, as you 
say, our oldest food chain habitat.
    Climate is changing. Every weather event has to be 
interpreted in that light. That is another--that is a statement 
you don't hear, usually. But that is the way we have to look at 
the dynamics of all of these surprises, like the heat waves and 
droughts now evolving, the heat waves in Europe in the summer 
in 2003, what can be done about all this.
    Our inner cities can be protected. This ``heat island'' 
effect, CO<INF>2</INF> dome, this stuff that's in there that's 
all about fossil-fuel emissions, can be controlled if we have 
roof gardens, if we have more trees. You have parks here. We 
need more of these parks. We need better transport. These 
things can protect the inner cities; as well, make them less 
vulnerable to this intensified effect.
    But we do need a new energy policy, and from a public--if I 
take off my clinician hat, put on my public health hat--we have 
to look at the upstream primary prevention. This is about our 
energy policies, which are also about security. But this is 
about clean energy driving this, I would suggest, not only with 
new regulations and rules and caps, but with the proper 
incentives. That's how we bring up our children. That's how 
we're going to have to move this economy, I believe. This is 
the way we can provide the carrots and sticks that help this 
become a win-win solution between energy, environment, and the 
economy. This is our triple-E problem we've got to solve. 
That's our problem: as a public sector, how to enable the 
private sector through the proper incentives to make this 
transition.
    The Chairman. Dr. Curry?
    Dr. Epstein. Thank you.
    Dr. Curry. Well, first of all, the rising CO<INF>2</INF> is 
the added stress on the system, so the rate of growth has to be 
decreased, and eventually the amount of CO<INF>2</INF> in the 
atmosphere has to be brought down.
    For the oceans--well, let me address this. The biggest 
weaknesses in our predictions of future climate are not whether 
or not the Earth will warm, on average; it's going to warm. And 
the problems with the way we talk about it is that nobody lives 
in an average climate. Some places will warm more than others. 
Some will get wetter. Others will get drier. The West might get 
a lot drier.
    The predictability of climate, on the regional scale, given 
the perturbation of rising CO<INF>2</INF> in the atmosphere, is 
one of the biggest weaknesses we have right now, knowing what 
places will get drier, and how much drier, and what places will 
get wetter, what will get warmer, and what ones that won't get 
so warm.
    Now, in order to do that, there are improvements that need 
to be made in understanding of how the ocean circulates, and 
how the ocean and the atmosphere are coupled together to create 
the climate systems that we experience. Both of those parts of 
the climate system--the ocean and the atmosphere--are partners 
in this, and they work together. And, in fact, you know, the 
atmosphere on certain longer time scales is driven by the 
surface conditions on the ocean. How warm it is in the Western 
Pacific affects how much rainfall you get in Arizona.
    So I would say that, in terms of a research for better 
predictability and better understanding of how to mitigate the 
affects of global warming, we need to understand and do a 
better job with regional predictions in our global models. And 
there are aspects of ocean research that can make strides in 
that direction.
    Thank you.
    The Chairman. Dr. Mote?
    Dr. Mote. There are two aspects of your question that I 
think really need to be addressed. The first is mitigation, 
reducing greenhouse gas emissions. And there are a number of 
examples around the world. BP and the UK have both reduced net 
greenhouse gas emissions over the last five to 10 years, at no 
apparent economic harm. I'm not an economist or a policymaker, 
but, as an interested observer, it seems to me that these 
examples show that greenhouse gas reductions can be 
accomplished while still providing a growing economy.
    The area that's really more my bailiwick is the issue of 
adaptation. That is, learning to live with climate change. It's 
pretty clear that carbon dioxide is continuing to rise, and 
will continue to rise for some time, until ultimate 
stabilization. And we are already seeing, as I described, 
effect on our water resources.
    Clearly, every Federal and state agency that manages water 
resources, whether it's the Bureau of Reclamation, the U.S. 
Army Corps of Engineers, and so on, need to take account of 
these changes that have already occurred, and will occur over 
the next 20 to 40 years.
    For example, the U.S. Army Corps of Engineers, which, in 
the Columbia Basin and the Colorado, has to manage for flood 
control, needs to change these flood control rule-curves to 
reflect the fact that the peak flow is coming earlier. It's no 
longer appropriate to aim for a July 1 refill date for the 
reservoirs in the Columbia, for example. When dams come up for 
relicensing through the Federal Energy Regulatory Commission, 
FERC, these estimates of how much flow can be provided for 
various uses in the next 20 to 40 years clearly have to take 
account of climate change.
    I could go on and on, but you get the picture, that there 
are many things that should be done now to recognize what 
science is pointing out about the way that our water resources 
and snow resources are changing in response to warming climate.
    The Chairman. Thank you.
    Dr. Fraser?
    Dr. Fraser. Senator, I'd like to reference your earlier 
question with respect to whether anyone disputes my 
observations. And I think the answer is that the observations 
are not disputed, but the mechanistic process that explain the 
trends is disputed.
    The issue is that climate change operates by impinging on 
ecosystem thresholds. These thresholds are already being 
altered by human activity, such as massive deforestation or 
over-fishing. And so we are really looking at cumulative 
converging impacts on Earth's systems. And it is these impacts, 
human activity and environmental variability--when the two 
converge, these are what historically has led to rapid negative 
changes to the earth's systems.
    What I see as one of the key issues here is that we simply 
do not have enough baseline data to be able to say, ``Is this 
an unusual trend? Is this a unique trend, or is this something 
the planet has seen in the past?''
    So what I would encourage, coming from strictly a research 
standpoint, is that data bases be mined for information that 
will at least allow us to gauge whether these trends are unique 
or not. Because as soon as we can identify those parameters, we 
can probably better address mitigation procedures.
    The Chairman. Do you agree with Dr. Curry, that these 
significant changes are taking place in the ocean?
    Dr. Fraser. Yes. We see--we don't see those changes in our 
region of operation, on the Western Antarctic Peninsula. The 
reason we don't see them is that we do not have the baseline 
data that I just mentioned. But, for example, in the southern 
Ross Sea, a region about 1,600 miles south of where we work, 
there is absolute evidence that the ocean is becoming fresher, 
and it's also warming.
    The Chairman. Well, I guess my question--how much research 
data do we need? How long is it before the naked eye indicates 
that we'd better act?
    Dr. Fraser. I think what I'm getting at, Senator, is that 
before we can act on issues, we need to understand the 
mechanisms by which they are occurring. So that's what I mean 
by there being a need to--the better informed we are, from a 
long-term perspective, the better that we can target the 
mechanisms that may be involved in producing essentially 
ecosystem chaos through climate change.
    The Chairman. Mr. Colburn?
    Mr. Colburn. Thank you, Senator. If I could just comment on 
the last reflection, I would caution about mechanisms. You'll 
recall that, in 1964, the Surgeon General issued a caution 
about smoking, and the mechanisms weren't understood, 
toxicologically, until 1997. The mechanisms I think my 
colleague is talking about is the 1964 epidemiological type of 
mechanisms in pursuit of the toxicological mechanisms. More 
knowledge is surely good, but enough knowledge, at some point, 
is enough to act on.
    Senator, I would offer two major veins of thoughts in 
response to your question. One is in terms of understanding, 
and one is in terms of action.
    In terms of understanding, I'll recollect that, in December 
1992, a multi-agency convocation was held, assembling the 
world's best climate scientists to helped develop the Federal 
Climate Change Strategic Plan. What I heard at that convocation 
was regional climate modeling, over and over again, as fine 
detail as we could get it to help understand what will happen 
in our specific regions, because they differ around, not only 
the globe, but around our country. A good example of that is 
that the EU is undertaking such efforts. The UK is undertaking 
such efforts. Even the province of Quebec is undertaking such 
efforts--in part, so that they can understand the world that 
they will be entering, and tune their economies toward it.
    In our case, in the Northeast, in Senator Snowe's state, 
for example, if the habitat of forest is going to change from 
maple, beech, and birch, in our foliage season, to oak and 
hickory, perhaps our paper industry should start changing to a 
furniture industry. This kind of level of understanding and 
detail is available; however, it hasn't been made available to 
the states, and hasn't been a priority.
    In the resulting Climate Change Strategic Plan, if you look 
at it, regional climate modeling is in there, but it's not in 
the executive summary, it's not in the goals and objectives; 
it's buried in there as a sub-header.
    Senator, in terms of action, it's basically, ``It's the 
fossil, dummy.'' That might be our--I guess the line was, 
``It's the fossil fuel, stupid,'' to copy it more precisely. 
And that, of course, is oil and coal.
    Governor Schwarzenegger, in California, has an effort 
underway to see if his state can reduce, by 15 percent, his 
dependence on petroleum fuels by 2020. Two weeks ago, Governor 
Pataki, in New York, suggested that the Nation needed an effort 
on the scale of the Manhattan Project or the lunar landing to 
wean our nation off imported oil. I think those types of 
efforts would go a long way, and, basically, are necessary.
    In terms of coal, that's the other chief culprit. And what 
we need there, of course, is the kind of capital stock turnover 
in our generation industry that Congress anticipated when it 
passed the Clean Air Act amendments of 1977 and its New Source 
Review provisions. They have not come to pass, and the 
technology is increasingly available to have that opportunity 
that you described of cleaning up our air. Specifically, by 
stripping the solids out of coal, we can continue to use coal--
it's a process called integrated gasification--then run through 
a combined cycle power plant. The additional benefit is that 
stripping the CO<INF>2</INF> out of that stream is among the 
most readily available CO<INF>2</INF> capture technologies that 
we're aware of. That technology should be mandatory for moving 
ahead.
    There is an energy penalty associated with it. Currently, 
we're paying a health penalty and a climate penalty, instead of 
an energy penalty. I'd suggest to you that we need to pay the 
energy penalty.
    Further, that technology is going to be developed. China is 
very interested in it. The question is, who will own the 
patents? Who will export that technology? And I would suggest 
it should be us.
    Senator, R&D is not the mother of invention. Commercial 
availability is not the mother of invention. Necessity is the 
mother of invention. We need to make these technologies, these 
clean technologies, necessities.
    The Chairman. Thank you.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman. I thank our 
friends at the witnesses table for that illuminating data.
    The thing that concerns me is that, as I look at the depth 
of the problem, I fail to see that the alarm has gone out. And 
you're in the watchtowers in many places, in some of the most 
beautiful places in the world, whether you've spent time in 
Antarctica and down to the South Pole, or whether it's in the 
Arctic or Woods Hole or Montana, all these places that 
immediately connote environment and nature at its best. Then we 
find out that we see nature at its worst, in many instances.
    And I've lived long enough to have some memories of 
different climates in the state of New Jersey, when we used to 
have a lot more snow, and now we hardly see it, and, when we 
do, it's rather severe, a lot of ice and gone in a hurry.
    And when I look at the data that you've provided, I see 
something different. I see the faces of ten wonderful children 
that I'm privileged to have as grandchildren. The oldest is 
ten, the youngest is 3 months. And I wonder what kind of a 
world they're going to live in. We have been a family fortunate 
enough to be able to go to the mountains and go to the sea, and 
we do it regularly. And we've watched the whales touch our boat 
off the coast of Cape Cod, and I've been to Antarctica and 
listened as the glaciers groaned. It was almost a death knell 
that you could hear, because they were straining to stay 
together. And the family of ice was being separated into lots 
of little parts. And I've watched the penguins, with 
admiration, at their industriousness in their capacity to walk 
long distances until they get to an opening in the ice to be 
able to provide--to gather sustenance for their young.
    And as you talk about these things, each one of you has a 
rather ominous message, but we're not getting it through to the 
public. Because if the public understood the seriousness and 
the imminence of this better, then folks like our distinguished 
Chairman, who are concerned about it, who will talk about it, 
would be able to gather even more than the 43 votes that you 
gathered, Mr. Chairman, in the last vote that we had. I think 
people would be rushing to register their opinion.
    If there's no other way to sound the alarm, one need only 
look at the Pentagon report. And I don't know why more hasn't 
been made of this, because when we talk--when our universe is 
deluged with information about security, and we see what the 
Pentagon report--have all of you looked at this report? Is 
there a question about its reliability or----
    Dr. Curry: Senator, it's not a prediction, as far as I can 
tell. It appears to be a thought process of--like a worst-case 
scenario. There's no prediction at all like that in----
    Senator Lautenberg. Well, but when they talk about, ``The 
borders will be strengthened around the country to hold back 
[inaudible] starving immigrants from Caribbean islands--Mexico, 
South America--energy supply will be shored up--too expensive--
alternative nuclear renewables--hydrogen--Middle East 
contracts.''
    We, the United States--not to make--trivialize such serious 
discussion, but we're apparently the major exporter of carbon 
dioxide. We always look to the countries that export minerals 
or fuel or oil or what have you, but now we have the dubious 
distinction of being the largest exporter of carbon dioxide. 
Four percent of the population, 25 percent of the carbon 
dioxide, and yet we haven't reached the point at which people 
understand it. It's a little bit of a mystery--a lot of a 
mystery, because it doesn't affect people on the short term.
    I see it--lots of kids that I meet, who are asthmatic. I've 
got two children, of my ten grandchildren, who have asthma. 
Their parents are pretty healthy people, but yet we see these 
things--intense allergies, things of that nature--that result 
from the changes that we're witnessing.
    And I never quite understood, after my trip to the South 
Pole, how it got to be the repository for 70 percent of the 
world's fresh water, which was, in the vernacular, down there. 
But as we've gotten into this, I've begun to understand that 
the lift up into the atmosphere takes the fresh water, and it's 
built up as a result of the reduction in salinity, which, I 
guess, bottoms it out.
    And I wonder how quickly we can turn this around. The 
notion of the carrot and the stick is one that's common 
throughout this place, and very often it's used to challenge 
the logic of simple decisions. We don't want to be punitive. 
But the punishment that comes from this is going to be more in 
the future generations.
    This report says--the Pentagon report says that, in the 
year 2007, the Netherlands can expect severe and disruptive 
flooding. They talk about countries that can be deluged by 
rising sea levels. And we've already seen it, but the effects 
are not quite as clear. I know that New Jersey, my beloved home 
state, has always had these generous beaches. Well, now we have 
to work like the devil to replenish the sand that's being taken 
away. It's not a coincidence; it's a constant.
    So whether--how important is it that we, for instance, join 
in the Kyoto treaty? Does it matter at this juncture, in your 
judgment?
    Dr. Epstein. Thank you. And this is a fabulous discussion.
    Clearly, that's a toe in the door, but it's a door that has 
to be opened. And I applaud Senator Snowe's involvement in this 
international effort.
    A couple of comments on where you've been going. We're 
looking--I believe that reality is going to ratchet up this 
debate, because what we're asking about is, when do we reach 
the tipping point, not only in the reality, but the awareness 
about it? And hopefully the latter will accelerate as we see 
changes and the kinds of surprises that we're beginning to see 
in physical and biological systems. And we're talking about 
parts of Greenland that are melting down to the base, through 
the crevasses, that could slip. Hopefully, this will wake us, 
and not swamp us.
    The Pentagon scenario is one of three major scenarios. And 
I applaud what you've ended up with, these predictions about 
the Netherlands. And buried in that scenario is the reality 
that's evolving now of this warming and greater volatility.
    We have to ask ourselves, is this climate more stable, 
more--is it stable or unstable? What are the characteristics 
that could lead to these abrupt changes? The rate of change is 
increasing. It may not be a threshold of CO<INF>2</INF>; it 
maybe a derivative, the rate at which we could go up. The 
volatility is increasing, and the gradients across the ocean 
are increasing.
    The North Atlantic is one scenario. Thawing tundra and 
release of methane is another. A third is the Antarctic 
Peninsula, which has now lost some of its ice shelves, which, 
like the dunes on Cape Cod and elsewhere, when you take the 
beach sand away, you get the dunes flowing down. We're afraid 
now that there's an acceleration of the ice sheets on land. 
That's what could change sea levels, et cetera. So we see 
unstable conditions in the North Pole, South Pole, and now in 
the tundra regions.
    I want to just touch on one other indicator that we haven't 
really stressed--the economic. Because the extreme weather 
events have cost the insurance industry--FEMA quadrupled in the 
1990s. We're looking at $4 billion in the 1980s, average a 
year; $40 billion in the 1990s; it went up to $55 billion 
losses in 2002, $60 billion in 2003, and a quarter of that is 
insured. The United Nations Environmental Program, along with 
several consultants--Munich Reinsurance, Swiss Reinsurance 
Company--have now--estimating $150 billion losses per year 
within this decade if the current trends continue. So I think 
you're going to hear much more from Swiss Reinsurance and other 
reinsurers as to whether they can reinsure and insure our 
future.
    Finally, if we're looking at these costs, we have to look--
these big problems must incite bold solutions, and we've got 
to, as our international efforts, look at how funds can be put 
together that create new markets for Honduras and Mozambique 
for our projects, for our solar panels that create--stimulate 
their economies. We've got to trade, beyond Kyoto, in air and 
carbon; we've got to trade products that are efficient, that 
are alternative, that change markets. We've got to create the 
conditions and enabling architecture that allows companies to 
move lockstep into this new clean energy transition.
    The Chairman. Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman. And I want to thank 
all of you again for your sobering testimony here this morning.
    I know the Chairman asked you all exactly what could we do 
with respect to enacting Federal policies here, but what can we 
do to maximize the change, sooner rather than later? I mean, 
anything, any implementation of Federal policy is going take 
some time to trigger and to have an effect of any kind on these 
warming trends and climate changes, and particularly those that 
are abrupt. I mean, what can we do? I mean, we invest in 
research. Should we do a lot more in that regard? Or do you 
think we have sufficient, you know, information and data that 
we can proceed with specific initiatives that can make all the 
difference in beginning to turn the clock back on some of these 
issues?
    Dr. Epstein?
    Dr. Epstein. I'll start, and be very brief. I agree, we are 
at a point where we can make decisions. Tax incentives, 
subsidies--we're subsidizing coal and oil in this country right 
now, to the tune of tens of billions; $20 billion, just for 
starters. If we talk about protecting the oil lines across the 
globe, it's another hundred. We're talking about subsidies that 
could be switched, and this is, internally, the way in which we 
could begin this process.
    Globally, again, we're going to need to figure out, 
collectively, how we provide the international incentives to 
drive this. But there's a lot that we can do internally.
    Senator Snowe. Dr. Curry?
    Dr. Curry. In two parts. The first part is about the rising 
CO<INF>2</INF> emissions and the concentration in the 
atmosphere. You should do everything you can to reduce the rate 
of growth of that CO<INF>2</INF>, stabilize it, and help to 
reduce it at some point in the future, because the rate at 
which that changes in the future will affect the likelihood of 
abrupt climate events, will affect the magnitude of the changes 
that you experience in the future.
    Senator Snowe. And so mandatory reductions in emissions, 
for example, or, like the Chairman's legislation, a cap-and-
trade system?
    Dr. Curry. I'm not sure that I can choose, you know, 
intelligently between those two, but something that----
    Senator Snowe. But the idea is that----
    Dr. Curry. But the idea is to bring it down. Bring down 
CO<INF>2</INF> growth rates, bring down the level in the 
atmosphere. That's the one part.
    The other part is that there still are research elements, 
in terms of our predictability of what next decade will be 
like, what 2050 will be like, and what 2100 will be like. And 
that is not about whether or not the earth will be warmer; it's 
how much warmer where, how much wetter where, how much drier 
where. And there are things that the Congress could do to help 
improve that. There are aspects of it that involve basic 
scientific problems in ocean sciences and atmospheric sciences. 
There's the development of larger-scale observation system, so 
that you can actually see what's going on in the very remote 
place on earth, particularly in many spots in the ocean, and 
then working to improve the model, numerical simulations, of 
those processes, so that you could actually make a credible 
guess as to whether or not it will be wetter or drier out West.
    Senator Snowe. We have a Gulf of Maine observation system, 
and we hope to apply that nationally, and that's something I've 
been urging Admiral Lautenbacher to endorse. I think he 
certainly does support a national system. And it's actually 
proposed by the U.S. Commission on Ocean Policy, as well. And I 
think, you know, it's obviously going to require some 
investments, but I think that really that would be a major 
milestone.
    Dr. Curry. There's a global aspect of it that you shouldn't 
overlook, though--working with other nations, as well, to make 
sure that the entire globe is being measured, because, as I 
said earlier, the temperatures in the Pacific can determine how 
much rainfall you get out West.
    Senator Snowe. And all oceans are warming. Is that----
    Dr. Curry. All the oceans in the tropical locations appear 
to be warming, yes. Most high latitude locations, as well.
    Dr. Epstein.--that's four miles each--all the oceans. 
That's the work of NOAA,----
    Dr. Curry. Yes.
    Senator Snowe. OK.
    Dr. Epstein.--and the Department of Commerce,----
    Dr. Curry. Yup.
    Dr. Epstein.--where of the heat from essentially global 
warming over past century.
    Senator Snowe. That's amazing.
    Dr. Epstein. Yes.
    Senator Snowe. Thank you.
    Dr. Mote?
    Dr. Mote. You asked what can be done, sort of, immediately, 
and we know that different greenhouse gases have different 
lifetimes in the atmosphere; and methane, in particular, has a 
much shorter lifetime than carbon dioxide. So immediate 
reductions in methane will have a more immediate effect. 
Clearly, over the long term we will have to address 
CO<INF>2</INF> in a major way, because it's responsible for 
most of the greenhouse effect. But if we additionally tackle 
black carbon soot, which causes human health problems, as Dr. 
Epstein was saying, we get a ``two-fer,'' in that we're 
attacking the climate problem, but also a local air quality 
problem. There are a lot of other, sort of, intermediate steps 
that we can take on the way to stopping the freight train that 
is CO<INF>2</INF> emissions.
    If I could say just something about--in response to Senator 
Lautenberg's question about the Kyoto Protocol, as I understand 
that policy instrument, it is primarily a weight loss goal. It 
is a group of nations getting together and agreeing on a weight 
loss goal. But you cannot meet any goals without specific 
actions. And whether or not we signed and ratified the Kyoto 
Protocol, it would still be left to Congress and states and 
companies to find ways to meet that goal, whatever it is. And 
so if the Climate Stewardship Act passes, and it's successful, 
it almost wouldn't matter--again, as a nonpolicy expert, but it 
seems to me that having an actual action is more important than 
having a goal and not meeting it.
    Senator Snowe. Dr. Fraser?
    Dr. Fraser. As an ecologist, I continue to consider what it 
is that we can do for ecosystems that are basically facing a 
bottleneck if climate change is allowed to continue. And I 
agree with the comments of my colleagues, but I also think that 
some of the things we can do immediately--for example, in the 
case of the oceans' fish stocks, there's no question that most 
of them are being over-fished, and they're collapsing.
    The Chairman. We had testimony from the Oceans Commission, 
week before last, on that very issue. Their conclusions were, 
indeed, disturbing.
    Dr. Fraser. Thank you, Senator.
    And so over the immediate future, the question, for me, is, 
How can policy and management converge to at least preserve the 
biodiversity that was at one time inherent in these systems? 
How can we affect policy that will prevent over-fishing? What 
policy will affect deforestation on a global scale? Those 
things, we can implement immediately.
    The comment that we have a freight train heading toward us, 
I think, is absolutely correct. And we need to basically 
prevent ecosystems from going over the threshold. And I think 
management is perhaps one of the best options.
    Senator Snowe. Mr. Colburn?
    Mr. Colburn. Thank you, Senator.
    This is literally a sooner rather than later problem. The 
quicker we can get started, the less problem that we'll have to 
deal with ultimately. And as you know, the old saying about, 
``There's never time to do it right, but always time to do it 
over,'' may have a parallel here that we all always rush in 
with FEMA or whatever to pay for destruction, but we are 
reluctant to avoid that destruction in the first place.
    There are a couple of substantial things that can be done. 
A few, I mentioned already. The carrot of requiring IGCC and 
subsidizing that coal technology would be very effective. The 
stick of emissions controls, and the co-benefits that Dr. 
Epstein and Dr. Mote mentioned, in terms of human health 
effects from sulphur and mercury and so forth, could also be 
done reasonably quickly. Almost immediately, Congress could 
bring some stability to the wind energy tax credit, so that 
that industry doesn't feel like a ping pong ball and could 
similarly retain, for the long term, a hybrid vehicle tax 
credit that currently exists.
    Ultimately, of course, I hope that you'll all be encouraged 
to bring back S. 139, or something like it, over and over again 
until it succeeds, because this has to be dealt with.
    Senator Snowe. Yes.
    The Chairman. You can count on that.
    Senator Snowe. I appreciate it. As you mentioned the 
stellar performance on the part of states, compared to the 
lackluster federal response, frankly, other than what Chairman 
McCain has been doing to advance his legislation--I think that 
there are still a number of people who simply don't get it. I 
mean, they ought to be doing a catalog and a tally of the costs 
of this and the implications of this climate change and what it 
is doing to our health--Dr. Epstein you cataloged that in very 
compelling terms. In my state, we have the highest rate of 
asthma per capita. We're victimized by the transported polluted 
wind from the industrial states. And so that's having enormous 
health implications. And then the economic implications, the 
environmental--and it goes down the list. We ought to have a 
catalog in every direction. People need to understand how 
perilous this problem is to our futures and to the future of 
the world. And so this isn't just going to happen sometime down 
the road. It is happening, and it's in our backyard, Dr. 
Epstein, as you said.
    And so I hopefully--that we can give a sense or urgency to 
this issue, rather than--as I look at the budget, even, on some 
of these issues--and I mentioned this to Admiral Lautenbacher 
the other day in the hearing--you know, with zeroing out, you 
know, different programs for paleoclimate, you know, research, 
for example, the oceans consortiums, research. I mean, this is 
not the direction we ought to be taking. The fact is, it's 
quite the opposite.
    Thank you, Mr. Chairman.
    The Chairman. Admiral Lautenbacher, I believe, is the one 
who testified before this Committee on climate change, he said 
we'd have to go to sleep for 30 years before we'd know anything 
about climate change. So it's not surprising that they would be 
cutting the budget for these very vital and important programs. 
It's disgraceful.
    I thank the witnesses. It has not been a very pleasant 
hearing. And I appreciate your candor, and I appreciate the 
expertise you bring here. And I'm very grateful.
    Mr. Colburn, I especially want to express my appreciation 
to the leadership of the Northeast, as we are also seeing in 
the West, to begin attempting to address these issues. We all 
know that it has to be done nationally, but perhaps we would be 
motivated to emulate some of your activities.
    I thank the witnesses. The hearing is adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]
                            A P P E N D I X

        The Washington Post--Sunday, September 7, 2003; Page B05

            ``Climate Change Is Really Bugging Our Forests''

                  By Paul R. Epstein and Gary M. Tabor

    As lightning continues to ignite wildfires across the parched North 
American West, an unseen armada of beetles, encouraged by warming, 
burrows beneath the bark of drought-weakened trees, killing vast stands 
rapidly and transforming them into kindling. Together, climatic 
extremes and the pests they foster are stalking our Nation's forests, 
threatening habitat, wildlife and even human health.
    President Bush has proposed a Healthy Forests Initiative to combat 
the danger of wildfires. But no effort at restoring the soundness of 
our forests can succeed in the face of global warming and the 
accompanying intensification of weather extremes, which encourage the 
infestations and conflagrations, unless it includes a clean energy 
policy aimed at stabilizing the climate.
    In July, the U.N. World Meteorological Organization affirmed that 
warming of the atmosphere and deep oceans is intensifying droughts, 
along with heat waves and floods, worldwide. The prolonged droughts in 
the U.S. West are part of this phenomenon and are directly attributable 
to anomalous sea surface temperatures in the Pacific Ocean.
    As the earth's surfaces warm, evaporation is drying out forests and 
soils, increasing susceptibility to fire. Last summer, more than 7.3 
million acres of U.S. forests burned during an intense drought. This 
year, there have been more than 800 separate fires in British Columbia; 
Oregon has seen fires lay waste to pristine areas; and wildfires have 
sent haze billowing from Arizona to Montana. Most alarmingly, as an 
intergovernmental panel concluded in 2001, earth's biological systems 
are already responding to climate change. The current epidemic of bark 
beetles adds a new dimension to the risk of fires. In just the past few 
years, bark beetles have damaged forests in Arizona, New Mexico, 
southern California, Wyoming, Montana, Idaho, Washington, Oregon, 
Alaska and British Columbia. In British Columbia, nearly 22 million 
acres of lodgepole pine have become infested--enough timber to supply 
the entire U.S. housing market for two years.
    Mountain bark beetles (Dendroctonus ponderosae) attack lodgepole, 
ponderosa, Douglass fir, sugar and western white pines, destroying them 
by injecting a fungus. The galleries of eggs they lay inside the bark 
pave the way for the trees' death within a year. Healthy trees secrete 
pitch to drown the invaders and plug the holes they bore, but drought 
dries out the pitch. Woodpeckers and nuthatches keep adult numbers in 
check, but with warmer winters, beetle populations can quadruple in a 
year, outpacing their pursuers. Warming is increasing the reproduction, 
abundance and geographic range of beetles, destabilizing the age-old, 
hard-won truce between insects and vegetation. Since 1994, mild winters 
in Wyoming have helped the beetle larvae survive the season. Usually, 
80 percent die, but the mortality rate has dropped to less than 10 
percent. In Alaska, spruce bark beetles are sneaking in an extra 
generation a year due to warming, and have denuded 4 million acres in 
the Kenai Peninsula in the past five years. ``This is another example 
of global climate change that has deadly implications for my state,'' 
declared Alaska's Republican Sen. Ted Stevens last year.
    Warming is also expanding the beetles' range into higher altitudes. 
In the past four or five years, they have begun to attack whitebark 
pines at an elevation of 8,000 feet or higher. Jesse Logan of the Utah 
Forest Service told the Billings (Mont.) Gazette last month that this 
development coincides with an overall warming trend that began in the 
1980s. ``Beetles are cold-blooded, so their metabolism is related to 
the environment they're in,'' said Logan, adding that the beetles seem 
to be a reliable indicator of global climate change. ``Taken all 
together, it becomes a pretty compelling story, and a scary story to 
me.''
    Wildfires are hazardous to people, wildlife and property. Beyond 
the immediate danger of the fire itself, particles and chemicals from 
blazes cause heart and lung disease, and the hazes can carry thousands 
of miles. Last summer's Hayman fire in Colorado left lingering 
respiratory illnesses, and after the 1998 fires in Florida, complaints 
of asthma increased by 91 percent, bronchitis by 132 percent and chest 
pain by 37 percent.
    Not all forest fires, of course, should be suppressed. Periodic 
fires help rejuvenate forests. But the drought-and beetle-driven 
wildfires today are not self-limiting, and the underlying causes must 
be addressed. Unfortunately, little can be done directly to control 
bark beetles. Pesticides, which enter ground water, are only somewhat 
effective and must be applied widely long before the beetles awaken in 
spring. The president proposes thinning forests to reduce the threat of 
fire. But the extensive logging and clear-cutting that would be allowed 
under the Bush administration's initiative is a practice that damages 
soils, increases sedimentation, reduces water-holding capacity and 
dries up rivers and streams--all increasing susceptibility to pests and 
fires.
    Even the best forest practices, however, will be insufficient to 
stem the ravages of drought and the onslaught of beetles. Forests 
plagued by wildfire and beetles need moisture.
    Just as we underestimated the rate at which the climate would 
change, we have underestimated the biological responses to warming and 
the costs associated with the accompanying weather extremes. Climate 
change is weakening the hosts and emboldening the pests. If we are 
serious about protecting the world's forests, we must embark upon a 
comprehensive program to stabilize the climate by burning far less 
fossil fuel, adopting energy efficiencies and smart technology, and 
felling far fewer trees, which absorb heat-trapping carbon dioxide. And 
the sooner we do it, the better.
---------------------------------------------------------------------------
    Paul Epstein is associate director of the Center for Health and the 
Global Environment at Harvard Medical School. Gary Tabor is head of the 
Wilburforce Foundation's Yellowstone to Yukon Program.
---------------------------------------------------------------------------
 2003 The Washington Post Company
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Kenneth A. Colburn
    Question 1. In your written statement you point out that the 
governor of Rhode Island has announced that his state would adopt 
California's cleaner vehicle requirements. You also mention that the 
Northeast States for Coordinated Air Use Management are working to 
develop a registry system that would be compatible with the California 
registry system. Do you believe other Northeast states will begin to 
adopt California's clean air policies?
    Answer. Under the Federal Clean Air Act, states other than 
California are preempted from regulating certain sources of air 
pollution such as vehicle emissions and fuel constituents. These states 
may choose to adopt Federal standards or California's standards for 
controlling such sources. Where states have specific air pollution 
concerns and California has adopted pollution controls more stringent 
than Federal requirements, states have often opted to adopt pollution 
control requirements consistent with California's policies.
    This structure has now existed for decades, and states including 
the Northeast states have adopted many of California's programs, 
including those associated with vehicle emission standards, so the 
states are already well on their way to adopting California's clean air 
policies. Using the example cited above, for instance, Rhode Island 
joins Connecticut and New Jersey as states adopting California's 
cleaner vehicle requirements in 2004. These three states join Maine, 
Massachusetts, New York, and Vermont, which have had similar 
requirements in place for several years. Since seven of the eight 
Northeast states, have now adopted California's cleaner vehicle 
requirements, this trend is nearly complete rather than just beginning.
    As the market for cleaner California cars expands and concerns 
about air pollution increase, it is likely that additional states -both 
within and outside of the Northeast-will also consider adopting 
California's clean vehicle standards.

    Question 1a. Do you believe that the Federal Government should act 
to adopt tougher clean air standards?
    Answer. Yes, both for environmental reasons and economic 
competitiveness reasons. Light duty vehicle manufacturers have achieved 
extraordinary progress in reducing emissions from automobiles. However, 
greater numbers of vehicles and longer driving distances have caused 
vehicular emissions to remain a major health concern. Moreover, further 
progress is eminently achievable.
    Manufacturers that push the envelope in developing and introducing 
cleaner car technologies will ultimately enjoy a long term competitive 
advantage in the global marketplace. If U.S. manufacturers are required 
by Federal regulation to develop and introduce such technologies, their 
long term future -and the U.S. jobs associated with them-will be more 
secure.

    Question 2. What has been the reaction of industry to the climate 
change policies that are being implemented on a state by state basis?
    Answer. Reaction has been mixed with respect to specific policies 
applicable to specific industries in specific states, but on the whole 
it has been remarkably positive. In many cases, in fact, industry 
support has been essential to the successful adoption of state climate 
change policies. In the case of New Hampshire's greenhouse gas registry 
legislation, the support of the state's business community enabled its 
passage. Passage of this state's ``4-P'' power plant legislation 
(covering emissions of sulfur dioxide, nitrogen oxides, mercury, and 
carbon dioxide) would have been impossible without the active support 
of the affected utility. California's greenhouse gas registry 
legislation was conceived, initiated, and executed by that state's 
business community. Climate legislation has been adopted in Connecticut 
and Maine with little opposition from industry. The most aggressive 
action contemplated to date, the Regional Greenhouse Gas Initiative (a 
power sector carbon dioxide cap and trade system being developed by 
nine Northeast states), has thus far been met with cautious support by 
industry stakeholders.
    Generally speaking, the industrial community appears to recognize 
that the time has come for concerted action to address climate change. 
This is not surprising given that most of today's companies operate 
internationally and are likely to be subject to greenhouse gas (GHG) 
control requirements in other nations. There is little doubt that 
industry would prefer a coherent national program over potentially 
differing programs in multiple states or regions, but the business 
community evidently regards the risks associated with inaction as 
greater than the risks inherent in fragmented implementation.

    Question 3. Your written statement notes that states are acting to 
correct the effect of climate change based on a strong scientific 
consensus that increasing concentrations of atmospheric greenhouse 
gases are largely the result of human activity. Is the scientific data 
that states are considering any different from the data that we have at 
the Federal level?
    Answer. No. The states' scientific data is publicly-available, 
peer-reviewed information from the world's foremost academic and 
research institutions and such entities as the International Panel on 
Climate Change (IPCC).

    Question 3a. If the data being considered is the same, what do you 
believe needs to be done to get better action at the Federal level to 
address the growing problems associated with climate change?
    Answer. Federal action must originate with Congress or the 
Administration, and can take either of two paths (or both). One 
approach would be to cease the prevailing denial regarding the causes 
and impacts of climate change and search for solutions rather than 
excuses for inaction (e.g., scientific uncertainty). Climate science, 
like any scientific or economic endeavor, has attendant uncertainties. 
But such uncertainties do not exceed those inherent in economic 
forecasts used to project Federal deficit and debt levels nor constrain 
either our ability or need to reach other key policy decisions (like 
federal budgets).
    A second approach would be to recognize the cost saving, 
technological development, and global competitiveness opportunities 
associated with constructive climate action. With the current 
environment in Washington hostile to climate change action, companies 
are reluctant to broadcast their achievements, but those acting on 
climate change are, in fact, saving substantial sums and enjoying 
enhanced global competitiveness.
    Congress and the Administration need to recall how capable 
America's ability to lead really is. We have a long record of 
technological achievement, much (perhaps most) of it mandated (e.g., by 
war in the case of the Manhattan Project; by Presidential commitment in 
the case of the moon landing; and by environmental regulation in the 
case of cleaner vehicles, fuels, and factories). Columnist Tom 
Friedman, in fact, has suggested that we initiate a ``Manhattan 
Project'' for national energy independence, and one can only imagine 
(1) the economic benefits of keeping our current energy dollars at home 
instead of sending them to the Middle East (particularly as China 
begins to meaningfully compete for the same resources), and (2) the 
national security and defense benefits of doing so.
    The combination of the costly, harmful climate impacts likely to 
result from inaction and the economic opportunities likely to result 
from concerted action are, in short, what underlie states' willingness 
to adopt policies to address climate change. America's greatness 
derived from generations of individuals who accepted difficult 
challenges in order to build a better future for their children and 
grandchildren. In their current focus on the short term, Congress and 
the Administration has departed from this fundamental precept, putting 
America's continued greatness-and its citizens' well being-at risk.

    Question 4. The Administration has indicated that we are spending 
more than $4 billion per year on climate change. Do you believe that is 
an adequate level of funding to halt the impact of man-made climate 
change? Do states agree with the Administration on the level of Federal 
spending?
    Answer. To my knowledge, the states have taken no specific position 
on the adequacy of Federal spending on climate change. Given the 
magnitude of the task, however, there is little doubt that the current 
level of funding is insufficient. One might subdivide the climate issue 
into three levels of attention: researching, addressing, and solving. 
Federal support for climate research is substantial and laudable, as 
the U.S. government's efforts targeting technology development. U.S. 
efforts to address climate change, however, are relatively weak. 
Research is not an adequate response to a threat already underway, 
action is required. Similarly, technology development is a necessary, 
but not sufficient, condition for technological penetration in the 
marketplace.
    Unlike research, the task of dramatically increasing energy 
efficiency and renewable energy penetration is not well funded, and 
will require substantially greater Federal expenditures and/or the 
imposition of regulatory requirements to accomplish. The comparison to 
the Manhattan Project above is appropriate not only relative the scope 
of the threat of climate change, but the magnitude of the effort and 
expenditure necessary to address it.
    In terms of actually halting the impacts of anthropogenically 
induced climate change, we may be already too late. Climate systems can 
take hundreds to thousands of years to reach equilibrium, so we may not 
be able to judge success for generations. This fact suggests that we 
need to focus not only on mitigating greenhouse gas emissions, but also 
on adapting to an altered climate. This area is too substantially 
underfunded, with little Federal effort currently underway to identify 
and share regionally specific climate impacts and to plan and implement 
adaptive responses to such impacts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                       Paul Epstein, M.D., M.P.H.
    Question 1. You note in your written statement that we have the 
ability to control mosquitoes in the rural areas of the country, but 
not in the urban areas. How urgent is it that we address this problem 
in light of the growing spread of the West Nile virus?
    Answer. This is an urgent issue, as West Nile Virus is just the 
first of such urban-related mosquito-borne diseases. Another called 
Usutu, left Africa recently and has decimated the crow population of 
Vienna.
    Furthermore, while these mosquito-borne diseases are bred in the 
city (in corner drains, catch basins, abandoned swimming pools and 
other containers), they spread to wildlife (WNV is in 230 species of 
animals; though not all get ill), and especially birds (138 species). 
The latter poses risks for species on the margin--endangered or 
threatened--with population declines or even extinctions, and threaten 
to affect biological diversity throughout the Americas. Horses have 
been greatly affected, with over 14,000 cases in 2002, 1/3 mortality; 
until equine vaccination was employed (in this country).
    The difficulties with mosquito control in the cities are the 
following:

  1.  Some insecticides are toxic to humans, birds, and friendly 
        insects (like spiders and dragon flies) that consume 
        mosquitoes.

  2.  Other insecticides, like the pyrethrins (synthesized from 
        chrysanthemums), are less toxic; but

  3.  All the insecticides are relatively ineffective in urban 
        settings, as they settle out and do not reach backyards where 
        mosquitoes can persist.

  4.  The best approach is to place larvicides in drains early in the 
        spring. This is especially important when droughts are 
        developing or persisting (as they are in the west), as the 
        foul, nutrient-rich water remaining in shallow pools during 
        droughts (here's the climate connection) breed the Culex 
        pipiens that bite birds and maintain high levels of virus 
        circulating.

  5.  Chemical larvicides, however, may be toxic (e.g., to lobsters 
        when they enter bays and estuaries). Methoprine works by 
        disrupting hormones.

  6.  Initial studies indicate that bacterial larvicides are equally 
        effective. Bacillus sphaericus is nontoxic (it is like Bacillus 
        Thuringiensis Israeliensis, or BTI, used for other mosquitoes 
        and gypsy moths. Bacillus sphaericus needs to be more widely 
        employed.

  7.  Finally, early warning systems of drought, with improved climate 
        and weather predictions can help facilitate timely, 
        environmentally friendly public health intentions.

    Question 2. Asthma and its associated illnesses cost the health 
care system about $18 billion per year. Can you tell us how much of 
this cost is associated with the treatment of asthma brought on by the 
increase in carbon dioxide levels?
    Answer. I'm afraid it is too early in the study of these expected 
impacts of CO<INF>2</INF> to assess the attributable fraction. But, 
given the 2\1/2\ fold rise in asthma since the 1980s, and no 
appreciable change in indoor pollutants (or, of course, genetic 
predisposition), one might speculate that well over half the costs are 
due to outdoor pollutants--diesel articles, photochemical smog 
compounded by heatwaves, and the increase in aeroallergens (pollen and 
mold). Note all these factors are related to the combustion of fossil 
fuels.

    Question 3. Based upon your previous research, you have concluded 
that the rise in malaria rates in Latin America, Central Africa, and 
Asia can be linked to climate change. However, your findings have been 
challenged by some who claim these increases are attributable to the 
influx of people from malarious lowlands, major man-made ecological 
disturbances, such as deforestation, and road and dam construction, 
which have opened up the areas to malaria transmitting insects. How do 
you respond to these challenges?
    Answer. Changes in the distribution of malaria are multifactoral. 
Local influences--deforestation, movement of population, 
susceptibility, drug resistance--all play a role. But the changes in 
altitude are attributable to climate change for the following reasons:

  1.  The pattern is global, involving mountain ranges in the Americas, 
        Africa, and Asia. It is a particularly severe problem for 
        populations living in the highlands of Africa.

  2.  Plant communities are migrating upward in the same areas, as well 
        as in the U.S. Sierra Nevada and the Swiss Alps, i.e., wherever 
        studies are ongoing.

  3.  Alpine glaciers are retreating at accelerating rates, in the very 
        same mountain ranges.

  4.  Finally, the freezing isotherm--the level at which the ground is 
        frozen all year round--has moved up 450 feet, equivalent to 2 
        +F warming, since 1970. This, by definition, means that the 
        conditions conducive to ongoing transmission of malaria has 
        shifted upwards in mountain ranges worldwide.

    Furthermore, the temperature must exceed a certain level (e.g., 16 
+C or 60.8 +F) to sustain transmission of Plasmodium falciparum, the 
most lethal type of malaria.

    Question 4. In your written statement you point out that unhealthy 
air mass with CO<INF>2</INF> levels in the 4, 5, and 6 hundreds [parts 
per billion] have been found in Phoenix. Can you elaborate on that 
finding?
    Answer. Idso et al. (2002) describe these findings, similar to 
findings in Baltimore, New York City, and Sydney, Australia. Idso et 
al. found daily maximum CO<INF>2 </INF>concentrations (at night) 
peaking at 490.6 parts per million (ppm) during the coldest part of the 
year (December-January) and 424.3 ppm just before sunrise during the 
warmest part of the year (July-August). Remarkably, the found a mean-
cold season maximum of 619.3 ppm, which is 67.4 percent greater than 
the rural background value.

  <bullet> Idso, S, B., C. D. Idso and R. C. Balling, Seasonal and 
        diurnal variations of near-surface atmospheric CO<INF>2</INF> 
        concentrations within residential sectors of the urban 
        CO<INF>2</INF> of Phoenix, AZ, USA, Atmospheric Environment, 
        v:36:2002, p1655-1660.

    Paper appended.

    Question 5. In your written statement you note that bark beetles, 
brought on by warming, are surviving through the winter and slipping 
into an extra generation each year. I assume this means there will be 
more beetles leading to more damaged and dead trees that will 
eventually lead to more forest fires. Can you elaborate on this 
connection and the impact of increased forest fires on the public's 
health?
    Answer. Yes, this is a growing problem for western pines, 
especially spruce, and is now appearing in the southwest. Drought 
weakens trees by drying out the resin that drowns bark beetles as they 
try to penetrate the bark. Warming compounds the problem by (1) 
increasing the overwintering of beetles, (2) accelerating their 
reproductive rates, and (3) providing the conditions allowing beetles 
to migrate to higher latitudes and altitudes.
    The wildfires associated with drought are worsened by the dead 
stands (infested trees die within one year). The public health problem 
include burns and injuries for firefighters, respiratory disease from 
the smoke (that can carry long distances), and the carcinogens 
generated when buildings are burned. There is also property loss, 
timber loss, damage to habitat, injuries for wildlife and the pulse of 
carbon that from the fires. Wildfires are, of course, an issue for the 
insurance and reinsurance industry. Please find the Washington Post 
Outlook piece with more on these issues.
    I do want to thank you for your deep concern for our environment, 
our security and the economy, and for the opportunity to address these 
issues. I certainly hope that greater attention to the growing 
biological and economic consequences of an increasingly unstable 
climate can propel energy policies that jump-start and sustain a 
transition to clean energy--and, in the process, stimulate the economy. 
I applaud you for your work in initiating this process in the U.S. and 
would be pleased to provide any further assistance in the months and 
years to come.
                                 ______
                                 
``Seasonal and diurnal variations of near-surface atmospheric 
CO<INF>2</INF> concentration within a residential sector of the urban 
CO<INF>2</INF> dome of Phoenix, AZ, USA

by Sherwood B. Idso, Craig D. Idso, and Robert C. Balling Jr.

was submitted by Dr. Epstein as part of his answer to Question 4. on p. 
63. The article was published in Atmospheric Environment 36 (2002) 
1655-1660.

The abstract of the article follows:
Abstract
Over most of an entire year (315 days), we obtained 1-min averages of 
near-surface (2-m height) atmospheric CO<INF>2</INF> concentration, 
temperature and wind speed in a residential area of a suburb of 
Phoenix, AZ. Daily minimum CO<INF>2</INF> concentrations, which 
occurred during the afternoon, were nearly invariant over the year, 
averaging 390.2<plus-minus>0.2 ppm. Daily maximum CO<INF>2</INF> 
concentrations, however, which occurred at night, varied seasonally 
with the air temperature, exhibiting a mean peak of 490.6 ppm about 2 h 
before midnight during the coldest part of the year (December-January) 
and 424.3 ppm just before sunrise during the warmest part of the year 
(July-August). Reevaluating prior assessments of the strength of the 
urban CO<INF>2</INF> dome at the center of Phoenix, our results suggest 
a mean cold-season maximum there of 619.3 ppm, which is 67.4 percent 
greater than the rural background value. At our residential site, 
however, the mean cold-season maximum was only 32.6 percent greater 
than the surrounding rural mean. Averaged over the entire night, this 
enhancement dropped to 25.4 percent in the cold season and 10.9 percent 
in the warm season, while over the daylight period it averaged 10.5 
percent and 10.1 percent in the cold and warm seasons, respectively. 
CO<INF>2</INF> concentrations were greater on weekdays than on weekends 
from 0415 to 0830 in the warm season and from 0445 to 1045 in the cold 
season. During peak morning traffic, the maximum weekday-weekend 
CO<INF>2</INF> differential was 35.9 ppm in the cold season and 22.0 
ppm in the warm season.

Keywords: Automobiles; Boundary layer; Carbon dioxide; City climate; 
Urban environment

Instructions for obtaining this article can be found at http://
www.sciencedirect
.com/science/article/pii/S1352231002001590
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Dr. William R. Fraser
    Question 1. In your written statement, you state that your 
conclusions on impacts of climate change are based upon 25 years of 
field observations and research in the western Antarctic Peninsula 
region. What are the most significant observations you have made during 
your years of field research in Antarctica? What conclusions have you 
drawn from those observations?
    Answer. As I indicated in my written statement, I am an ecologist 
with a long-term interest in identifying and understanding the 
mechanisms that regulate the populations of Antarctica's top marine 
predators, including, in particular, penguins and other seabirds. 
Because aspects of this question are discussed also as part of my 
answer to question #4, I will be purposely brief with my answer here, 
distilling out to the extent possible the key findings and conclusions.
    The effects of climate change on wildlife have now been observed 
throughout much of the world, but identifying and understanding the 
mechanisms by which climate is inducing these changes has been more 
problematic. This has been the focus of much of my work, especially 
with Adelie penguins during the last 15 years. One of the most 
significant findings in this regard, is the observation that the long-
term population trends of AdOlie penguins in the western Antarctic 
Peninsula region are driven by interactions between the marine habitat 
in which they feed and the terrestrial habitat on which they breed. 
Both these habitats are changing in response to rapid climate warming. 
A gradual decrease in the availability of winter sea ice is denying 
Addle penguins access to critical winter feeding areas, while an 
increase in snow accumulation is flooding nesting areas and drowning 
eggs and chicks. The impacts of these processes are cumulative, 
negatively affecting penguin survival, and ultimately driving local 
populations into extinction.
    These findings currently guide much of our current research, 
experimental design and interpretation of our data. The key conclusion 
regarding the question of how climate warming might induce ecological 
changes, is that it specifically seems to disrupt the availability of 
critical resources that species need to survive and reproduce. Addie 
penguin life history, for example, is critically dependent on winter 
sea ice, which is decreasing due to warming and negatively affecting 
populations of this species. Population changes are usually the 
precursors to changes in the composition of plant and animal 
communities, and ultimately in the structure and nature of both 
terrestrial and marine ecosystems. That analogs to our findings are now 
being observed throughout much of the world, is indicative of a 
similar, fundamental mechanism through which climate warming is 
affecting species and ecosystems. It is this finding that in part 
suggests that preserving biodiversity, as I discuss in my answers to 
question #4, should be one of the imperative strategies for mitigating 
climate change effects.

    Question 2. I note that you are from Montana and that much of your 
research has focused on the impact of climate change on glaciers. Would 
you care to comment on the situation in Glacier National Park?
    Answer. In my answer to question 3 below, and also in my testimony, 
I point out that the glaciers in our long-term study area show evidence 
of significant melting and retreat during the last five decades. Our 
interest in these processes are not due so much to the fact that this 
is a focal point of our work, but rather that glacial retreat makes 
available new, ice-free land that can potentially be colonized by 
seabirds such as penguins. This has implications to understanding how 
the western Antarctic Peninsula marine ecosystem is responding to rapid 
warming and affecting the populations of top predators that have been 
the focus of much of my research for nearly three decades. Now directly 
answering the topic addressed by this question, it is worth pointing 
out that the very substantial melting and retreat of glaciers that we 
have observed in our region of Antarctica is actually not a unique 
situation. Rather, it seems to be part of a large-scale pattern now 
evident in most of the ice fields of North and South America from 
Alaska to Patagonia, including Glacier National Park.
    Based on research (http://www.nrmsc.usqs.qov/research/qIaciers.htm) 
by the USGS, only 50 small glaciers remain in Glacier National Park. 
Although these glaciers have been receding since they were first 
described in 1901, tree-ring studies indicate that this recession 
actually began in about 1850. It is estimated that at that time there 
were more than 150 glaciers within the boundaries of the area now 
encompassed by the park. Change in these glaciers, moreover, is 
consistent with an increase since 1900 of approximately 1 +C in average 
summer temperatures. Many smaller glaciers originally present in the 
park have disappeared completely and some of the remaining larger 
glaciers are now approximately \1/3\ the size they were in 1850. There 
has also been a 73 percent reduction in the area of Glacier National 
Park covered by glaciers, from 99 km\2\ in 1850 to only 27 km\2\ in 
1993 when the last major surveys were undertaken. Computer models now 
predict that if present rates of warming continue, the remaining 
glaciers in Glacier National Park will disappear by 2030. The situation 
in Glacier National Park is thus another example of a climate warming 
signature that is in fact coherent over global scales.

    Question 3. In your written testimony, you state that the amount of 
ice-free land which has been redefined by glacial retreat in Antarctica 
includes the exposure of four new islands that were unrecognized on 
maps and charts prior to 1995. Can you elaborate on this finding and 
its implications?
    Answer. The charts and maps to which I refer in this testimony 
encompass the southwest coast of Anvers Island, and were compiled over 
the course of about 20 years beginning in 1950 by British, Chilean, 
Argentine and American cartographers. If one compares these older maps 
and charts with more recent ones, one can see that the original margins 
of the glacier that covers much of
    Anvers Island have retreated inland away from the sea. As a result, 
land that was originally covered by glacial ice, and characterized as 
either not exposed or only partially exposed in the older charts and 
maps, is now ice-free. The four islands discussed in my testimony 
represent such land areas. In the older documents these appear as small 
peninsulas along the coast that, based on naming conventions, were 
clearly regarded as land areas that were physically connected to the 
Anvers Island mainland. Subsequent glacial retreat, however, has 
revealed that these peninsulas are actually islands that are physically 
separated from the mainland by the ocean. Because of these changes, 
many of these older charts and maps no longer portray the coastlines in 
this region accurately. A more serious implication, however, stems from 
the fact that our local observations of glacial recession are in 
agreement with similar observations in many other regions of the world, 
and which bear directly on the issue of potential changes in sea level. 
Much of the western Antarctic Peninsula is glaciated, meaning that 
inputs of melt water into the ocean could as a result of continued 
regional warming contribute directly to a rise in global sea levels.

    Question 4. Your written testimony presents concrete examples of 
the effects of global warming on the animals that live in Western 
Antarctica. How is this significant to human beings, and what should we 
be doing to address this problem?
    Answer. Researchers from many different disciplines have generally 
agreed that the effects of climate warming, if and when it occurred, 
would be observed first and most directly in the polar regions, the 
Arctic and the Antarctic. This prediction was advanced long before 
climate warming became the prominent issue that it is today, and 
encompassed many corollaries on the impacts this warming would have on 
a range of variables and processes, from changes in sea levels to the 
responses of plant and wildlife populations. Within the context of 
these predictions, the significance and implications of our research in 
the western Antarctic Peninsula region to human beings can be 
summarized by highlighting two main points.
    The first is that most of the early predictions about climate 
warming and its possible effects in polar regions strongly concur with 
our observations during the last three decades, a point that becomes 
even more significant if the results of Arctic research are also 
considered. The relevance of these findings are clear. There is no 
longer a valid reason to be skeptical about the reality of climate 
warming, nor about its potential to negatively alter the marine and 
terrestrial ecosystems on which the globe's 6.5 billion people are 
currently dependent. The Arctic and Antarctic are not only proving to 
be extremely sensitive barometers of climate change impacts, but the 
fact that current trends in these regions show no evidence of abatement 
certainly portends of a much warmer future for the earth as a whole.
    The second point, and perhaps one of the most critical to consider 
for our times, was not completely anticipated, and thus emerged as 
somewhat of a surprise. This is the rapidity with which changes are 
actually occurring at the poles, both in terms of their respective 
warming trends and the response times of various ecosystem components. 
If there is a take-home message to consider based on our work in the 
western Antarctic Peninsula region, it is that the timelines for 
virtually all the changes we have observed have been remarkably short, 
in fact, far shorter in most cases than the span of a human lifetime. 
Also important, is that even within the scope of these relatively short 
timelines, the pace of change of many physical and biological ecosystem 
components has neither been gradual nor consistent. A case in point is 
illustrated in Figure 3 of my testimony, which shows that the post-1990 
collapse of Adelie penguin populations was nothing short of 
catastrophic compared to population changes during the entire pre-1990 
period. Consistent with this pattern, and notable because it 
encompassed a very different event, is the recent collapse of part of 
the Larsen Ice Shelf, which was widely reported by the media and 
documented in part by Argentine researchers as eye-witnesses. This 
shelf is located approximately 90 km due east and slightly north of our 
focal study area. In 2002, over the course of only 46 days, the Larsen 
Ice Shelf shed 3320 km\2\ of ice, with the last 2500 km\2\ falling away 
as a catastrophic disintegration. Geological evidence suggests this ice 
shelf had been stable for thousands of years prior to this event. Thus, 
to the extent that our research shows that the western Antarctic 
Peninsula region is a sensitive barometer of climate warming, it is the 
pattern or blueprint of change we have documented that presents the 
most troubling scenario from a global perspective. The implications are 
clear. Major environmental changes due to climate warming could occur 
very rapidly, not unrealistically in the next 30-50 years, and 
encompass catastrophic events from which recovery to pre-event 
conditions may be difficult or impossible.
    Turning now to the question of what we should be doing to address 
global warming, refocusing energy policies and preserving biodiversity 
should in my opinion be at the forefront of possible mitigating 
actions. A recent paper in the 10 June issue of the journal Nature 
based on a 740,000 year old Antarctic ice core concludes that the 
greenhouse gas carbon dioxide today exceeds by 30 percent the previous 
concentrations of this gas over the past 400,000 years. Through their 
activities, particularly the use of fossil fuels, human beings are 
having a significant impact on the earth's climate, and this ice core 
is a most remarkable record supporting this conclusion. In agreement 
with the observations of others, it seems essential to me that 
conservation rather than exploration, combined with increasing 
investments and research on renewable energy and emission control 
technologies, become the immediate focus of any new national energy 
policy. Coupled to this effort, we need to dramatically increase and 
enforce measures that promote and protect global biodiversity, 
including, especially, remaining, reasonably intact and pristine marine 
and terrestrial ecosystems. Apart from the societal benefits that can 
be derived from these ecosystems, biodiversity protection can 
potentially buffer key natural processes from the impacts of climate 
changes. These processes range from the genetic diversity of 
populations to the integrity and composition of species reservoirs that 
will form the raw materials of future ecosystems. Finally, and based on 
what we have documented in Antarctica, it seems clear that our response 
horizon to address climate change issues is probably much shorter than 
we realize, probably no more than 10-15 years, if we consider the lag 
times that mitigating measures will require before they begin 
offsetting the stresses converging on the earth's ecosystems due to the 
combined effects of climate warming and the demand for resources by 
growing human populations. In this light, the two mitigating measures 
discussed are particularly appealing because much of the groundwork 
with respect to implementation and cost-benefit ratios is already 
available, for example, in the core studies associated with the Kyoto 
Protocol and the most recent reports of the Intergovernmental Panel on 
Climate Change. What seems to be missing at the moment in terms of 
going forward with these crucial actions, is the right political 
environment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Philip W. Mote, Ph.D.
    Question 1. You state that it is unlikely that precipitation will 
increase fast enough to offset further warming in the West. What does 
this mean for the future survivability of the region?
    Answer. Future climate-driven reductions in water supply will add 
to the population-driven increases in demand. Increasing conflicts over 
water are likely, but will not threaten the ``survivability'' of the 
region. Rapid population growth in arid areas like Phoenix and Las 
Vegas could continue, but at some point in the near future (even 
without climatic change) available sources of water will be 
insufficient and demand will have to be met by reductions in per capita 
consumption, for example by eliminating the use of landscaping that 
requires large amounts of water. Irrigated acreage is likely to 
continue to decrease in areas with chronic water shortages, with a 
permanent (or drought-contingent) transfer of some existing water 
rights to municipal and industrial (or other) uses. Such transfers are 
already taking place in many areas of the West.

    Question 2. Much of the Western U.S. is heading into its sixth year 
of drought. How does this past year's decreased snowfall affect this 
continuing drought situation?
    Answer. In much of the West, snowfall from October 2003 through 
February 2004 was near-normal, but a very warm dry spring caused 
record-fast decreases in snowpack during March and April. By May 1 most 
of the West had less than 50 percent of normal snowpack, greatly 
reducing water storage. The rapid loss of snow did not translate into 
greater runoff, because soils were unusually dry and absorbed much of 
the snowmelt.

    Question 3. With much of the snowpack melting and heading 
downstream earlier and earlier each year, the risk of floods is 
increased. Can you elaborate on how we could go from flooding in the 
spring to droughts in the summer? What type of stresses does this put 
on the environment?
    Answer. The risk of floods does not necessarily increase with 
warming. In basins where flooding is caused by rapid spring snowmelt, 
i.e., most of the rivers in the West except coastal basins and smaller 
basins in the Southwest, a reduction in snow accumulation means on 
average less flood risk. Changes in spring precipitation regimes could 
offset these effects, but there is little conclusive evidence that such 
changes will be large enough to increase flood risks. In mixed rain-
snow basins, like many in the Northwest and parts of California, 
warming means that precipitation that might have fallen as snow and 
melted later falls as rain, melting snow already on the ground. Thus a 
substantial fraction of the basin has simultaneous runoff, at the same 
time as infiltratration is limited wet (or frozen) soils, hence 
increasing the risk of flooding. In effect the basin area becomes 
larger in winter in a warmer climate--meaning that the same amount of 
precipitation would produce more outflow. Variability of winter flows 
would also increase in general. The earlier snowmelt runoff pulse 
results in an earlier start of the annual summer drought period with no 
precipitation and lower flows, effectively requiring to stretch stored 
water supplies over a longer interval. Lower (and warmer) flows can 
have important consequences for ecosystems. For example, lower and 
warmer freshwater inflows to the San Francisco Bay, can increase 
salinity and disturb ecosystems, lower and warmer streams are 
detrimental to salmon runs.

    Question 4. Where are the areas of the West where precipitation has 
increased and can they offset the areas with declining precipitation?
    Answer. There have been widespread, modest increases in 
precipitation over much of the West since 1916, but the changes are 
generally not very big compared with year-to-year and decade-to-decade 
variations, unlike the changes in temperature in most places. 
Considering only the period since 1950, widespread and substantial 
increases in precipitation are limited to the Southwest, and these 
increases are with respect to the 1950s drought in the Southwest 
region. In addition, natural variability of annual precipitation is 
higher in the Southwest than in the rest of the West, thus it is 
unlikely that these patterns of variability can be relied on to stay 
the same over time, and designing infrastructure to capitalize on 
existing trends is probably a bad idea unless such systems can also be 
shown to function well in other circumstances. Furthermore, reductions 
in precipitation in one area can only be offset by increases in 
precipitation in another where conduits (rivers, canals, or pipelines) 
exist to move the water. Another problem is that there is frequently 
very strong social and political resistance to moving water between 
basins, even if the water is not currently needed in one area and is 
badly needed in another.

    Question 5a. Should we expect to see continued dwindling amounts of 
snowpack in the future?
    Answer. Yes. Warming by itself, which has been observed and is 
virtually certain to continue owing to the accumulation of greenhouse 
gases, will reduce snowpack in most places where winter temperatures 
are at least--10 +C (+14 +F). Rates of decline have been and will 
continue to be greatest in places with mildest climate: the Oregon 
Cascades and the mountains of northern California. Precipitation 
variability will change over time, and there will be dry and wet 
periods in different regions with higher and lower spring snowpacks, 
but snowpack will be lowered in each case because of warmer 
temperatures.

    Question 5b. What do you think will happen to the West's ecosystems 
if we continue to see greatly reduced snowpack?
    Answer. The answers are very place-specific. We know from examining 
records of the last 50-100 years that high-elevation productivity 
increases (trees grow more, and over the long term forests invade 
alpine meadows) when snowpack is reduced, while at moderate and low 
elevation, lower snowpack and earlier snowmelt dries out soils, reduces 
forest productivity, raises likelihood of forest fires, increases 
forest susceptibility to insect infestations, and over the course of 
decades to centuries can transform the dominant forest types as well.
    Changes in snowpack have many consequences beyond simply ground 
cover: it is a dominant factor for ecosystem changes, in some cases 
suppressing activity and in other cases protecting or enhancing plants 
and animals. Change in reflectivity of the surface affect soil 
temperature; changes in timing and quantity of snowmelt affect soil 
microbes, which help determine soil nutrients and hence plant 
productivity. Meadows have more biodiversity (variety of species, 
including insects and large grazing mammals) than forests, so a 
conversion from meadow to forest reduces biodiversity.
    Higher air temperatures and lower summer streamflows, direct 
consequences of warming and reduced snowpack, will tend to increase 
water temperatures in rivers. These changes will have further 
consequences for aquatic ecosystems, particularly for heat-intolerant 
species like salmon and trout, with indirect but important consequences 
for other species. Chemical properties of water change with temperature 
as well, and some aquatic species are very sensitive to chemical 
composition and temperature. Water temperature and the timing of 
streamflow also directly affect the lifecycle of various species--for 
instance, increased water temperatures or the timing of spring peak 
flow may cause eggs to hatch earlier and may cause juveniles to be 
flushed downstream earlier in the spring, with subsequent impacts in 
the estuaries or the coastal ocean (e.g., adequate food supply missing 
earlier in the spring). Migration of adults in the fall may be delayed 
due to low streamflow and/or high water temperatures.
    Prepared by Philip Mote with input from Dr Dan Fagre, Mr Alan 
Hamlet, Dr his Stewart, and Dr David L Peterson.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. George Allen to 
                       Paul Epstein, M.D., M.P.H.
    Question 1. Dr. Epstein, your views are based on the belief that 
global warming will make the world warmer and wetter. A wetter and 
warmer world, in your view, will increase the breeding grounds for 
mosquitoes and increase the incidence of vector borne diseases. Please 
furnish the Committee with copies of your original research and related 
data sources that lead to and support this conclusion?
    Answer. Thank you for this opportunity. The relevant data are found 
in the following papers:

        http://www.med.harvard.eduichge/BAMS.pdf
        http://www.med.harvard.edu/chge/Climate.pdf

    Question 2. Please provide the Committee with the evidence that 
changes in the transmission of vector borne diseases are due to 
climate?
    Answer. I refer you to the Health Chapter from the Third Assessment 
of the Intergovernmental Panel on Climate Change, 2001

        http://www.grida.no/climate/ipcc_tar/wg2/347.htm

    and, especially, the work in that document by Pim Martens and 
Anthony J. McMichael, which reviews the relevant data and 
understanding.
    I also refer you to the 1PCC 2001 Working Group II on Impacts 
chapter:

    Recent Regional Climate Changes, particularly Temperature 
Increases, have Already Affected Many Physical and Biological Systems

        http://www.grida.no/climate/ipcc_tar/wg2/007.htm

    for a comprehensive examination of how many species--including 
birds, butterflies, trees and marine life--are responding to warming 
(especially to warmer winters, occurring twice as fast as overall 
warming since 1970, as over wintering is key to these biological 
responses).

    Question 3. It has been suggested that malaria and dengue and 
yellow fever are tropical diseases. Explain, therefore, dengue and 
yellow fever as far north as Boston and the prevalence of malaria in 
England during the Little Ice Age?
    Answer. The conditions conducive to ongoing transmission of these 
mosquito-borne diseases have existed outside the tropics in many eras. 
There is a lower temperature threshold, however. If temperatures remain 
below 16 +C (60.8 +F) all year around, for example, this would prevent 
transmission of Plasmodium falciparum, the most lethal type of malaria.

    Question 4. Please provide information on malaria outside of 
tropical climates and areas where temperature got colder, not warmer?
    Answer. Please see the first paper mentioned above from the 
Bulletin of the Meteorological Society. Regarding the second part--when 
temperatures got colder--please see the publications of Paul Reiter.

    Question 5. Do you agree that the widespread disappearance of 
malaria has been due to the loss of mosquito habitats, control 
techniques, a smaller rural population, better farming practices, 
medical care and improved living conditions? If not, how do you explain 
such large differences in the incidence of malaria between the Texas 
and Mexican sides of the Rio Grande?
    Answer. Yes I do. Socioeconomic issues, screens, etc. would account 
for the difference. Climate conditions that allow transmission of 
dengue fever are present on both sides of the border, but these 
conditions are necessary for maintaining transmission, but are not 
sufficient for transmission: other factors also certainly contribute.
    Thank you again for this opportunity to address these concerns.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Kenneth A. Colburn
    Question 1. In July 2003, nine states, including Massachusetts, 
formally agreed to join New York in developing a regional strategy in 
the Northeast to reduce greenhouse gas emissions. The strategy entails 
a market-based emissions trading system that would apply to power 
generators emitting carbon dioxide into the atmosphere. Would the cap 
and trade program be limited to power generators in the Northeast, or 
would a Northeast plant, for instance, be able to sell some of its 
credits to a plant from another region?
    Answer. The multi-state effort referenced is called the Regional 
Greenhouse Gas Initiative (RGGI). Nine states have joined in this 
initiative as full participants (CT, DE, ME, MA, NH, NJ, NY, RI, and 
VT), and other jurisdictions are participating as observers (DC, MD and 
PA). The Eastern Canadian Provinces are also observers, represented by 
the province of New Brunswick.
    RGGI is in now the process of doing the technical and analytical 
work necessary to prepare a model rule for a cap-and-trade program 
limiting carbon dioxide emissions from the power sector. RGGI's initial 
effort is targeted for completion in April 2005. Individual 
jurisdictions will then proceed to implement the program through their 
existing legislative and/or regulatory processes. Although greenhouse 
gases other than carbon dioxide will not be included initially, other 
greenhouse gases are likely to be included in later phases of RGGI. 
Similarly, RGGI may expand to include sources outside the power sector 
in later phases. In addition, ``offsets''--reductions elsewhere made by 
and/or paid for by power sector participants--may eventually be 
accepted as meeting compliance obligations under the program. The 
ultimate character of the final RGGI cap-and-trade system awaits 
several decisions to be taken between now and April 2005, so accurate 
characterizations of its future provisions are not possible at this 
time.
    As a general response to this question concerning emission 
reduction credit sales outside the Northeast, allow me to offer the 
following. It is unlikely, in my view, that RGGI would constrain the 
ability of power sector participants to sell credits (representing 
emission reductions above and beyond those the participants themselves 
need to comply with RGGI's cap) to willing buyers outside the 
Northeast. What is significantly less clear, however, is what would 
motivate outside buyers to purchase such credits, since they are 
unlikely to be subject to RGGI's emission reduction obligations. As for 
allowing RGGI sources to buy credits from sources outside the 
Northeast, as noted above, the RGGI participants may decide to allow 
transactions involving ``offsets'' to count toward the compliance 
obligations sources face under the anticipated cap-and-trade program.
    A larger question concerns whether the RGGI cap-and-trade program 
might be expanded to include other states, conceivably even states non-
contiguous to the Northeast. My understanding is that every effort is 
being made to design the RGGI program in such a fashion that not only 
would this be possible, it could occur relatively simply. Since 
greenhouse gas emissions represent a global--rather than regional--risk 
in terms of their impact, the addition of other states to the RGGI 
program in the future should be enabled and encouraged.

    Question 2. How precise are the measurements of greenhouse gas 
emissions from certain sources and regions of the country? For 
instance, does one region in the country generate a greater percentage 
of greenhouse gases than other regions, or is it fairly equal?
    Answer. There is certainly ample room for improvement in the 
calculation of greenhouse gas emissions (known as ``inventories'') from 
regions, states, sources, and even natural processes (e.g., decay). 
However, the vast majority of greenhouse gas emissions result from fuel 
combustion, and because fuel consumption is reasonably well tracked, 
emissions profiles are sufficiently accurate to support climate action.
    Regional emissions and emissions per capita vary fairly 
significantly across the country. Several factors are responsible, 
including the fuels primarily used for power generation (e.g., coal-
burning areas typically have higher emissions) and transportation, 
economic character (e.g., high tech vs. low tech, services vs. 
manufacturing, etc.), relative sector sizes (e.g., transportation, 
power, etc.), age of vehicle fleet, etc. Per capita emissions in 
California--which has little coal combustion--are approximately one 
half of the national average. Emissions vary significantly within 
regions as well. In the Northeast, for instance, per capita emissions 
by state vary by <plus-minus>30-50 percent.

    Question 3. What measurements and monitoring systems are needed to 
further our understanding of the sources and impacts of greenhouse 
gases? It seems to me that if we are to effectively regulate emissions 
and control global warming in this country, we need to build the 
science foundation upon which these regulations would be based.
    Answer. There is no question that continued efforts to improve our 
scientific understanding of climate change, its impacts, to what extent 
it can be curtailed, and how we might most effectively adapt to changes 
that can't be avoided is vitally needed. Climate change is the greatest 
threat facing the sustainability of the planet as we know it and the 
species that have evolved on it (including homo sapiens). Therefore, 
dedicated efforts on the scale of the Manhattan Project or America's 
lunar landing are appropriate with regard to scientific understanding, 
mitigation, and adaptation).
    That said, understanding is a dynamic, iterative process, not a 
static state. We have enough understanding now to warrant concerted 
action. Greater understanding in the future will help refine or adjust 
future action, but our quest for greater knowledge must not be used as 
an excuse to avoid concerted action at this time.
    Redoubled research into atmospheric characteristics, processes, 
history, and changes (e.g., through monitoring, satellite measurements 
and remote sensing, modeling, analysis of proxy indicators, and similar 
strategies) is vital for greater understanding of the nature, rate, and 
risks of climate change (e.g., can we expect linearity from the Earth's 
systems, or should we expect the unexpected?). Because climate impacts 
are likely to vary substantially over geographical and temporal scales, 
regional climate simulation should be a particular priority for greater 
understanding, as difficult as it currently may be.
    Many steps that would directly improve our practical knowledge are 
also readily available. Federal leadership in determining protocols to 
clearly and consistently quantify greenhouse gas emissions from various 
source categories and activities would help sources grasp (and perhaps 
reduce) their emissions profiles, leading to a clearer overall 
emissions inventory picture. Mandatory reporting of greenhouse gas 
emissions should be required of sources for the same reasons. 
Similarly, proposed transportation projects should be required to 
quantify and disclose their attendant greenhouse gas emissions 
consequences. Consistent with America's tradition of transparency, such 
information should be made publicly available, by source, sector, and 
state, along with appropriate trend information. Similar Federal 
efforts to quantify the emissions reductions (and cost savings) 
available from mitigation measures (e.g., from energy efficiency steps) 
could also help significantly, not least in terms of consumer awareness 
and market penetration, particularly in the commercial and residential 
sector.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          William Curry, Ph.D.
Ocean Circulation
    Question 1. Dr. Curry, in your testimony you stated that the 
effects of abrupt climate change would be felt regionally as opposed to 
globally. Can you give some examples of what could theoretically occur 
in certain regions, specifically in the United States, in the event of 
an abrupt climate change?
    Answer. The effects differ depending on when an abrupt change 
occurs since rising greenhouse gases in the atmosphere will continue to 
warm the planet. An abrupt climate change caused by a decrease in 
Atlantic Ocean overturning circulation, if it were to occur in the next 
several decades, would have its greatest impact in the circum-North 
Atlantic region. Colder winters would be felt in eastern North America 
and western Europe leading to possible societal impacts such as 
increased energy demand. If the overturning circulation were to shut 
down (an unlikely prospect according to current model predictions), 
there would be widespread drying in North America, Africa, and Asia, 
particularly in the monsoon regions with concomitant impacts on 
agriculture and water resources.
    If an abrupt change caused by a decrease in Atlantic Ocean 
overturning circulation occurs in a century or more, the average 
temperature of the planet will be much higher. A change in circulation 
may mitigate the effects of this warming in the North Atlantic region, 
but winters would not cool to levels below those experienced today.
    Other potential causes of abrupt climate change also exist which 
can have widespread climate impact. For instance a change in the 
frequency or amplitude of the El Nino-Southern Oscillation system would 
cause significant climate responses, including changes in precipitation 
and evaporation patterns over much of the United States with impacts on 
the frequency and intensity of droughts, floods, and wildfires.

    Question 2. You mentioned that the salinity changes being observed 
in the tropics and the poles are unprecedented in the short history of 
oceanography. However, we know they have happened in past abrupt 
climate change events such as the ``Younger-Dryas'' and the ``Little 
Ice Age''. Do oceanographers have the data necessary from these past 
events to compare the rates of salinity change between the past and the 
present? If so, please explain how the rates compare and if not, what 
data are we lacking that would assist oceanographers in the comparison?
    Answer. Quantitative estimates of the rates of past salinity change 
are difficult to produce in geological archives such as marine sediment 
cores because the resolution of short-term events is poor and because 
geological estimates of past salinity do not have the same level of 
accuracy as modern measurements. Some work is underway using very high 
resolution records and we may see progress in this research in the near 
future. Yet much remains to be done to understand how the ocean 
differed in the past. We still lack high resolution records of past 
salinity from the Arctic Ocean, from subpolar regions of the Atlantic 
and Pacific Oceans, from many tropical locations around the globe, and 
from most of the southern hemisphere. Development of records from these 
regions would greatly improve our understanding of past changes in 
salinity and ocean circulation.
    There is a sound, qualitative understanding about past freshening 
events. The freshening events observed in the geological record were 
most often associated with the sudden release of freshwater caused by 
the collapse of glacial ice dams. As a result, very large amounts of 
fresh water were suddenly and abruptly released into key areas of the 
oceans, causing rapid changes in salinity and ocean circulation. In 
contrast, the freshening observed today is gradual--caused by gradual 
melting of sea ice, glacial ice and by a gradual increase in 
precipitation at higher latitudes. The added freshwater can be traced 
in the deep waters along the western boundary of the Atlantic nearly to 
the equator. So far there has been little effect on ocean circulation. 
It is not clear how the ocean and climate system will react to this 
gradual freshening.
    In my opinion there is a clear need to increase the level of 
government support for geological reconstructions of past abrupt 
climate change to make significant progress in this area. Research 
supported by the National Science Foundation (NSF), particularly the 
Earth System History (ESH) program in the Geosciences Directorate, and 
research supported by the National Oceanic and Atmospheric 
Administration (NOAA) are directed toward this goal.

    Question 3. You stated that oceanographers do not know if these 
salinity changes indicate that we are approaching a threshold that 
could trigger a change in ocean circulation. What is the current state 
of the research being done to figure out what this threshold may 
actually be? What, if any, technological advances are necessary to 
further this research?
    Answer. Several approaches are being pursued to better understand 
the ocean circulation and how it might be perturbed. Overall we are 
still far from predicting the threshold behavior of the oceans, but 
research in three areas will improve understanding.
    First, there is a nascent observational system in the ocean which 
is designed to study and monitor changes in ocean properties and 
circulation. The goal is a system with global coverage much like the 
weather system that monitors changes in the atmosphere. The ocean 
observation system is still inadequate in several ways: observational 
systems are missing from key areas (for instance, many polar and 
subpolar regions of the oceans in both hemispheres) and there are 
technological challenges that need to be overcome in order to study 
certain processes (for instance, the deployment of mooring systems and 
autonomous underwater vehicles beneath sea ice). Some of the important 
processes in ocean circulation occur in winter at high latitudes and in 
regions with significant ice cover, which prove to be significant 
challenges to monitor hydrographic changes.
    Second, numerical model simulations of the oceans continue to 
improve, but certain ocean circulation processes are poorly simulated 
in the current models. The geographic distribution and rates of ocean 
mixing are unrealistic in current models. Some models have difficulty 
reproducing the modern salinity distributions, so it is unclear how 
reliable they are for predicting the future state of the oceans or if 
the oceans are approaching a circulation threshold. Improved 
understanding of ocean circulation processes and improved model 
parameterizations are both needed to make progress. These are 
challenges that will require research funds to better understand ocean 
circulation processes and collaborative research efforts among modelers 
and oceanographers to improve the simulation of the process in computer 
models.
    Third, more geological reconstructions are needed to improve our 
understanding of the past behavior of the oceans. The modern history of 
oceanography is too short to have experienced the full magnitude of 
change that the ocean is capable of. Geological studies will remain one 
of the best ways to ``observe'' ocean circulation behavior and improve 
understanding of threshold behavior in the ocean-climate system.
    These are research challenges with great societal importance but 
the resources to address the challenges are inadequate. According to 
the report of the U.S. Commission on Ocean Policy, government funding 
in ocean sciences has lagged other R&D funding in the United States 
during the last several decades. To address this shortfall and to 
provide the science needed for sound ocean policy, the commission 
report recommends doubling ocean sciences funding over the next five 
years.

    Question 4. If ocean circulation does begin to slow to a point 
where abrupt climate change becomes a serious threat, what will be the 
earliest observable indicators? How can the U.S. improve our ocean 
observation program so that we will be prepared to recognize these 
indicators if and when they occur?
    Answer. The earliest indicators of slowing Atlantic overturning 
circulation are likely to be in the decreased rate of flow of deep, 
cold, salty water across the straits separating the North Atlantic from 
the Norwegian Greenland Sea, and along the western margin of the North 
Atlantic. There may also be changes in the distribution of hydrographic 
properties (temperature and salinity) and the vertical and horizontal 
density gradients seen in the North Atlantic and its adjacent subpolar 
seas. The extent of sea ice in the Arctic Ocean and the exchange of 
freshwater between the Arctic and North Atlantic Oceans may also prove 
important early indicators of changes in hydrography and circulation.
    Because the ocean changes slowly, it will be difficult to separate 
natural variations in these observations from those caused by 
greenhouse warming of the earth. Thus a long-term commitment must be 
made to fully understand the changes in the oceans, with a commitment 
to observe the oceans with a global array of monitoring instruments. 
Deploying an integrated, global system to monitor and observe the 
oceans is one recommendation of the report of the U.S. Commission on 
Ocean Policy. Like the global system in place to observe changes in 
weather, the development of a large scale ocean monitoring system will 
provide significant new information about the changing state of the 
oceans and significantly improve forecasting of future changes in ocean 
circulation and climate.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                         Philip W. Mote, Ph.D.
    Question 1. In your testimony, you state that observed spring 
snowpack has decreased in Western states over the past 50 years, which 
has major ramifications for the region's water supply. You mention that 
Federal legislation may be needed to help agencies adapt to changing 
flows. Can you elaborate on what legislation would be needed?
    (answers prepared by Alan F. Hamlet, Dept of Civil and 
Environmental Engineering, University of Washington: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96fef7fbfaf3f7f0d6e3b8e1f7e5fefff8f1e2f9f8b8f3f2e3">[email&#160;protected]</a>)

    Question 1a. Why should the Federal Government have a prominent 
role in this issue?
    Answer. Water resources planning and management impacts everyone in 
the country, and climate affects water resources.
    Poor planning has high costs down the line. Without the inclusion 
of climate change in long range water planning, the integrated and 
cumulative impacts of global warming have the potential to cost the 
Federal government and the U.S. populace a tremendous amount of money 
over time via unanticipated impacts of droughts and floods and other 
indirect effects to forests, lakes, and coastal areas.
    Climate change will potentially disrupt important transboundary 
agreements between the U.S., Canada, and Mexico, and between states 
that share water resources. The Federal Government is probably in a 
better position to look towards effective and sustainable long term 
solutions than the individual partners in these agreements.
    Adaptation to climate change will take time, and waiting for a 
series of crises to emerge on a case by case basis, while perhaps 
politically expedient, is unlikely to successfully avoid impacts. 
Proactive adaptation is needed. The Federal government is in a position 
to take a leadership role and to provide specific incentives to act.
    Many water management agencies in the U.S. (perhaps most notably 
the U.S. Army Corps of Engineers and the U.S. Bureau of Reclamation) 
are Federal agencies. These agencies implement Federal policies, but 
cannot in general act on their own to change policy. Our experience in 
the Pacific Northwest suggests that these agencies will include global 
warming in their long range planning only when Federal guidelines and 
legislation unambiguously direct them to do so.

    Question 1b. What might Federal legislation to encourage more 
effective long-range water planning for global warming look like?
    Answer. Federal guidelines for water planning carried out by 
Federal water management agencies could include specific directives to:

  <bullet> Assess the potential risks of climate variability and global 
        warming as part of long range planning,

  <bullet> Develop specific contingency plans to cope with climate 
        uncertainty (e.g., better drought plans, like the measure 
        pushed by the Western Governors Association),

  <bullet> Identify ``no regrets'' strategies that are likely to be 
        effective in both resolving current problems and reducing 
        future vulnerabilities to climate variability and global 
        warming,

  <bullet> Identify sustainable long-term management options and their 
        costs,

  <bullet> Develop tools and procedures and an a strategy for 
        streamlining ongoing adaptations to avoid incurring planning 
        ``start up'' costs over and over again as global warming 
        progresses.
An Example from the Pacific Northwest
Planning Activity
    At the request of various Federal agencies including the Bonneville 
Power Administration and the Northwest Power and Conservation Council, 
the U.S. Army Corps of Engineers is preparing to conduct a formal 
review of flood control policy in the Columbia River basin. Flood 
control is an important water resources objective in its own right and 
also has major implications for most other water management activities 
in the basin, including hydropower production and the protection and 
restoration of Columbia River salmon runs. Specific activities that 
have been proposed include remapping of flood plain areas (last done 
about 25 years ago), assessing the state of protective structures such 
as levies and dykes, reassessing flood risks based on more people and 
structures in the flood plain, evaluating alternative flood control 
management policies to improve efficiency of flood control in the 
attempt to reduce unintended impacts on other system objectives.
Climate Connection
    Altered precipitation and snow accumulation and melt patterns in 
the Pacific Northwest, probably already underway as a consequence of 
global warming, have the potential to exacerbate winter flood risks in 
moderate elevation areas, whereas spring flooding may be systematically 
reduced over time. Peak flows may come earlier in the year, and current 
flood evacuation practices may jeopardize reservoir refill by failing 
to capture some of the (decreasing) spring freshet. Flood risks may be 
significantly altered by changing hydrologic regimes, and Federal 
insurance programs need better information upon which to set land use 
guidelines and flood insurance premiums.
What Role Could the Federal Government Play?
    Given that Federal funding will be used to conduct this study, the 
Federal Government could stipulate that the potential effects of global 
warming should be evaluated as part of the study, and an ongoing 
adaptation strategy be specified as a deliverable component of the 
study. Such a strategy might include monitoring activities, research, 
contingency planning, development of more effective management and data 
collection systems, and streamlining of future system performance 
reviews.
Other Water Planning and Management Activities with Federal Oversight 
        Likely to be Affected by Global Warming

        FERC relicensing of hydropower projects

        Long-range planning at Federal agencies such as the Bonneville 
        Power Administration, U.S. Army Corps of Engineers, and U.S. 
        Bureau of Reclamation

        NMFS Endangered Species Act consultation

        FEMA planning guidelines (both land use guidelines and 
        actuarial issues)

        Irrigation policies using Federal storage projects (e.g., USBR 
        projects)

        International negotiations with Canada and Mexico (Columbia 
        River Treaty, Great Lakes, Colorado River)

        Other interstate or international compacts to maintain instream 
        flow or water quality

    In some cases quantitative guidance can be provided (e.g., about 
ranges of future summer streamflows) to these planning processes.

    Question 2. Last year, Washington and Oregon [we add: and 
California] announced plans to develop a coordinated strategy to reduce 
global warming. What are the specific goals and details of that 
strategy and what steps have been taken to begin implementing it?
    (answer prepared by Philip Mote, Climate Impacts Group, University 
of Washington)
    Answer. The answers to this question fall outside our expertise, 
but it is our understanding that the state task forces are still in the 
stage of generating and evaluating proposed steps, with a comprehensive 
plan to be drafted later this year. Each of the states, however, had 
already taken steps to reduce greenhouse gas emissions, for example by 
mandating lower vehicle emissions and higher fuel economy (California) 
or requiring mitigation of CO<INF>2</INF> emissions by new power plants 
(Oregon and Washington). For details, contact the office of each 
state's governor.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                        William B. Curry, Ph.D.
    Question. Dr. Curry, my home State of New Jersey, with more than 
127 miles of densely populated shoreline, has been rising at about 1.5 
inches per year or about double the high estimate for the globe. 
Clearly, New Jersey is at risk of extensive coastal damage in the 
coming years. EPA predicts that by 2100, New Jersey's sea line will 
rise by 27 inches. That represents an enormous loss in terms of the 
human and economic costs. Is it known how such a major increase in sea 
level might impact New Jersey, its coastline and coastal towns?
    Answer. This question is in an area well outside my expertise but I 
will make some general comments. Global warming causes sea level to 
rise in two ways. First, as the ocean warms, it expands in volume. To 
the extent that warming is gradual, this thermal effect on the oceans 
will be experienced as a gradual rise in sea level. Global warming also 
is increasing the rate at which glacier ice is melting. The meltwater 
is flowing to the oceans causing sea level to rise because the ocean is 
gaining water that was previously locked up as ice on land. The melting 
effect on glaciers may be experienced as gradual sea level rise, but 
may also occur in sudden, rapid increases in sea level if glaciers 
suddenly collapse.
    It is clear that rising sea levels will have a great impact on 
coastal states like New Jersey. The effects will be felt in the gradual 
loss of coastal property as sea level rise increases beach erosion and 
causes beaches to retreat. More catastrophic impacts may result during 
severe storms and flooding as the shoreline encroaches on developed 
properties. The mitigations costs of sea level rise are likely to be 
very high. They will also be more easily addressed if sea level rise 
continues to be a gradual process. Sudden collapse of glacier ice would 
make mitigation strategies more problematic.
    Because this is a research area well outside my own expertise, I am 
unfamiliar with specific reports that address the effects of sea level 
rise on New Jersey. Two local New Jersey researchers would be better 
able to address these issues: (1) Kenneth G. Miller of the Department 
of Geology, Rutgers University and (2) Norbert P. Psuty of the 
Institute of Marine and Coastal Science, Rutgers University. These 
individuals are measuring the current rates of sea level rise for New 
Jersey and are also familiar with any specific assessments of the 
impacts of such a rise.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                       Paul Epstein, M.D., M.P.H.
    Question 1. Dr. Epstein, I am astonished that 30,000 to 35,000 
people died in Europe from the terrible heat wave which occurred there 
last summer--and apparently after all the data are reported that number 
is likely go up. The Earth Policy Institute warns that such deaths are 
likely to increase, as ``even more extreme weather events lay ahead''. 
Do you believe there is a likelihood of such a devastating heat wave 
occurring in the United States?
    Answer. Yes the losses were enormous and the European heatwave, 
Summer 2003 was also associated with wildfires, with implications for 
air quality (ozone levels in Switzerland) and the timber industry; crop 
failures and food trade; glacier extent (est. 10 percent loss in Swiss 
Alps) and the hydrological balance (water availability and water 
quality, and sensitivity to future extreme precipitation events); for 
tourism; and subsequent monitoring and preparation for heatwaves (est. 
$500 million in France alone).
    The costs (damages) from climate change published in the IPCC Third 
Assessment Report (2001) are primarily from property and casualty 
losses. The figures--that rose from $4 billion annually in the 1980s to 
$40 bn/yr in the 1990s and are projected to rise to $150 bn/yr within 
this decade--do not include the costs associated with life and health 
losses and the impacts on natural systems from climate extremes and 
diseases.
    Another event, also lying well outside two standard deviations of 
weather variability, occurred in Southeastern Haiti in May, 2004. 
There, flooding occurred after five feet of rain fell in 36 hours (!); 
>2 inches a day is the measure used for an extreme precipitation event. 
Hurricane Mitch in 1998 brought six feet of rain over three days. 
``Outlier'' events appear to already be occurring more frequently.
    The IPCC Third Assessment Report (2001) concluded that extreme 
weather events are becoming more extreme and many (e.g., heatwaves, 
floods) are becoming more frequent. In 2003 the World Meteorological 
Organization reiterated the association of anomalous and severe weather 
with the heat building up in the atmosphere and deep oceans.

    Question 2. Dr. Epstein, in your discussion of forests, you 
described the heat-induced proliferation of beetles and other insects 
that are devastating forests. In my home state of New Jersey, thousands 
of acres of forest have become infested and thousands of trees have 
died. Is it possible to know if these infestations are ``natural'' or 
the result of climate change?
    Answer. Bark beetles are a natural part of the forest ecosystem, 
but climate change is encouraging the proliferation of the infestations 
in two ways:

  1.  Warming leads to their overwintering, migration to higher 
        altitudes and latitudes, and more rapid and frequent 
        reproduction; and

  2.  Drought dries out the resin (or pitch) that drowns the beetles as 
        they bore trough bark; thus decreases the resistance of the 
        trees.

    Both warming and more prolonged droughts are part of climate 
change. Please see accompanying Outlook article from The Washington 
Post.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Dr. William R. Fraser
    Question. Dr. Fraser, we know that the Polar Regions are 
experiencing the greatest and most rapid impacts from climate change, 
in comparison to other regions of the planet. I've visited the 
Antarctic Peninsula, and the Arctic, and this deeply concerns me. The 
average temperatures across the Arctic have raised nearly twice as much 
as the global average--and indigenous communities are paying the price. 
Could you comment on the hardships this has already created for 
circumpolar communities?
    Answer. Regions of the Arctic and Antarctic are experiencing 
similar changes in many environmental parameters. These include 
increasing surface and oceanic temperatures, decreases in sea ice 
extent and changes in the timing of sea ice formation, rapid glacial 
retreat, increasing precipitation and increasing fresh water flows into 
marine and terrestrial basins. The Arctic has also experienced thawing 
of the permafrost. Because these environmental parameters are important 
determinants of the structure and function of polar ecosystems 
generally, similar changes in Arctic and Antarctic biological 
communities and populations have also been recorded. For example, 
deteriorating sea ice conditions are forcing a decrease in populations 
of Adelie and emperor penguins in Antarctica, and of polar bears and 
some seal species in the Arctic. Evidence that has accumulated during 
the last 15 years in particular also indicates that the ranges and 
distributions of many species of both marine and terrestrial plants and 
animals are changing, with lower latitude species becoming more common 
at higher latitudes, and higher latitude species becoming more rare.
    Although Antarctica does not have an indigenous population, this is 
not true of the Arctic, where eight countries host thousands of 
communities of Aleuts, Inuit, Athabascans, Dene and Saami. Although 
extraordinarily diverse in many respects, these indigenous peoples of 
the Arctic share cultures that are fundamentally and inextricably 
linked to the land, and economies that still depend on subsistence 
hunting, fishing and reindeer herding. To these peoples especially, 
climate change poses serious, if not immediate sociological and 
economic threats. This has been shown in a number of TEK (traditional 
environmental knowledge) studies, which not only confirm (and in some 
cases pre-date) the scientific record of climate change impacts briefly 
discussed above, but also reveal the emerging and potential economic 
consequences. In the Canadian Arctic, for example, the indigenous 
peoples of Banks Island and Hudson Bay have reported that hunting 
seals, polar bears and some migratory birds and mammals has become both 
more dangerous and less predictable in the last few decades. They 
attribute this to changes in environmental factors that are affecting 
wildlife directly and/or the ability of hunters to reach wildlife, 
including changes in weather patterns, the extent to which permafrost 
is thawing and the formation and annual persistence of sea ice. Similar 
changes are being documented by indigenous peoples throughout the 
Arctic, even among the non-hunting societies of reindeer herders, who 
have indicated that changing patterns of wind and snow deposition are 
making it increasingly difficult to travel and move their herds to 
suitable seasonal grazing areas. The Arctic, in short, is becoming less 
predictable to a people whose TEK has developed over thousands of years 
and is at the core of their ability to survive both economically and 
culturally. Indeed, the loss of cultural identity due to loss of their 
traditional ways of life, looms as a facet of climate change with 
potentially devastating impacts on Arctic peoples. This is because 
cultures and belief systems, though varied between peoples, are all 
fundamentally based on a relationship with the land and its life. Given 
that changes in these factors are already evident, it seems highly 
probable that undesirable cultural consequences will follow. This 
certainly is at the forefront of concerns among the elders in many 
societies, with some suggesting that such negative cultural 
consequences may be no more than two generations away.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
